<html>
<title> - HOUSING OUR HEROES, ADDRESSING THE ISSUE OF HOMELESS VETERANS IN AMERICA</title>
<body><pre>[Senate Hearing 110-784]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-784
 
   HOUSING OUR HEROES, ADDRESSING THE ISSUE OF HOMELESS VETERANS IN 
                                AMERICA

=======================================================================

                             JOINT HEARING

                               before the

 SUBCOMMITTEE ON TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND 
                            RELATED AGENCIES

                                AND THE

SUBCOMMITTEE ON MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED 
                                AGENCIES

                                 OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      MAY 1, 2008--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE
46-090 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                               __________

                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
 Subcommittee on Transportation and Housing and Urban Development, and 
                            Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        CHRISTOPHER S. BOND, Missouri
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
PATRICK J. LEAHY, Vermont            SAM BROWNBACK, Kansas
TOM HARKIN, Iowa                     TED STEVENS, Alaska
DIANNE FEINSTEIN, California         PETE V. DOMENICI, New Mexico
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
                                     THAD COCHRAN, Mississippi (ex 
                                         officio)

                           Professional Staff

                              Peter Rogoff
                          Meaghan L. McCarthy
                             Rachel Milberg
                            Jonathan Harwitz
                         Jon Kamarck (Minority)
                      Matthew McCardle (Minority)
                        Ellen Beares (Minority)

                         Administrative Support

                              Teri Curtin
                                 ------                                

Subcommittee on Military Construction and Veterans Affairs, and Related 
                                Agencies

                  TIM JOHNSON, South Dakota, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          LARRY CRAIG, Idaho
ROBERT C. BYRD, West Virginia        SAM BROWNBACK, Kansas
PATTY MURRAY, Washington             WAYNE ALLARD, Colorado
JACK REED, Rhode Island              MITCH McCONNELL, Kentucky
BEN NELSON, Nebraska                 ROBERT F. BENNETT, Utah
                                     THAD COCHRAN, Mississippi (ex 
                                         officio)

                           Professional Staff

                            Christina Evans
                             Chad Schulken
                              David Bonine
                       Dennis Balkham (Minority)
                         Ben Hammond (Minority)

                         Administrative Support

                             Renan Snowden
                         Katie Batte (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Patty Murray........................     1
Opening Statement of Senator Tim Johnson.........................     3
Opening Statement of Senator Christopher S. Bond.................     4
Statement of Senator Wayne Allard................................     6
Statement of Senator Jack Reed...................................     8
Prepared Statement of Senator Richard J. Durbin..................     8
Counts of Homeless Veterans......................................     8
Link Between Homelessness and TBI/PTSD...........................     8
Permanent Supportive Housing.....................................     9
Statement of Mark Johnston, Deputy Assistant Secretary for 
  Special Needs, Office of Community Planning and Development, 
  Department of Housing and Urban Development....................    10
    Prepared Statement...........................................    11
Targeted HUD Homeless Grant Assistance...........................    12
Interagency Initiatives..........................................    12
HUD's Homelessness Resource Exchange.............................    13
HUD-VASH and Targeted Homeless Funding...........................    14
Other HUD Veterans Initiatives...................................    14
Statement of Peter H. Dougherty, Director, Homeless Veterans 
  Programs, Department of Veterans Affairs.......................    14
    Prepared Statement...........................................    16
Interagency Council on Homelessness (ICH), Intergovernmental and 
  Local Relationships............................................    17
VA Involvement in Stand Downs....................................    18
Homeless Providers Grant and Per Diem Program....................    18
Technical Assistance Grants......................................    18
Grants for Homeless Veterans With Special Needs..................    19
Residential Rehabilitation and Treatment Programs (RRTPs)........    19
Staffing at VBA Regional Offices.................................    19
Multifamily Transitional Housing Loan Guaranty Program...........    19
Coordination of Outreach Services for Veterans at Risk of 
  Homelessness...................................................    20
HUD-Veterans Affairs Supportive Housing (HUD-VASH)...............    20
Recently Discharged Veterans (Operation Enduring Freedom/
  Operation Iraqi Freedom, OEF/OIF, Veterans)....................    20
Statement of Cheryl Beversdorf, President and CEO, National 
  Coalition for Homeless Veterans................................    20
    Prepared Statement...........................................    22
Homeless Veteran Assistance Programs.............................    23
Homeless Providers Grant and Per Diem Program (GPD)..............    23
Homeless Veterans Reintegration Program (HVRP)...................    24
Addressing Prevention of Veteran Homelessness....................    25
Statement of Steven R. Berg, Vice President for Programs and 
  Policy, National Alliance to End Homelessness..................    26
    Prepared Statement...........................................    28
Homelessness Among Veterans......................................    28
Housing Status of Veterans.......................................    29
The Current Federal Policy Response..............................    30
Needed Federal Policy Response...................................    30
Statement of Richard Weidman, Executive Director for Policy and 
  Government Affairs, Vietnam Veterans of America................    33
    Prepared Statement...........................................    35
VA Homeless Grant & Per Diem Program.............................    35
VA Homeless Domiciliary Programs.................................    36
Homeless Veterans Special Needs..................................    36
Women Veterans and Homeless Women Veterans.......................    37
HUD-VASH.........................................................    39
Homeless Veteran HUD Transitional and Supportive Services Only 
  Funding........................................................    39
Shelter Plus Care (S+C)..........................................    40
Permanent Housing Needs for Low-Income Veterans..................    41
Statement of Paul Lambros, Executive Director, Plymouth Housing 
  Group..........................................................    42
    Prepared Statement...........................................    45
Housing Options for Homeless Veterans............................    45
What Works.......................................................    46
Challenges Faced by Homeless Veterans............................    46
Additional Committee Questions...................................    61
Questions Submitted to Mark Johnston.............................    61
Questions Submitted by Senator Patty Murray......................    61
The HUD-VASH Program.............................................    61
Rapid Re-housing.................................................    62
Coordination Between HUD and the VA..............................    62
The Role of the U.S. Interagency Council on Homelessness.........    63
Questions Submitted by Senator Richard J. Durbin.................    63
Chronically Homeless Veterans....................................    63
HUD-VASH.........................................................    63
Questions Submitted by Senator Dianne Feinstein..................    64
West LA VA Campus................................................    64
HUD-VASH.........................................................    64
Question Submitted by Senator Mitch McConnell....................    64
Program Coordination.............................................    64
Questions Submitted to Peter H. Dougherty........................    65
Questions Submitted by Senator Patty Murray......................    65
Rapid Re-housing Model for Homeless Veterans.....................    65
Coordination Between Federal Agencies in the Field...............    65
The Role of the U.S. Interagency Council on Homelessness.........    65
Transitional Housing Versus Permanent Housing....................    66
The VA's Grant and Per Diem Program..............................    66
Questions Submitted by Senator Dianne Feinstein..................    66
Questions Submitted by Senator Mitch McConnell...................    68
Questions Submitted to Cheryl Beversdorf.........................    71
Questions Submitted by Senator Patty Murray......................    71
The HUD-VASH Program.............................................    71
Preventing Homelessness..........................................    71
Homeless Veterans With Families..................................    71
Transitional Housing Programs....................................    72
The VA's Grant and Per Diem Program..............................    72
The Role of the U.S. Interagency Council on Homelessness.........    74
Questions Submitted to Steve Berg................................    74
Questions Submitted by Senator Patty Murray......................    74
Female Veterans..................................................    74
Rapid Re-housing Model for Homeless Veterans.....................    74
Transitional Housing Versus Permanent Housing....................    75
The Role of the U.S. Interagency Council on Homelessness.........    75
Question Submitted by Senator Richard J. Durbin..................    76
Questions Submitted to Paul Lambros..............................    76
Questions Submitted by Senator Patty Murray......................    76
The VA's Grant and Per Diem Program..............................    76
Coordination Between Federal Agencies in the Field...............    77
Question Submitted by Senator Richard J. Durbin..................    77


   HOUSING OUR HEROES, ADDRESSING THE ISSUE OF HOMELESS VETERANS IN 
                                AMERICA

                              ----------                              


                         THURSDAY, MAY 1, 2008

        U.S. Senate, Subcommittee on Transportation and 
            Housing and Urban Development, and Related 
            Agencies; and Subcommittee on Military 
            Construction and Veterans Affairs, and Related 
            Agencies,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Johnson, Reed, Bond, Hutchison, 
and Allard.


               opening statement of senator patty murray


    Senator Murray. Good morning. This subcommittee will come 
to order.
    I want to begin today by recognizing that this is a joint 
hearing of the Transportation and Housing and Urban Development 
and Military Construction and Veterans Affairs Subcommittees. 
And I want to say a warm welcome to Chairman Johnson and 
Ranking Member Hutchison from MILCON-VA, who is with us today, 
as well as my own ranking member, Senator Bond.
    We are now in the 6th year of the war in Iraq and each 
month thousands of service members are returning home to 
civilian life. As with veterans from each of our Nation's 
previous conflicts, many of these men and women suffer from 
serious psychological and physical health conditions. It is our 
duty to repay their sacrifice with the excellent quality of 
care they have earned.
    Yet, as we speak today, our Nation is struggling to meet 
the needs of our veterans from all conflicts. We know all too 
well that when our country fails to live up to our obligations 
to our veterans, the consequences are high rates of drug and 
alcohol abuse, as well as chronic unemployment and relationship 
problems. All of these are contributing factors to 
homelessness.
    The problem of homelessness among veterans is staggering 
and it is a national tragedy. Experts estimate that one in four 
of all the Nation's homeless are veterans. Each night, as many 
as 200,000 of our veterans will go to sleep without a roof over 
their head and more than 300,000 veterans will experience 
homelessness in a year. Veterans from the Vietnam era are the 
most likely to be homeless. In fact, according to the VA, the 
number of homeless veterans from the Vietnam era is greater 
today than the number of service members who died during that 
war. But advocates are also reporting that more and more 
veterans from Iraq and Afghanistan are appearing in their 
shelters, and we have begun seeing a new trend in which more 
women who have seen combat are seeking help in shelters as 
well.
    Our veterans are heroes who risk their lives for our 
country, and we must ensure that they are getting the services 
and benefits they have earned to help ensure they never reach 
the point of homelessness.
    As I have said countless times, I believe that how we treat 
our veterans when they come home is an indication of the 
character of our Nation. We have to find a way to make the 
transition from soldier to civilian a smoother one. This joint 
hearing is a reflection that tackling the issue of homelessness 
among veterans will require collaboration and cooperation, and 
it will take the hard work of our Government agencies, veterans 
groups, public and private partnerships, and many others 
nationwide.
    So I am pleased today to welcome our panel of distinguished 
witnesses to talk to us about the services that are available 
for today's homeless veterans and about what we can do to 
better address the challenges faced by our current and future 
veterans. All of our witnesses are experts in their fields.
    But I do want to extend a special welcome to Paul Lambros 
who has traveled all the way here from my home State of 
Washington. Paul's organization, Plymouth Housing Group, has 
been serving the homeless in our State for over 25 years. 
Plymouth has opened a great facility in Seattle that serves 
homeless veterans, and Paul hosted a roundtable discussion on 
homelessness among veterans that I held recently in the State. 
So I look forward to hearing from him and all of you sharing 
your experiences with us today.
    But while private organizations across the country are 
taking important steps to get our veterans off the street and 
into housing, they cannot and should not bear this burden 
alone. The Federal Government must be a strong partner.
    Last year, Senator Bond, my ranking member, and I, along 
with Senator Johnson and Senator Hutchison, worked together on 
a bipartisan basis to provide real help to our homeless 
veterans. We revitalized a joint program between the VA and the 
Department of Housing and Urban Development that will ensure 
that more than 10,000 homeless veterans will receive a housing 
voucher and case management services. The program will get them 
safe and stable housing and enable them to get important 
services. It had been almost 15 years since new HUD-VA 
supportive housing vouchers, known as HUD-VASH vouchers were 
issued. So this was a step that was long overdue.
    Since then, the President has also recognized its value, 
and I am pleased that the administration has now requested 
funding for 10,000 additional vouchers in fiscal year 2009. 
These vouchers will give communities important tools to help 
end homelessness for the many veterans who are now living on 
our streets and in our shelters.
    But as several of our witnesses will tell us today, we have 
a long way to go to address the needs of our current veterans, 
and we face new challenges as troops from Iraq and Afghanistan 
return in larger numbers. The current war is taking a 
tremendous toll on our service members. Many of our troops are 
serving longer tours with shorter breaks, and multiple 
redeployments are common.
    A study by the RAND Corporation suggests that one in five 
service members from the wars in Iraq and Afghanistan suffers 
from post-traumatic stress disorder or major depression, and 
even more experienced a traumatic brain injury. But the same 
report found that only about half of those veterans sought 
help, and of that number, only half received even ``minimally 
adequate care.'' (Information on Rand study entitled 
``Invisible Wounds of War'' can be found at www.rand.org/pubs.)
    The face of our military is also changing. Today women are 
serving in greater numbers than ever before, and alarmingly, 
they are also the fastest growing group of homeless veterans. 
Tragically many of these women veterans have also been victims 
of military sexual trauma. One study of women receiving health 
care services from the VA found that 23 percent had experienced 
at least one sexual trauma while in the military. Without 
treatment and resources, each of these challenges and 
conditions can contribute to homelessness, and the impact is 
much worse when the economy is in a downturn.
    Clearly, we have an urgent need to ensure that the programs 
and resources are in place to treat all of our veterans before 
the number of homeless veterans grows. If we are sitting here 
again years from now talking about beginning to address the 
staggering number of homeless veterans from the wars in Iraq 
and Afghanistan, we will have failed them. We must apply the 
lessons we have learned so far. We must ensure that the VA 
evolves along with the needs of the veterans it serves, and we 
must give the VA the resources to meet their needs.
    But the VA does not bear all of the responsibility. While 
it must take the lead, HUD must also be a significant player. 
HUD must work to reintegrate its programs with those of the VA, 
and it must take steps to promote affordable housing and ensure 
veterans are informed about its programs.
    I know that ending homelessness among veterans is a huge 
responsibility, but we have got to make it a priority and we 
have to make progress now. By funding HUD-VASH vouchers last 
year, Congress took one step toward addressing this problem. 
Today, I am pleased that we are continuing the discussion so 
that we can understand what other steps must be taken. When 
these service members took the oath to serve this Nation, they 
did not take it lightly, and it is the responsibility of this 
Government to provide them the support and the care they have 
earned. That is a promise we made to these service members, and 
I intend to ensure that we fulfill it.
    With that, I would like to turn to Senator Johnson and 
thank him again for doing this joint hearing with us.


                OPENING STATEMENT OF SENATOR TIM JOHNSON


    Senator Johnson. Thank you, Chairman Murray. As chairman of 
the MILCON-VA Subcommittee, let me start by thanking you for 
chairing this joint hearing.
    I also want to welcome and thank all the witnesses 
appearing today. It is truly a tragedy that we even have to 
hold the hearing to address homelessness among a population 
that has sacrificed to keep this country safe.
    However, according to the VA, on any given night, about 
154,000 vets are homeless. We have a variety of programs spread 
across several agencies that are all attempting to tackle this 
problem. I look forward to hearing from each of you on how we 
can make these homeless programs more effective.
    Thank you, Madam Chairman.
    Senator Murray. Thank you very much, Mr. Chairman.
    And I will turn to my ranking member, Senator Bond, and 
thank him for his work on this as well.


            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND


    Senator Bond. Thank you very much, Madam Chair, for calling 
the important hearing. I welcome the witnesses today and look 
forward to their testimony.
    Looking back in history a little bit, since I became 
chairman of the VA-HUD Appropriations Subcommittee in 1994, I 
focused on Federal housing programs as an important safety net 
for very low income families, for veterans, for seniors, and 
the disabled, especially under programs like section 8 public 
housing, section 202 elderly, section 811 housing for the 
disabled, and homeless assistance. Unfortunately, veterans 
compose a very significant part of the underserved homeless 
population, and that is something that is of great concern to 
me, as it is to the chair.
    The administration has set a goal of ending homelessness in 
10 years. That goal is unrealistic, but at least it gives us a 
target and an inspiration toward which we must strive. I remain 
committed to eliminating homelessness with a funding commitment 
of some $1.6 billion in fiscal year 2008.
    Unfortunately, we have not made adequate progress towards 
meeting the needs of homeless persons and families. I am very 
much disappointed over the failure and much of the problems 
which come from the inadequate budgets recommended from OMB for 
section 8, public housing, and other programs that are designed 
to meet low income needs. These are the stepladders to 
permanent housing.
    Moreover, the problem has been compounded by the subprime 
crisis. Both homeownership and rental housing are the basis of 
communities which support jobs, churches, schools, hospitals, 
supermarkets, and other retail establishments, as well as the 
tax base for the communities in which they are located. Without 
stable housing, there is little opportunity to solve the 
problem of homelessness.
    It is absolutely critical that the States, communities, and 
the Federal Government, as well as the advocacy groups, work 
together to meet the subprime crisis, as well as ensure 
successful growth and the continued investment in our 
communities. Now, these are partnerships which are critical to 
the success of our Nation and the communities in it, and I hope 
that we can maintain the basic needs for housing and build on 
them to assure the safety net.
    While a number of homeless improvements as well as 
increased funding assistance have been made over time, there 
continue to be enough inconsistencies between homeless programs 
and the actions of jurisdictions which undermine the success of 
these homeless assistance programs, including the transition 
from shelters to permanent housing. Without a seamless 
transition and consistent rules, the overall program will 
continue to under-perform in meeting the long-term needs of 
both homeless persons and families.
    Now, compounding the homeless problem this year was lots 
more freezing weather, threatening the lives of many homeless 
program participants. Moreover, the homeless population has a 
large segment of its population that is troubled with mental 
illness. These people have some very special needs and can be 
disruptive, demanding, and even violent. Often there are 
related associated problems of drug and substance abuse.
    And one of the unique challenges facing any provider is to 
ensure that the homeless population being served is well 
integrated, has a properly trained staff, including medical 
staff, and appropriate facilities suited to the population. 
This is a challenge that changes throughout the years as the 
population and the needs change. This can be very costly, 
including the cost of insurance and related needs, as well as 
medical and staffing costs.
    And another related item, despite more tolerance than in 
recent years, continues to be antipathy and frustration from 
the local populations. Both crime and violence can rise, 
resulting in a backlash and a drop in property values. While 
things have improved in recent years, fear and frustration 
always remain substantial risks to the success of any homeless 
program.
    The bottom line is that well-integrated homeless veteran 
populations managed by professional and committed staff, as 
well as programs tied to the needs of the homeless population 
and community, are critical to the success of the programs, 
their acceptance into the local community, and the kind of care 
and treatment we need to provide to our veterans.
    Unfortunately, this all costs money, as well as a 
commitment, which in many areas can be a difficult problem that 
cannot always be met with Federal and local resources. 
Unfortunately, funds and staff are too often inconsistent, 
leaving many programs with good track records, while others are 
clearly inadequate. This is not a criticism of the many 
homeless programs. It is recognition of the human quality of 
the many programs, as well as their costs, including the 
expense of staff and the real costs associated with the 
maintenance of buildings and programs.
    Moreover, there has been an almost hidden cost to 
homelessness. CNN recently reported some 32 percent of the men 
who stay in homeless shelters served in the U.S. military 
during the Korean, Vietnam, and gulf wars, where as many as 42 
percent served in Vietnam. It is estimated that some 200,000 
vets are homeless, of which some 80,000 served in Vietnam. That 
phenomenon highlights that the majority served the Nation 
honorably but are troubled by the transition to civilian life, 
and many especially need help in dealing with guilt and 
forgiveness.
    While many have a variety of health problems, many also 
suffer from post-traumatic stress disorder, one of the many 
problems that the military has found itself ill-equipped to 
deal with, but for which it has a commitment to these veterans, 
including an opportunity to reintegrate these veterans into 
society and rejoin their communities. I believe that these 
veterans are owed more than a blanket and a hot meal. We must 
provide them with a means of integrating back into their 
communities and their former lives. It is the least we owe 
those who fought to defend and protect our freedom.
    I believe that part of the problem is the lack of a viable 
transition program that addresses the medical problems of 
veterans while providing a transition with local support groups 
and follow-up counseling that will assist in a real transition 
to civilian life, however long that takes. For some, 
homelessness may be as debilitating an illness as any other 
problem they face, and it is an obligation, like any other 
military-related problem, that must be faced by the military as 
an ongoing commitment.
    Senator Murray and I have already taken some first steps to 
help these vets. While a number of VA or DOD programs already 
exist for these types of issues, there seems to be a lack of 
real information or access for many vets as to available 
programs. I hope that we have found a pragmatic and 
programmatic first step to the problems faced by veterans. As 
my friend and chair, Senator Murray, has already noted, we 
included $75 million in the VASH program, which combines 
section 8 assistance in the fiscal year 2008 THUD 
appropriations bill for use in a program to be administered 
jointly by HUD and VA. This way vets can use section 8 to pay 
for housing, while VA can provide the needed programs that we 
hope and expect will offer a return to and reintegration into 
civilian life.
    We all know there is no simple answer to homelessness. 
There are many challenges and problems associated with it, many 
different cases. The problems are different for each person. 
There is no quick fix to be found in any time table. Clearly, 
permanent housing is a primary tool. Permanent housing 
represents a stable base for a job, education, and neighborhood 
integration. But it takes a person to make this work.
    I share with Senator Johnson the fact that we both are 
fathers of veterans who have returned from service, and I can 
tell you that the young men and women who come back are very 
much concerned about the plight of those they have served with 
and those who have served before. I only wish their commitment 
was replicated and seen throughout the country as a whole 
because I can tell you these young men and women coming back 
know what sacrifices have been made by veterans and why we owe 
them the highest quality of care.
    Thank you, Madam Chair.
    Senator Murray. Thank you very much, Senator Bond.
    Senator Allard.


                   STATEMENT OF SENATOR WAYNE ALLARD


    Senator Allard. Thank you, Madam Chair. First, I would like 
to thank you, Chairman Murray and Chairman Johnson, for holding 
this hearing, along with our ranking member Senator Bond from 
Missouri on housing our heroes, addressing the issues of 
homeless veterans in America.
    While every member of the Senate has veteran constituents, 
this is particularly important for Colorado. The 5th 
congressional district located in the Colorado Springs area has 
the Nation's highest concentration of veterans.
    Veterans embody some of America's highest ideals, including 
duty, honor, courage, commitment, and self-sacrifice. In 
recognition of their service to our Nation, we have provided 
them with certain benefits such as education and home ownership 
opportunities. These benefits have been important for veterans 
and their families. Many families might not own a home today 
had it not been for the VA Home Loan Guarantee Program.
    The Federal Government also operates programs designed to 
meet the housing needs of homeless veterans. While these 
programs were not created specifically as a benefit for 
military service, they have evolved as a more effective and 
efficient way to prevent and end homelessness among veterans. 
Homelessness is tragic, but particularly so among those who 
have so nobly served this country.
    As former chairman of the authorizing Housing Subcommittee, 
I have had a longstanding interest in finding ways to prevent 
and end homelessness, principally among our veterans. I have 
been working for a number of years to reauthorize the McKinney-
Vento Act. Currently the Federal Government devotes some 
resources to the homeless. Yet, despite the enormous Federal 
resources directed towards homelessness, the problem persists. 
We need to bring more accountability to homeless assistance, 
increasing funding for successful programs and initiatives, and 
replacing those that are ineffective. There seems to be 
consensus that the McKinney-Vento Act has been an important 
tool to help some of society's most vulnerable members and that 
the first step should be reauthorization of the act.
    There also seems to be consensus that the second step 
should be consolidation of the existing programs. I originally 
introduced consolidation legislation in 2000, and Senator Jack 
Reed offered a proposal in 2002. HUD has also advocated for a 
consolidated program for several years now. While we differed 
in some of the details, including the funding distribution 
mechanism for a new program, these proposals offered consensus 
on the important starting point of consolidation.
    After extensive discussions, Senator Reed and I introduced 
the Community Partnership to End Homelessness Act. The bill 
will consolidate the existing programs to eliminate 
administrative burdens, multiple applications, and conflicting 
requirements. The streamlined approach will combine the 
efficiencies of a block grant with the accountability of a 
competitive system. Localities will submit applications 
outlining the priority projects for the area based on outcomes 
and results. I am especially supportive of approaches such as 
this one that focus on results rather than processes.
    The Community Partnership to End Homelessness Act also 
attempts to acknowledge that homelessness is not confined to 
urban areas, although the solution in rural areas will be 
different for rural areas. This is important to States like 
Colorado which have both urban and rural homelessness 
challenges. This flexible approach will allow localities to 
meet the needs of homeless people in their specific area, be 
they veterans, families, teenagers, chronically homeless, or 
others.
    I am pleased to welcome our witnesses today, many of whom I 
have had the pleasure to work with on a number of occasions. 
Mr. Johnston, Mr. Dougherty, Mr. Berg, and Ms. Beversdorf have 
all previously testified before me on this issue. Their 
previous comments were enlightening and helpful, and I am sure 
their remarks here today will be as well.
    While I have not had the opportunity to work with Mr. 
Weidman and Mr. Lambros, I know that they have excellent 
credentials, and I am certain that they will contribute a great 
deal to our understanding of the challenges confronting 
homeless veterans.
    Before I conclude, I would like to make one final note 
regarding one of our witnesses. As I mentioned, Senator Reed 
and I have been working for a number of years on legislation to 
consolidate HUD's homeless programs. I would like to 
acknowledge the technical assistance provided by Mark Johnston 
on numerous occasions. His expertise has been extremely helpful 
to me and my staff. I would like to publicly thank him for his 
efforts.
    I look forward to this hearing as it will help us better 
understand the existing programs for meeting veterans' housing 
needs as well as ways in which these programs might be 
improved.
    Thank you, Madam Chairman.
    Senator Murray. Thank you very much.
    We have been joined by Senator Reed. Would you care to do 
an opening statement?


                     STATEMENT OF SENATOR JACK REED


    Senator Reed. Well, Madam Chairman, thank you for holding 
this very important hearing. I also want to thank the panelists 
not only for being here today but for helping Senator Allard 
and I on the legislation that we have proposed with respect to 
the issue of homelessness overall. And I look forward to the 
questioning. Thank you, Madam.
    Senator Murray. Senator Durbin has submitted a statement 
for inclusion in the record.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Chairman Murray and Chairman Johnson, thank you for your leadership 
in addressing an issue that's too often overlooked--our homeless 
veterans.

                      COUNTS OF HOMELESS VETERANS

    Many veterans return from war and are able to transition 
successfully back to civilian life. But too many can't and end up 
homeless. We don't have an exact count of the number of homeless 
veterans in the United States, but we know it is well into the hundreds 
of thousands. In 2006, as many as 336,000 veterans experienced 
homelessness over the course of the year. That includes more than 2,200 
in Illinois. As many as 64,000 veterans are chronically homeless--
homeless for an entire year. Veterans also make up a greater percentage 
of the homeless population than the general population. One out of 
every four homeless persons is a veteran, even though veterans 
represent only one in nine adults.

                 LINK BETWEEN HOMELESSNESS AND TBI/PTSD

    These numbers are inexcusable. What's even more alarming is that 
the numbers will grow worse. Veterans from Iraq and Afghanistan are 
coming home with higher rates of traumatic brain injuries (TBI), post-
traumatic stress disorder (PTSD), and depression, among other physical 
and mental wounds. One in five suffers from TBI. One in five suffers 
from PTSD. These returning veterans want to rebuild their lives. 
Unfortunately, leaving the war zone is no guarantee of leaving the war 
behind. Coming home with TBI or PTSD makes the transition to civilian 
life that much harder. It's harder to reconnect with family and 
friends. It's harder to find work. It's harder to keep stable housing.
    This is why Congress has taken a number of steps to help. I 
introduced TBI legislation last year that was enacted as part of the 
Wounded Warriors title in the fiscal year 2008 Defense Authorization 
Act.
    We are trying to help veterans by: improving coordination between 
the Department of Defense and the VA; requiring routine brain injury 
screening tests for military personnel; increasing TBI patient 
benefits; and improving case management and TBI research.
    We've increased funding for veterans health care and benefits above 
and beyond the administration's requests, including an $11.8 billion 
increase in 2007 and a $6.6 billion increase in 2008. And we've 
expanded the VA's polytrauma capabilities to help veterans suffering 
from multiple traumas, such as traumatic brain injuries, hearing loss, 
fractures, amputations, burns, and visual impairments.
    These injuries are not always obvious or easy to identify, and once 
they are identified they will require a lifetime of care. But we owe 
our men and women in uniform at least that much. We're starting to see 
what happens when we skimp on diagnosing and treating these wounds. 
They contribute to unemployment, substance abuse, the breakdown of a 
family, or a life on the streets.

                      PERMANENT SUPPORTIVE HOUSING

    Illinois is doing much to repay its debt to its homeless veterans. 
The Prince Home at Manteno is a pilot program that provides permanent 
housing, advocacy, therapeutic and supportive services for 15 homeless 
and disabled veterans, including those who suffer from PTSD. It's the 
first of its kind in the Nation. And last week I had the opportunity to 
see for myself St. Leo's Residence for Veterans, the product of a 
successful partnership between AMVETS and Catholic Charities.
    St. Leo's combines 141 furnished studio apartments for homeless and 
disabled veterans with a network of supportive services, such as job 
training, health care, and case management. By combining a roof over 
their heads with wraparound supportive services, St. Leo's helps 
formerly homeless veterans rebuild their lives.
    Let me tell you about Caesar Hill. He was one of St. Leo's first 
residents. He came to St. Leo's after 6 years in the Navy as a 
commissioned officer and then 3 years homeless. Because St. Leo's gave 
him the time, shelter, and skills to help him get back on his feet, he 
will be moving out soon to allow another homeless veteran the 
opportunity to rebuild his life. Prince Home and St. Leo's are only two 
examples of an innovative, cost-effective solution to chronic 
homelessness: permanent supportive housing.
    Permanent supportive housing provides housing with support services 
like mental health, employment, education, and case management 
services. It's a solution that recognizes you have to treat the reasons 
that led to the person becoming homeless in the first place, whether 
that means a war injury or stress disorder. This makes permanent 
supportive housing an especially effective tool in helping our homeless 
veterans.
                               CONCLUSION

    As we prepare to debate the Iraq war supplemental, it's time we 
start having an honest and candid dialogue about the true cost of this 
war--not just the cost of fighting it abroad, but the cost of taking 
care of our veterans when they come home. It's a cost we need to be 
prepared to pay, as our dedication to our veterans should match their 
dedication to our country.
    I look forward to learning what more we can do.

    Senator Murray. With that, we will turn to our witnesses 
for their opening statements. I want all of you to know your 
statements will be submitted for the record, and we have 
allocated to each of you 5 minutes for your testimony this 
morning.
    We are going to hear from Mark Johnston, Deputy Assistant 
Secretary, Office of Special Needs Assistance Programs in HUD; 
Peter Dougherty, Director, Office of Homeless Veterans Programs 
from the VA; Cheryl Beversdorf, president and CEO of the 
National Coalition for Homeless Veterans; Steve Berg, vice 
president for Programs and Policy, National Alliance to End 
Homelessness; Rick Weidman, executive director for Policy and 
Government Affairs from Vietnam Veterans of America; and Paul 
Lambros, executive director, Plymouth Housing Group from 
Seattle, Washington.
    Mr. Johnston, we will begin with you.

STATEMENT OF MARK JOHNSTON, DEPUTY ASSISTANT SECRETARY 
            FOR SPECIAL NEEDS, OFFICE OF COMMUNITY 
            PLANNING AND DEVELOPMENT, DEPARTMENT OF 
            HOUSING AND URBAN DEVELOPMENT
    Mr. Johnston. Chairwoman Murray, Chairman Johnson, Ranking 
Member Bond, and members of the committees, I am pleased to be 
here today to represent the U.S. Department of Housing and 
Urban Development. I oversee the Department's efforts to 
provide housing and services to homeless persons. This includes 
addressing the needs of one of our most vulnerable populations, 
that is, homeless veterans and their families. As you have 
already indicated, it is a tragedy that some of these men and 
women, who have risked their lives for us abroad, now sleep on 
our streets at home.
    I would like to take a moment to highlight some of our 
activities that specifically relate to HUD's efforts to serve 
homeless veterans.
    HUD administers an array of targeted programs that Senator 
Allard referred to. We allow local applicants to design both 
veteran-specific projects, as well as more general purpose 
projects that serve veterans among other groups. In 2007, we 
awarded over 2,800 different project awards, representing both 
targeted programs and non-targeted projects that will serve 
homeless veterans this year.
    To underscore our continued commitment to serve homeless 
veterans, we highlight veterans in our annual Continuum of Care 
competition and grant application process. Approximately $1.3 
billion is available in 2008. Over 3,900 cities and counties 
across the country representing about 95 percent of the U.S. 
population, participate in this HUD process. In the grant 
application, we encourage organizations that represent homeless 
veterans to be at the planning table. This attention to 
veterans is reflected in the score that we give each Continuum 
of Care application.
    Because people who are homeless face many challenges, it is 
imperative to involve many partners. HUD, the VA, HHS, Labor, 
and other members of the U.S. Interagency Council on 
Homelessness work together on a regular basis to achieve the 
goal that has been referred to already today, ending chronic 
homelessness. Many of those who are chronically homeless are, 
in fact, veterans.
    With the sustained effort since 2002, we are starting to 
see results. HUD just recently announced in our second annual 
homeless assessment report to Congress, issued about 3 weeks 
ago, an 11.5 percent reduction in chronic homelessness between 
2005 and 2006. This is the first time since the Federal 
programs were created, the McKinney programs of 1987, that we 
have ever seen a reduction in homelessness of any kind in this 
Nation. We anticipate having the 2007 figure by June and expect 
to see an even further reduction.
    To help achieve these results, HUD partnered with the VA 
and other agencies on a number of specific grant initiatives 
that are demonstration projects to target the chronically 
homeless, including those who are veterans. In these 
initiatives, HUD has provided permanent housing and the 
partnering agencies have provided their critical support of 
services. These demonstration efforts have resulted in 
providing a permanent solution for several thousand persons, 
including veterans, who used to call the streets their home.
    With your initiative and action in providing $75 million in 
HUD-VASH, we are now beginning to roll this program out. The 
program combines HUD's housing choice vouchers, which is rental 
assistance administered through our local public housing 
agencies, with case management and clinical services provided 
through the VA in the local community. Through this 
partnership, HUD and VA expect to provide permanent housing and 
support services to approximately 10,000 homeless veterans and 
their families, including veterans who become homeless after 
serving in Iraq and Afghanistan.
    In the fiscal year 2009 request, as you have referred to--
we have requested $75 million in additional HUD-VASH funding 
for approximately 10,000 additional vouchers.
    In addition to requesting funding for HUD-VASH in 2009, the 
administration has again requested record-level funding for 
HUD's targeted homeless assistance programs to better serve 
veterans and other homeless persons. The 2009 request for HUD 
homeless assistance, including HUD-VASH, is a little bit more 
than $1.7 billion, which is well over a 50 percent increase 
from the level of 2001.
    The opportunities to help homeless veterans extend beyond 
working with other Federal agencies, for instance, we work 
regularly with the National Coalition for Homeless Veterans. 
The opportunities to work with other organizations at all 
levels we find are very helpful as we continue to make progress 
in solving homelessness among veterans.

                           PREPARED STATEMENT

    Finally, I want to reiterate my and HUD's commitment to 
help our veterans, including those who are homeless. We will 
continue to work with our Federal, State, and local partners to 
do so. Thank you very much.
    [The statement follows:]

                  Prepared Statement of Mark Johnston

                              INTRODUCTION

    Chairwoman Murray, Chairman Johnson, ranking members, I am pleased 
to be here today to represent the Department of Housing and Urban 
Development. My name is Mark Johnston and I oversee the Department's 
efforts to confront the housing and service needs of homeless persons. 
This effort includes addressing the needs of one of our most vulnerable 
populations--homeless veterans and their families. It is a tragedy that 
some of those who risked their lives for each of us now sleep on the 
streets of this great Nation. These veterans may be homeless due to 
physical or mental disability, or economic distress. HUD provides 
housing and services to homeless veterans through HUD's targeted 
programs for special needs populations, as well as through other 
mainstream HUD resources.
    The Department administers a variety of housing programs that can 
assist veterans. These include the Housing Choice Voucher Program, 
Public Housing, HOME Investment Partnerships, and the Community 
Development Block Grant (CDBG) program. These programs, by statute, 
provide great flexibility so that communities can use these Federal 
resources to meet their particular local needs, including the needs of 
their veterans. In addition to these programs, Congress has authorized 
a variety of targeted programs for special needs populations, including 
homeless persons.
    Unfortunately, veterans are too often represented in the homeless 
population. HUD is committed to serving homeless veterans and 
recognizes that Congress charges HUD to serve all homeless groups. 
HUD's homeless assistance programs serve single individuals as well as 
families with children. Our programs serve persons who are impaired by 
substance abuse, mental illness and physical disabilities as well as 
non-disabled persons. HUD provides an array of housing and supportive 
services to all homeless groups, including homeless veterans. I would 
like to take a moment to outline our activities that specifically 
relate to serving homeless veterans.

                 TARGETED HUD HOMELESS GRANT ASSISTANCE

    In December 2007, HUD competitively awarded a total of nearly $1.3 
billion in targeted homeless assistance. A record 5,911 projects, up 
from 5,288 in fiscal year 2006, received awards. It is important to 
note that veterans are eligible for all of our homeless assistance 
programs and HUD emphasizes the importance of serving veterans in our 
Continuum of Care (CoC) Homeless Assistance programs grant application. 
A total of 154 applications were submitted in 2007 that stated that at 
least 70 percent of their proposed clients would be veterans. Of that 
number, we awarded funds to 149 projects, which represents 97 percent 
of the veteran-specific projects submitted. We awarded just over $31.67 
million to these targeted projects. In addition, we awarded over $698.4 
million to 2,674 projects where at least 10 percent of those to be 
served will be homeless veterans. When you combine all projects that 
will be serving veterans--targeted and non-targeted--we awarded a total 
of 2,823 projects for over $730.07 million in 2007. HUD has been 
tracking the funding of veteran specific projects for the past decade. 
Much progress in serving this population has been made. In 1998, 36 
projects that primarily serve veterans received funding through the 
annual CoC competition, compared to 149 projects in 2007. As the 
overall CoC competition grew in the number of projects both submitted 
and funded, HUD was able to increasingly fund projects to assist our 
Nation's homeless veterans.
    To underscore our continued commitment to serve homeless veterans, 
we have highlighted veterans in our annual planning and grant 
application process. Approximately $1.3 billion is available in the 
2008 Continuum of Care homeless grants competition. In the grant 
application we encourage organizations that represent homeless veterans 
to be at the planning table. Because of this Departmental emphasis, 
over 90 percent of all communities nationwide have active homeless 
veteran representation. We also require that communities identify the 
number of homeless persons who are veterans so that each community can 
more effectively address their needs. To that end, in collaboration 
with the Department of Veterans Affairs (VA), we also strongly 
encourage that communities use VA's CHALENG or Community Homelessness 
Assessment, Local Education and Networking Groups data in assessing the 
needs of their homeless veterans when preparing their HUD grant 
application.

                        INTERAGENCY INITIATIVES

    The administration's goal to end chronic homelessness is helping to 
meet the needs of homeless veterans. Because the chronically homeless 
face many challenges, it is imperative to involve many partners. HUD, 
VA, the Department of Health and Human Services, the Department of 
Labor and the other agencies that make up the U.S. Interagency Council 
on Homelessness (ICH) have worked to achieve this goal at the Federal 
level. With a sustained effort since 2002, we are starting to see 
results. HUD just recently announced, in our Second Annual Homeless 
Assessment Report to Congress, published in March 2008, an 11.5 percent 
reduction in chronic homelessness nationwide between 2005 and 2006. 
This is the first time since the Federal homelessness programs were 
created through the McKinney-Vento Act in 1987 that this country has 
seen a reduction in homelessness of any kind. We anticipate having the 
chronic homeless figure for 2007 by June and expect to see an even 
further reduction.
    I represent HUD on VA Secretary Peake's Advisory Committee on 
Homeless Veterans. This important advisory group has specifically 
addressed chronic homelessness among veterans. Additionally, there are 
a number of initiatives that HUD has been involved in that focus on 
ending chronic homelessness in this country. I'd like to highlight 
several of them.
    The first is a joint initiative among three Federal departments of 
the U.S. Interagency Council on Homelessness--HUD, VA, HHS. Called the 
Collaborative Initiative to Help End Chronic Homelessness, this was the 
first demonstration program to specifically focus on chronically 
homeless persons. HUD contributed $20 million of the initial $35 
million awarded. HUD's funds provided the housing needed by this 
population. VA and HHS provided the needed supportive services to help 
persons stabilize their lives. Hundreds of people, including veterans, 
who formerly called the streets their home, are now living in stable 
housing and taking advantage of substance abuse treatment and other 
needed services. HUD has also provided almost $4.9 million in renewal 
funding through HUD's annual Continuum of Care competition for 
continued housing assistance for this special initiative. A preliminary 
evaluation report from VA through the Northeast Program Evaluation 
Center (NEPEC) shows that over 1,200 chronically homeless persons have 
received housing and services at these 11 sites. Furthermore, 30 
percent of the evaluation participants for this initiative were 
chronically homeless veterans.
    HUD and the Department of Labor joined forces and awarded $13.5 
million to five grantees nationwide to provide permanent supportive 
housing and employment assistance to chronically homeless persons, 
including veterans. The local partners provided additional needed 
services such as health care, education, and life skills. We believe 
that the combination of housing and jobs has helped chronically 
homeless persons change their lives and become more self-sufficient. 
HUD has provided $1.47 million in subsequent renewal funding through 
HUD's annual Continuum of Care competition for continued housing 
assistance to these grantees. Over 400 chronically homeless individuals 
have been provided with housing and services, of whom approximately 15 
percent are chronically homeless veterans.
    HUD also developed, in consultation with the Interagency Council on 
Homelessness, a third initiative to assist chronically homeless persons 
with a long-term addiction to alcohol. Called the Housing for People 
who are Homeless and Addicted to Alcohol (HHAA) initiative, HUD 
provided $10 million in initial funding to 12 programs in 11 cities. 
Subsequently, HUD has awarded approximately $4.66 million in additional 
funding through HUD's annual Continuum of Care competition to sustain 
this effort. HUD provided funding for permanent housing and the 
community partners provided needed supportive services for these 
chronically inebriated individuals. This initiative is serving 
approximately 550 persons with permanent supportive housing, of whom 
approximately 21 percent are veterans.
    HUD regularly works with other Federal program partners to address 
the needs of homeless persons, including homeless veterans. For 
example, this past August, HUD participated in the Department of 
Labor's DOL-VETS Grantees Training Conference held in Denver, Colorado. 
HUD was able to provide information on our homeless funding process to 
over 300 DOL grantees who received awards to help veterans overcome 
employment barriers.

                             VA STAND DOWN

    In January 2008, HUD participated in VA's Stand Down at the 
Washington, DC VA Medical Center. Unique to this event was a pilot HUD/
EITC program--Earned Income Tax Credit counseling for homeless 
veterans. HUD and the IRS partnered to reach out to homeless veterans 
at the Stand Down. As a result of this pilot, of the 256 total 
taxpayers at the event, 41 tax returns were prepared. The largest 
refund was $1,117, and the average refund was $351. Based on this 
initial success, VA and the IRS are looking to expand the initiative to 
other Stand Downs around the country.

                  HUD'S HOMELESSNESS RESOURCE EXCHANGE

    The new Homelessness Resource Exchange (located at www.HUDHRE.info) 
is HUD's one-stop shop for information and resources for people and 
organizations who want to help persons who are homeless or at risk of 
becoming homeless. It provides an overview of HUD homeless and 
mainstream housing programs, our national homeless assistance 
competition, technical assistance information, and more.
    The HUDHRE has a number of materials that address homeless 
veterans' issues. For example, HUD dedicated approximately $350,000 to 
enhance the capacity of organizations that do or want to specifically 
focus on serving homeless veterans, update existing technical 
assistance materials, and coordinate with VA's homeless planning 
networks. As a result, we developed two technical assistance 
guidebooks. The first guidebook, Coordinating Resources and Developing 
Strategies to Address the Needs of Homeless Veterans, describes 
programs serving veterans that are effectively coordinating HUD 
homeless funding with other resources. The second guidebook, A Place at 
the Table: Homeless Veterans and Local Homeless Assistance Planning 
Networks, describes the successful participation of 10 veterans' 
organizations in their local Continuums of Care. Additionally, we have 
held national conference calls and workshops to provide training and 
assistance to organizations that are serving, or planning to serve, 
homeless veterans. All of this information is available on the HUDHRE 
website.

                 HUD-VASH AND TARGETED HOMELESS FUNDING

    With the initiative and action of these committees and the support 
of the administration, HUD is starting to roll out the HUD-Veterans 
Affairs Supportive Housing Program, called HUD-VASH. The 2008 
Consolidated Appropriations Act (Public Law 110-161), enacted December 
26, 2007, provided $75 million for HUD-VASH vouchers for 2008 funding. 
The HUD-VASH program combines HUD Housing Choice Voucher rental 
assistance (administered through HUD's Office of Public and Indian 
Housing through local Public Housing Agencies) for homeless veterans, 
with case management and clinical services provided by VA at its 
medical centers in the community. Through this partnership, HUD and VA 
expect to provide permanent housing and services to approximately 
10,000 homeless veterans and their family members, including veterans 
who have become homeless after serving in Iraq and Afghanistan.
    The President has requested $75 million for fiscal year 2009 for 
HUD-VASH. This will provide approximately 10,000 additional vouchers to 
those being awarded this year. HUD-VASH will make a significant impact 
on those who bravely served this great Nation and who have returned to 
live on our streets and in our emergency shelters. In addition to 
requesting funding for HUD-VASH in 2009, the administration has again 
requested record-level funding for HUD's homeless assistance grants 
programs to better serve veterans and others who become homeless. The 
fiscal year 2009 requested level, including HUD-VASH, is $1.711 
billion, which is a 56 percent increase over the $1.1 billion targeted 
homeless funding appropriated in 2001.

                     OTHER HUD VETERANS INITIATIVES

    The opportunities to focus on issues involving homeless veterans 
extend beyond the Federal agencies. For instance, HUD regularly works 
with the National Coalition for Homeless Veterans and actively 
participates in their conferences. These opportunities to work with 
organizations at all levels are very helpful as we continue to make 
progress in serving homeless veterans.
    To coordinate veterans' efforts within HUD, to reach out to 
veterans organizations, and to help individual veterans, HUD 
established the HUD Veterans Resource Center. The Center has a 1-800 
number to take calls from veterans and to help address their individual 
needs. The Center takes well over one thousand calls each year. The 
Resource Center works with each veteran to connect them to resources in 
their own community. Finally, the Center also provides information 
within the Department and with other agencies and veterans 
organizations to better address the needs of veterans.

                               CONCLUSION

    Again, I want to reiterate my and HUD's desire and commitment to 
help our veterans, including those who are homeless. We will continue 
to work with our Federal, State and local partners to do so. I will be 
glad to address any questions you may have.

    Senator Murray. Thank you very much, Mr. Johnston.
    Mr. Dougherty.

STATEMENT OF PETER H. DOUGHERTY, DIRECTOR, HOMELESS 
            VETERANS PROGRAMS, DEPARTMENT OF VETERANS 
            AFFAIRS
    Mr. Dougherty. Chairwoman Murray, Chairman Johnson, members 
of the subcommittees, let me start out by telling you how much 
we appreciate what you have done to provide the funding to 
create more than 10,000 units of housing for veterans under the 
HUD-VASH program. It is the most significant action taken in 
resolving this problem in many years.
    As you know, the VA is the largest single health care 
system, providing health care to more than 100,000 veterans who 
are homeless each year. With your help, we are making 
unprecedented strides in expanding current and creating new 
services in partnership with others.
    We aggressively reach out to veterans. We engage them in 
shelters, in soup kitchens, on the streets, under the bridges, 
in both rural and urban America. We connect them with a 
complement of VA health care and benefits, as well as connect 
them to other programs and services that we do not run and 
control. Our objective is to help these veterans receive 
coordinated care with VA benefits, which in turn furthers their 
chances to obtaining and maintaining independent housing and 
gainful employment. This year we expect to spend over $2 
billion for homeless veterans, both in our specific programs 
geared to those veterans and the general health care services 
for those veterans.
    Besides health care, benefits are very important. The 
Veterans Benefits Administration has expedited over 21,000 
homeless veterans' claims in the past 4 years. This has allowed 
many veterans who are homeless to get an economic system of 
support which helps them move on.
    We engage in outreach activity in a variety of ways and 
partnerships. We do that through stand downs. That is an effort 
that has been out there for more than 20 years. Last year, the 
Department participated in 143 of those events. We saw over 
27,000 veterans and 3,500 spouses and children of veterans in a 
community activity that engaged more than 18,000 volunteers at 
143 events.
    We believe the best strategy with this new generation of 
veterans is to get to them and reach them early. You created an 
eligibility for them to get health care for a period of 5 
years. We believe that that is very important because it allows 
our clinical staff, when that veteran comes in and receives a 
health care visit for something that was not necessarily 
considered to be a homeless problem to ask questions, we think 
are leading many of these men and women to services that they 
need that will prevent them from being homeless. We believe the 
best option is to reach these veterans early so that we do not 
have more acute problems later.
    Last year we had over 9,000 people come to meetings across 
the country to talk about the met and unmet needs of homeless 
veterans. Those are called our CHALENG meetings. Besides giving 
us that kind of information, it also helps us to determine how 
many homeless veterans are out there. At the current time, we 
believe that on any given night there are approximately 154,000 
veterans. That is a significant reduction, but it is still, as 
you know, way too many. We are confident that with your support 
we will continue to achieve the goal of ending chronic 
homelessness among veterans.
    Last year you set funding for HUD that is creating more 
than 10,000 dedicated units of permanent housing under the 
section 8 program. That law requires that VA provide dedicated 
case managers. We have worked very closely with our colleagues 
at HUD, and I want to compliment Mark Johnston and others at 
that Department. We are in the process of hiring and have 
already started a process to hire 290 dedicated case managers 
who will work specifically with those veterans who will be 
housed in programs in communities, all across the country, 
everywhere in the country.
    We complement that effort with our Grant and Per Diem 
Program. We have more than 9,000 beds that are operating today. 
We have a review going on today that will create more than 
2,200 additional units of housing.
    We have done some other homeless activities with the 
Department of Labor where we have done a joint outreach to 
veterans who are coming out of incarceration. We think those 
are the kinds of things that are good for homeless prevention 
and good for our society.

                           PREPARED STATEMENT

    We appreciate what you have done to help us improve our 
services.
    This would conclude my formal statement, and I look forward 
to answering any questions you and the committee may have.
    [The statement follows:]

                Prepared Statement of Peter H. Dougherty

    Chairman Murray and Chairman Johnson, Ranking Members Bond and 
Hutchison, and members of the subcommittees, I am pleased to be here 
today to discuss programs and services of the Department of Veterans 
Affairs (VA) that help homeless veterans achieve self-sufficiency. 
Thank you for inviting us to testify today.
    Homelessness for any person is unacceptable; however, for those who 
have honorably served our nation in the military, homelessness should 
be inconceivable. VA's commitment to end chronic homelessness among 
veterans gains strength every day. To meet that goal, VA is making 
unprecedented strides to create opportunities to bring together 
veterans in need of assistance with the wide range of services and 
treatment VA provides directly as well as those services we offer in 
partnership with others.
    As the largest integrated health care system in the United States 
and, as such, the largest provider of homeless treatment and assistance 
services to homeless veterans in the Nation, VA provides health care 
and services to more than 100,000 homeless veterans each year. We do 
this by aggressively reaching out and engaging veterans in shelters and 
in soup kitchens, on the streets and under bridges. By not waiting for 
veterans to contact us and by proactively offering services, VA helps 
some 70,000 of these veterans each year who would not otherwise know of 
their eligibility for assistance. We connect homeless veterans to a 
full complement of VA health care and benefits, including compensation 
and pension, vocational rehabilitation, loan guaranty, and education 
services.
    We continuously work to reach and identify homeless veterans and 
encourage their utilization of VA's health care system. Once they are 
enrolled, we furnish timely access to quality primary health care, as 
well as psychiatric evaluations and treatment and engagement in 
treatment programs for substance-related problems. In addition, it is 
extremely important that these veterans are seen by mental health 
specialists and a case manager. Our objective is to help these veterans 
receive coordinated needed care and other VA benefits, which in turn, 
furthers their chances of obtaining and maintaining independent housing 
and gainful employment. The provision of such VA assistance should 
enable most veterans to live as independently as possible given their 
individual circumstances.
    We work very closely with our Federal partners at the Departments 
of Housing and Urban Development (HUD), Health and Human Services (HHS) 
and Labor (DOL), specifically DOL's Veterans' Employment and Training 
Service, to ensure those homeless veterans who want and need housing, 
alternative access to health care, and supportive services and 
employment have an opportunity to become productive, tax-paying members 
of society. Housing and employment are very important because we 
understand from many formerly homeless veterans that having 
opportunities for gainful employment were vital to their being able to 
overcome psychological barriers that contributed to their homelessness.
    With the support of Congress, VA continues to make a significant 
investment in the provision of services for homeless veterans. We 
expect to spend over $300 million this year in programs to assist 
homeless veterans and an additional $1.8 billion in medical care 
treatment costs.
    Services and treatment for mental health and substance-related 
problems are essential both to the already homeless veteran and to 
those at risk for homelessness. VA's overall mental health funding 
increased by nearly $300 million this year, and we use those funds to 
enhance access to mental health services and substance use treatment 
programs. Increasing access and availability to mental health and 
substance use treatment services are critical to ensure that those 
veterans who live far away from VA health care facilities are able to 
live successfully in their communities.
    Equally important is the work of the Veterans Benefits 
Administration (VBA). VBA's loan guarantee program allows non-profit 
entities to purchase VA foreclosed properties. More than 200 homes have 
been sold to non-profit and faith-based organizations that are helping 
to provide thousands of nights of shelter to homeless veterans and 
other homeless individuals. I also want to note that VBA's Compensation 
and Pension Service strives to provide timely processing and payment of 
benefits claims to homeless veterans. As a result of VBA's efforts, 
21,000 veterans' claims were expedited to allow these veterans to 
receive the benefits to which they are entitled.
    As part of VA's efforts to eradicate homelessness among veterans, 
we work in a variety of venues with multiple partners at the Federal, 
State, territorial, tribal, and local government levels. We have 
hundreds of community non-profit and faith-based service providers 
working in tandem with our health care and benefits staff to improve 
the lives of tens of thousands of homeless veterans each night. We have 
about 2,000 beds for homeless veterans specifically available under our 
domiciliary care and other VA-operated residential rehabilitation 
programs.
    A year-long follow-up study of 1,350 veterans discharged from VA's 
residential care programs indicates that we are achieving long-term 
success for the well-being of these veterans. Four out of five veterans 
who completed these programs remain appropriately housed 1 year after 
discharge. Through such effective, innovative, and extensive 
collaboration, VA is able to maximize opportunities for success.
    We firmly believe that the best strategy to prevent homelessness is 
early intervention. As the subcommittee knows, combat-theater veterans 
returning from the present conflicts in Iraq and Afghanistan have, 
depending on their date of discharge, enhanced enrollment priority for 
up to 5 years in VA's health care system and extended eligibility for 
VA health care at no cost for conditions possibly related to their 
combat-service. We believe that this eligibility allows our clinical 
staff to identify additional health problems that may, if otherwise 
left untreated, contribute to future homelessness among those veterans. 
During the past 2 years, 556 returning veterans have needed VA 
residential services either in VA-operated programs or in the community 
transitional housing programs under our Homeless Grant and Per Diem 
Program. The best option is to reach out and treat those in need who 
are willing to seek services today to prevent more acute problems 
later.

INTERAGENCY COUNCIL ON HOMELESSNESS (ICH), INTERGOVERNMENTAL AND LOCAL 
                             RELATIONSHIPS

    VA has always been an active partner with nearly all Federal 
departments and agencies that provide services to homeless veterans. In 
March, Secretary Peake was elected to chair the Interagency Council on 
Homelessness (ICH), demonstrating his and VA's commitment to working 
collaboratively. We participate in a variety of interagency efforts to 
assist homeless veterans. During Secretary Peake's tenure as ICH Chair, 
VA will continue an initiative we started several years ago of hosting 
regular meetings of the ICH Senior Policy Group. These efforts have 
brought VA to an unprecedented involvement in State and local plans to 
end chronic homelessness.
    In the past, VA has worked closely with HUD and HHS to assist the 
chronically homeless with housing, health care, and benefits 
coordination. Under this initiative, funding was provided to 11 
communities that developed quality plans to house and provide 
wraparound services. As a result of our collaboration, nearly 1,200 
individuals were enrolled in the program during the first year of the 
project, and nearly 600 were housed. Thirty percent of those receiving 
services under this initiative are veterans. This effort is based on 
the premise that housing and treating those who are chronically 
homeless will decrease total costs for health care, emergency housing, 
related social services, and the court system. VA is pleased to be a 
partner in this effort. We are also pleased to lead the effort to 
evaluate this project, in partnership with HUD and HHS, and look 
forward to sharing with you our findings regarding the subsequent year 
of the project when they become available.
    VA has a long tradition of engaging and working with local 
providers in their communities. VA collaborates annually with 
communities across the United States in Project CHALENG (Community 
Homelessness Assessment, Local Education and Networking Groups) for 
veterans. At regularly scheduled CHALENG meetings, VA works with faith-
based and community homeless service providers, representatives of 
Federal, State, territorial, tribal, and local governments, and 
homeless veterans themselves. Our meetings and annual reports are 
designed to identify met and unmet needs for homeless veterans, aid in 
the community effort to aid homeless veterans, and develop local action 
plans to address those identified needs.
    Last year our CHALENG meetings had over 9,000 participants, 
including nearly 5,000 current or formerly homeless veterans at 
meetings sponsored by VA medical centers and supported by regional 
offices to strengthen their partnerships with community service 
providers. This leads to better coordination of VA services as well as 
the development of innovative, cost-effective strategies to address the 
needs of homeless veterans at the local level. It shows us what is 
being done effectively and what pressing unmet needs remain.
    This process also helps us establish, as part of local needs, an 
estimate of the number of veterans who are homeless on any given night. 
You should be pleased to know that, based on the most recently 
available data, the number of homeless veterans appears to be going 
down. Two years ago we estimated there were approximately 195,000 
homeless veterans on any given night. Last year we believe that number 
dropped to 154,000, a 21 percent reduction. While there are still far 
too many veterans among the homeless, we are making progress, and their 
numbers are coming down. This progress demonstrates to us that this 
scourge is not unmanageable and that our collective efforts are 
realizing success. We are confident that our continued efforts will 
achieve our goal of ending chronic homelessness among veterans.

                     VA INVOLVEMENT IN STAND DOWNS

    VA's involvement in stand downs began more than 20 years ago when 
the first stand down for homeless veterans was held in San Diego. Stand 
downs are typically 1 to 3-day events and bring a wide range of 
specialized resources together to provide homeless veterans with 
comprehensive medical and psychosocial services. We have participated 
in over 2,000 events since then. Participating in stand downs for 
homeless veterans is another avenue by which VA continues its 
collaborative outreach at the local level through coordination of our 
programs with other departments, agencies, and private sector programs. 
In calendar year 2007, VA, along with hundreds of veterans service 
organization representatives, community homeless service providers, 
State and local government offices, faith-based organizations, and 
health and social service providers, provided assistance to more than 
27,000 veterans. The latest information shows that more than 3,500 
spouses and children attended these events. Nearly 18,000 volunteers 
and VA employees participated in last year's stand downs.

             HOMELESS PROVIDERS GRANT AND PER DIEM PROGRAM

    VA's largest program involving local communities remains our 
Homeless Providers Grant and Per Diem Program. As you are aware, this 
highly successful program allows VA to provide grants to State and 
local governments, as well as faith-based and other non-profit 
organizations, to develop supportive transitional housing programs and 
supportive service centers for homeless veterans. The current Notices 
of Funding Availability (NOFA) has $37 million available: $12 million 
for per diem only programs and $25 million for new grant programs. 
Organizations may also use VA grants to purchase vans to conduct 
outreach and provide transportation for homeless veterans to receive 
health care and employment services.
    Since the Grant and Per Diem Program was authorized in 1992, VA has 
fostered the development of nearly 500 programs with more than 9,000 
operational beds today and with plans already approved or in process to 
develop more than 14,000 transitional housing beds. We already have 23 
independent service centers and provided funding for 200 vans to 
provide transportation for outreach and connections with services.
    We accepted applications pursuant to two NOFAs that we believe will 
create 2,200 new transitional housing beds. We have begun our review of 
the applications and anticipate announcing the awards by the end of 
this fiscal year.

                      TECHNICAL ASSISTANCE GRANTS

    With the enactment of Public Law 107-95, VA was authorized to 
provide grants to entities with expertise in preparing grant 
applications. We have awarded funding to two entities that are 
providing technical assistance to non-profit community and faith-based 
groups that are interested in seeking VA and other grants relating to 
serving homeless veterans. Grants were awarded to the National 
Coalition for Homeless Veterans, Public Resources, Inc., and the North 
Carolina Governor's Institute on Alcohol and Substance Abuse, Inc. to 
aid us in this effort. VA will continue to expand and improve services 
to connect veteran-specific service providers to other government and 
non-government resources.

            GRANTS FOR HOMELESS VETERANS WITH SPECIAL NEEDS

    VA also provides grants to its health care facilities and existing 
grant and per diem recipients to assist them to serve homeless veterans 
with special needs, including women, women who care for dependent 
children, the chronically mentally ill, frail elderly, and the 
terminally ill. We initiated this program in fiscal year 2004 and have 
provided special needs funding totaling $15.7 million to 29 
organizations. We issued two NOFAs on February 22, 2007. That call 
resulted in $8.8 million to continue to fund both existing special 
needs grants and new awards.

       RESIDENTIAL REHABILITATION AND TREATMENT PROGRAMS (RRTPS)

    VA's Domiciliary Care for Homeless Veterans (DCHV) Program, which 
was recently renamed the Residential Rehabilitation and Treatment 
Program, provides a full range of treatment and rehabilitation services 
to many homeless veterans. Over the past 17 years, VA has established 
34 DCHV programs providing 1,873 beds. There have been over 71,000 
episodes of treatment in the DCHV program since 1987. VA continues to 
improve access to the services offered through these programs. In 
fiscal year 2007, DCHV programs treated 5,905 homeless veterans, while 
VA funded the development of 9 new DCHV programs offering a total of 
400 new beds. In fiscal year 2006, VA funded the development of 2 
additional DCHV programs totaling 100 beds. In addition to the DCHV 
program, homeless veterans receive treatment and rehabilitation 
services in the Psychosocial Residential Rehabilitation Treatment 
Program (PRRTP). Currently there are 72 PRRTP programs with a total of 
2,020 beds.

                    STAFFING AT VBA REGIONAL OFFICES

    Homeless Veterans Outreach Coordinators at all VBA regional offices 
work in their communities to identify eligible homeless veterans, 
advise them of VA benefits and services, and assist them with claims. 
The coordinators also network with other VA entities, veterans service 
organizations, local governments, social service agencies, and other 
service providers to inform homeless veterans about other benefits and 
services available to them. In fiscal year 2007, VBA staff assisted 
homeless veterans in 28,962 instances. They contacted 4,434 shelters, 
made 5,053 referrals to community agencies, and made 4,006 referrals to 
VHA and DOL's Homeless Veterans Reintegration Programs.
    Since the beginning of fiscal year 2003, regional offices have 
maintained an active record of all compensation and pension claims 
received from homeless veterans. Procedures for the special handling 
and processing of these claims are in place. From fiscal year 2003 
through fiscal year 2007, VBA received 21,366 claims for compensation 
and pension from homeless veterans. Of those claims, 59 percent were 
for compensation and 41 percent were for pension. Of the compensation 
claims processed, 42 percent were granted, with an average disability 
rating of 45 percent, and 15 percent of claimants were rated 100 
percent disabled. Of the total claims denied, 43 percent were due to 
the veteran's disability not being service connected. The average 
processing time for all compensation claims of homeless veterans was 
155 days. Of the pension claims processed, 77 percent were granted. 
Nine percent of the claims denied were due to the veteran's disability 
not being permanent and total. The average processing time for all 
pension claims of homeless veterans was 123 days.

         MULTIFAMILY TRANSITIONAL HOUSING LOAN GUARANTY PROGRAM

    Public Law 105-368 authorized VA to establish a pilot program to 
guarantee up to 15 loans, up to an aggregate loan amount of $100 
million, for multifamily transitional housing. Many complex issues, 
often varying from jurisdiction to jurisdiction, surround 
implementation, and VA has worked closely with veterans service 
organizations, veteran-specific housing providers, faith-based 
organizations, clinical support service programs, VA medical care 
staff, State, city and county agencies, homeless service providers, and 
finance and housing experts. We are also using consultants to assist us 
with our evaluation of potential sites and providers of housing 
services.
    VA issued an award under this program for a project to provide 144 
new beds for homeless veterans through the Catholic Charities of 
Chicago. The Catholic Charities' project opened in January 2007 and was 
full within a week. One loan has been approved to date. No other loans 
are expected to be closed within the foreseeable future.
 coordination of outreach services for veterans at risk of homelessness
    VA, together with DOL and with additional assistance from the 
Department of Justice (DOJ), has helped develop demonstration projects 
providing referral and counseling services for veterans who are at risk 
of homelessness and are currently incarcerated. Currently, VA and DOL 
have seven sites that provide referral and counseling services to 
eligible veterans at risk of homelessness upon their release from 
correctional institutions. Local staffs from VHA and VBA provide 
veterans at each demonstration site with information about available VA 
benefits and services.
    DOL also provided funding under its Homeless Veterans Reintegration 
Programs for the Incarcerated Veterans' Transition Program. VA and DOL 
are reviewing this program carefully and will provide a report on its 
effectiveness.

           HUD-VETERANS AFFAIRS SUPPORTIVE HOUSING (HUD-VASH)

    VA recognizes HUD's long-standing support of the HUD-VASH program. 
This very successful partnership links the provision of VA case 
management services with permanent housing in order to assist homeless 
veterans. In addition, we very much appreciate Congress appropriating 
additional funds in fiscal year 2008 to make available nearly 10,000 
permanent housing units for homeless veterans. We will continue to work 
closely with our colleagues at HUD to implement this program and expect 
that thousands of veterans will be able to use these vouchers to move 
into housing this summer. We are starting to hire nearly 300 case 
managers who will provide case management services to those veterans 
who are eligible for VA health care to ensure that they have access to 
all needed health care and services.
    The administration has proposed in HUD's budget providing 
approximately 10,000 additional units of permanent housing next year. 
If that occurs, we will make sure these additional veterans receive the 
appropriate case management services.

  RECENTLY DISCHARGED VETERANS (OPERATION ENDURING FREEDOM/OPERATION 
                   IRAQI FREEDOM, OEF/OIF, VETERANS)

    During the past 3 fiscal years, 556 veterans who served in Iraq and 
Afghanistan have been treated in one of VA's homeless-specific 
residential treatment programs. Currently, there are approximately 90 
OEF/OIF veterans in homeless-specific residential treatment programs. 
It is clear to us that there is a strong need for VA to be extremely 
diligent in ensuring that these veterans get immediate attention. VA, 
with a host of external partners, seeks out these veterans. I want to 
be abundantly clear that our mission is to serve all eligible veterans 
who need our services.
    I should note that these veterans, like all veterans who enter VA's 
homeless-specific services, get access to primary care, but also as 
needed, to appropriate mental health and substance abuse services. Our 
efforts to reach out, find, and appropriately serve these veterans will 
do nothing but increase in the months and years ahead.

                                SUMMARY

    VA continues to make progress to prevent homelessness and treat our 
homeless veterans. Each year, we provide an annual report to Congress 
that outlines our activities for homeless veterans. VA collaborates 
closely with other Federal agencies, State and local governments, and 
community and faith-based organizations to ensure that homeless 
veterans have access to a full range of health care, benefits, and 
support services. We still have much to do to end chronic homelessness 
among veterans in America, and we are eager to work with you to meet 
that challenge. Developing appropriate links to health care, housing, 
benefits assistance, employment, and transportation are all components 
that help bring these veterans out of despair and homelessness. We 
appreciate all of the assistance the Congress gives us to aid in this 
noble effort.
    Chairman Murray and Chairman Johnson, that concludes my statement. 
I am pleased to respond to any questions you or the subcommittee 
members may have.

    Senator Murray. Thank you very much, Mr. Dougherty.
    Ms. Beversdorf.

STATEMENT OF CHERYL BEVERSDORF, PRESIDENT AND CEO, 
            NATIONAL COALITION FOR HOMELESS VETERANS
    Ms. Beversdorf. Chairman Murray, Chairman Johnson, Ranking 
Member Bond, and members of the subcommittee, the National 
Coalition for Homeless Veterans appreciates the opportunity to 
present testimony before you this morning regarding 
homelessness among veterans in America.
    The homeless veteran assistance movement NCHV represents 
began in 1990, but it has taken time to build the momentum that 
has turned the battle in our favor. In partnership with VA, the 
Department of Labor, and HUD, and supported by funding measures 
the Senate Housing and the Senate Veterans Affairs 
Subcommittees have championed, our community veteran service 
providers have helped reduce the number of homeless veterans on 
any given night in America by 38 percent in the last 6 years.
    At this time, only two non-government veteran-specific 
homeless assistance programs serve the men and women who 
represent nearly a quarter of the Nation's homeless population. 
These include the Grant and Per Diem Program and the Department 
of Labor Homeless Veterans Reintegration Program.
    The Grant and Per Diem Program is the foundation of the VA 
and community partnership and currently funds nearly 10,000 
service beds in non-VA facilities in every State. Under this 
program, veterans receive supportive services such as health 
care, substance abuse, and mental health counseling, employment 
assistance, in addition to transitional housing.
    In September 2007, despite the commendable growth and 
success of this program and its role in reducing the incidence 
of veteran homelessness, the GAO reported the VA needs an 
additional 9,600 beds to adequately address the current need 
for assistance by the homeless veteran population.
    Last year, Public Law 110-161 provided $130 million, the 
fully authorized level, to be expended for the Grant and Per 
Diem Program in fiscal year 2008. We greatly appreciate the 
leadership of the Veterans Affairs Appropriations Subcommittee 
to ensure that that amount was included in the budget last 
year.
    However, while it is true the projected $137 million in the 
President's fiscal year 2009 budget request will allow for 
expansion of the Grant and Per Diem Program, it is not nearly 
enough to address the needs called for in the GAO report and 
needed by community-based providers to provide more services to 
homeless veterans. NCHV recommends the annual appropriation of 
the Grant and Per Diem Program be increased to $200 million.
    The HVRP program is a grant program that provides 
employment preparation and placement assistance to homeless 
veterans. HVRP is authorized at $50 million through fiscal year 
2009. Yet, the annual appropriation has been less than half 
that amount. For fiscal year 2009, the proposed funding level 
of $25.6 million would fund only 11 percent of the overall 
homeless veteran population. Based on the program's success and 
effectiveness, NCHV believes in fiscal year 2009 HVRP should be 
funded at its full $50 million authorization level.
    So how can homelessness among veterans be prevented?
    The lack of affordable, permanent housing is cited as the 
number one unmet need of America's veterans according to the VA 
CHALENG report. We too want to express our sincere gratitude to 
the Housing Appropriations Subcommittee for its approval of $75 
million in fiscal year 2008 for the HUD-VASH program, which 
allowed HUD and VA to make up to 10,000 HUD-VA supportive 
incremental housing vouchers available to veterans with chronic 
health and disability challenges. We urge the subcommittee to 
support HUD's request for $75 million in fiscal year 2009.
    NCHV believes the issue of permanent, affordable housing 
for veterans must be addressed on two levels: those veterans 
who need supportive services beyond the 2-year eligibility for 
Grant and Per Diem and those who are cost-burdened by fair 
market rents in their communities. We support three initiatives 
that would address this issue.
    First, NCHV hopes the Senate will soon consider and pass S. 
1233, the Veterans Traumatic Brain Injury Rehabilitation Act of 
2007, which includes a provision that would offer grants to 
government and community agents to provide supportive services 
to low income veterans in permanent housing.
    The second measure calls for improving the disposition of 
VA real property to homeless veteran service providers. 
Congress has provided the VA the option to use enhanced use 
leases as a surplus property disposition method. NCHV 
recommends Congress consider introducing legislation to require 
VA to enter into lease agreements to rent space to homeless 
providers at no charge.
    The third measure would make funds available to Government 
agencies, community organizations, and developers to increase 
the availability of affordable housing units for low income 
veterans and their families. Enactment of S. 1084, the Homes 
for Heroes Act of 2007, would address this issue.
    Finally, with respect to implementing a homelessness 
preventive strategy targeted to veterans returning from OIF/
OEF, NCHV believes the first line of engagement is the strong 
partnership between the VA and community health centers in 
areas underserved by the Veterans Health Administration. 
Protocols should be developed to allow VA and community clinics 
to process a veteran's request for assistance directly and 
immediately without requiring the patient to first go to a VA 
medical facility.

                           PREPARED STATEMENT

    In summary, I sincerely thank both subcommittees for their 
service to America's veterans in crisis. I will be happy to 
answer any questions.
    [The statement follows:]

                Prepared Statement of Cheryl Beversdorf

    Chairman Murray, Chairman Johnson, Ranking Member Bond, Ranking 
Member Hutchison, and members of the subcommittees, the National 
Coalition for Homeless Veterans (NCHV) appreciates the opportunity to 
submit testimony to the Senate Appropriations Subcommittee on 
Transportation, Housing and Urban Development and the Subcommittee on 
Military Construction and Veterans Affairs, which includes comments on 
issues impacting our Nation's homeless veterans.
    The homeless veteran assistance movement NCHV represents began in 
earnest in 1990, but like a locomotive it took time to build the 
momentum that has turned the battle in our favor. In partnership with 
the Departments of Veterans Affairs (VA), Labor (DOL), and Housing and 
Urban Development (HUD)--and supported by funding measures the Senate 
Subcommittees on Veterans Affairs and on Housing and Urban Development 
have championed--our community veteran service providers have helped 
reduce the number of homeless veterans on any given night in America by 
38 percent in the last 6 years.
    This assessment is not based on the biases of advocates and service 
providers, but by the Federal agencies charged with identifying and 
addressing the needs of the Nation's most vulnerable citizens.
    To its credit, the VA has presented to Congress an annual estimate 
of the number of homeless veterans every year since 1994. It is called 
the CHALENG project, which stands for Community Homelessness 
Assessment, and Local Education Networking Groups. In 2003 the VA 
CHALENG report estimate of the number of homeless veterans on any given 
day stood at more than 314,000; in 2006 that number had dropped to 
about 194,000. We have been advised the estimate in the soon-to-be 
published 2007 CHALENG Report shows a continued decline, to about 
154,000.
    Part of that reduction can be attributed to better data collection 
and efforts to avoid multiple counts of homeless clients who receive 
assistance from more than one service provider in a given service area. 
But in testimony before the House Committee on Veterans Affairs in the 
summer of 2005, VA officials affirmed the number of homeless veterans 
was on the decline, and credited the agency's partnership with 
community-based and faith-based organizations for making that downturn 
possible.
    Though estimates are not as reliable as comprehensive ``point-in-
time'' counts, the positive trends noted in the CHALENG reports since 
2003 are impressive. The number of contacts reporting data included in 
the assessments is increasing, while the number of identified and 
estimated homeless veterans is decreasing.
    Other Federal assessments of veteran homelessness that support our 
testimony are found in HUD's 2007 ``Annual Homelessness Assessment 
Report'' (AHAR)--which reported that 18 percent of clients in HUD-
funded homeless assistance programs are veterans--and the 2000 U.S. 
Census, which reported about 1.5 million veteran families are living 
below the Federal poverty level. Earlier this year, the National 
Alliance to End Homelessness (NAEH) published a report, based on 
information from these resources, that estimated approximately 46,000 
veterans meet the criteria to be considered as ``chronically 
homeless.''
    According to the VA, in urban, suburban and rural communities 
throughout America, one of every three homeless adult males sleeping 
under bridges, in alleys and in abandoned buildings or living in 
shelters or other community based organizations has served our Nation 
in the Armed Forces. Homeless veterans are mostly males (4 percent are 
females). Fifty-four percent are people of color. The vast majority are 
single, although service providers are reporting an increased number of 
veterans, both women and men, with children seeking their assistance. 
Forty-five percent have a mental illness. Fifty percent have an 
addiction.

                  HOMELESS VETERAN ASSISTANCE PROGRAMS

    There are only two non-government veteran-specific homeless 
assistance programs serving the men and women who represent nearly a 
quarter of the Nation's homeless population. The over-representation of 
veterans among the homeless that is well documented and continues to 
this day is the result of several influences, most notably limited 
resources in communities with a heavy demand for assistance by single 
parents and families with dependent children, the elderly and the 
disabled.
    The DOL Homeless Veterans Reintegration Program (HVRP) and the VA 
Homeless Providers Grant and Per Diem (GPD) program were created in the 
late 1980s to provide access to services for veterans who were unable 
to get into local, federally funded, ``mainstream'' homeless assistance 
programs.
    These programs are largely responsible for the downturn in veteran 
homelessness reported during the last 6 years, and must be advanced as 
essential components in any national strategy to prevent future veteran 
homelessness. We will touch on each separately, and briefly comment on 
how each may be enhanced.

          HOMELESS PROVIDERS GRANT AND PER DIEM PROGRAM (GPD)

    Despite significant challenges and budgetary strains, the VA has 
quadrupled the capacity of community-based service providers to serve 
veterans in crisis since 2002, a noteworthy and commendable expansion 
that includes, at its very core, access to transitional housing, health 
care, mental health services and suicide prevention.
    GPD is the foundation of the VA and community partnership, and 
currently funds nearly 10,000 service beds in non-VA facilities in 
every State. Under this program veterans receive a multitude of 
services that include housing, access to health care and dental 
services, substance abuse and mental health supports, personal and 
family counseling, education and employment assistance, and access to 
legal aid.
    The purpose of the program is to provide the supportive services 
necessary to help homeless veterans achieve self sufficiency to the 
highest degree possible. Clients are eligible for this assistance for 
up to 2 years. Most veterans are able to move out of the program before 
the 2-year threshold; some will need supportive housing long after they 
complete the eligibility period. Client progress and participant 
outcomes must be reported to the VA GPD office quarterly, and all 
programs are required to conduct financial and performance audits 
annually.
    In September 2007, despite the commendable growth and success of 
this program and its role in reducing the incidence of veteran 
homelessness, the Government Accountability Office (GAO) reported the 
VA needs an additional 9,600 beds to adequately address the current 
need for assistance by the homeless veteran population. That finding 
was based on information provided by the VA, the GAO's in-depth review 
of the GPD program, and interviews with service providers. The VA 
concurred with the GAO findings.
Recommendation
    Increase the annual appropriation of the GPD program to $200 
million.--For fiscal year 2008 Public Law 110-161 provided for $130 
million, the fully authorized level, to be expended for the GPD 
program. We greatly appreciated the leadership of the Senate VA 
Appropriations Subcommittee to ensure that amount was included in the 
fiscal year 2008 budget. However, while it is true the projected $137 
million in the President's fiscal year 2009 budget request will allow 
for expansion of the GPD program, it is not nearly enough to address 
the needs called for in the GAO report. While some VA officials may be 
concerned about the administrative capacity to handle such a large 
infusion of funds into the program, we believe the documented need to 
do so should drive the debate on this issue.
    In 2006, the VA created the position of GPD Liaisons at each 
medical center to provide additional administrative support for the GPD 
office and grantees. The VA published a comprehensive program guide to 
better instruct grantees on funding and grant compliance issues, and 
expects to provide more intense training of GPD Liaisons. This 
represents a considerable and continual investment in the 
administrative oversight of the program that should translate into 
increased capacity to serve veterans in crisis.
    Additional funding would increase the number of operational beds in 
the program, but under current law it could also enhance the level of 
other services that have been limited due to budget constraints. GPD 
funding for homeless veteran service centers--which has not been 
available in recent grant competitions--could be increased. These drop-
in centers provide food, hygienic necessities, informal social supports 
and access to assistance that would otherwise be unavailable to men and 
women not yet ready to enter a residential program. They also could 
serve as the initial gateway for veterans in crisis who are threatened 
with homelessness or dealing with issues that may result in 
homelessness if not resolved. For Operation Iraqi Freedom and Enduring 
Freedom (OIF/OEF) veterans in particular, this is a critical 
opportunity to prevent future veteran homelessness.
    Additional funding could also be used under current law to increase 
the number of special needs grants awarded under the GPD program. The 
program awards these grants to reflect the changing demographics of the 
homeless veteran population. One grant targets women veterans, 
including those with dependent children--the fasted growing segment of 
the homeless veteran population. Women now account for more than 14 
percent of the forces deployed to Iraq and Afghanistan, yet there are 
only eight GPD programs receiving special needs grants for women in the 
country.
    Other focuses include the frail elderly, increasingly important to 
serve aging Vietnam-era veterans--still the largest subgroup of 
homeless veterans; veterans who are terminally ill; and veterans with 
chronic mental illness. These grants provide transitional housing and 
supports for veteran clients as organizations work to find longer-term 
supportive housing options in their communities.

             HOMELESS VETERANS REINTEGRATION PROGRAM (HVRP)

    HVRP is a grant program that awards funding to government agencies, 
private service agencies and community-based nonprofits that provide 
employment preparation and placement assistance to homeless veterans. 
It is the only Federal employment assistance program targeted to this 
special needs population. The grants are competitive, which means 
applicants must qualify for funding based on their proven record of 
success at helping clients with significant barriers to employment to 
enter the work force and to remain employed. In September 2007 this 
program was judged by the GAO as one of the most successful and 
efficient programs in the Department of Labor portfolio.
    HVRP is unique and so highly successful because it doesn't fund 
employment services per se, rather it rewards organizations that 
guarantee job placement. DOL estimates HVRP will serve approximately 
17,066 homeless veterans ($1,500 average cost per participant) and 
approximately 10,240 homeless veterans will be placed into employment 
($2,500 average cost per placement) at the fiscal year 2009 budgeted 
level of $25.62 million. These costs represent a tiny investment for 
moving a veteran out of homelessness, and off of dependency on public 
programs. For Program Year 2006 (the most recent data available), the 
program's entered employment rate was 65.3 percent and the 90-day 
retained employment rate was 79.1 percent of the 65.3 percent who 
entered employment. Those numbers meet or exceed the results produced 
by most other DOL programs.
Recommendation
    HVRP is authorized at $50 million through fiscal year 2009, yet the 
annual appropriation has been less than half that amount. For fiscal 
year 2009, the proposed funding level of $25.6 million would fund only 
11 percent of the overall homeless veteran population. Based on the 
program's success and effectiveness in terms of employment outcomes for 
one of the most difficult populations to serve and its cost 
effectiveness as compared to other employment placement programs, NCHV 
believes in fiscal year 2009 HVRP should be funded at its full $50 
million authorization level. We believe the proven outcomes and 
efficiency of HVRP warrants this consideration, and DOL-VETS has the 
administrative capacity, will and desire to expand the program. 
Employment is the key to transition from homelessness to self 
sufficiency--this program is critical to the campaign to end and 
prevent veteran homelessness.

             ADDRESSING PREVENTION OF VETERAN HOMELESSNESS

    The reduction in the number of homeless veterans on the streets of 
America each night proves the partnership of Federal agencies and 
community organizations--with the leadership and oversight of 
Congress--has succeeded in building an intervention network that is 
effective and efficient. That network must continue its work for the 
foreseeable future, but its impact is commendable and offers hope that 
we can, indeed, triumph in the campaign to end veteran homelessness.
    However, the lessons we have learned and the knowledge we have 
gained during the last 2 decades must also guide our Nation's leaders 
and policy makers in their efforts to prevent future homelessness among 
veterans who are still at risk due to health and economic pressures, 
and the newest generation of combat veterans returning from Operations 
Iraqi Freedom and Enduring Freedom.
    Again, NCHV bases its recommendations in this regard to the 
published findings of the Federal agencies already mentioned.
    The lack of affordable permanent housing is cited as the No. 1 
unmet need of America's veterans, according to the VA CHALENG report. 
We want to express our sincere gratitude to the Senate Housing 
Appropriations Subcommittee for its leadership last year in the 
campaign to end and prevent homelessness among this Nation's military 
veterans. The subcommittee's approval of $75 million in fiscal year 
2008 for the joint HUD-VA Supported Housing Program (HUD-VASH) allowed 
HUD and VA to make up to 10,000 HUD-VA supportive incremental housing 
vouchers available to veterans with chronic health and disability 
challenges. NCHV is pleased HUD has requested another increase in equal 
measure in fiscal year 2009 and we urge the subcommittee to support 
this amount in its legislation. Acquiring 20,000 new HUD-VASH vouchers 
in less than 2 years is a historic achievement.
    The affordable housing crisis, however, extends far beyond the 
realm of the VA system and its community partners. Once veterans 
successfully complete their GPD programs, many formerly homeless 
veterans still cannot afford fair market rents, nor will most of them 
qualify for mortgages even with the VA home loan guarantee. They are, 
essentially, still at risk of homelessness. With another 1.5 million 
veteran families living below the Federal poverty level (2000 U.S. 
Census), this is an issue that requires immediate attention and 
proactive engagement.
    NCHV believes the issue of affordable permanent housing for 
veterans must be addressed on two levels--those veterans who need 
supportive services beyond the 2-year eligibility for GPD; and those 
who are cost-burdened by fair market rents in their communities.
    Veterans who graduate from GPD programs often need supportive 
services while they continue to build toward economic stability and 
social reintegration into mainstream society. Those who will need 
permanent supportive housing--the chronically mentally ill, those with 
functional disabilities, families impacted by poverty--may be served by 
the HUD-VASH program. But the majority of GPD graduates need access to 
affordable housing with some level of follow-up services for up to 2 to 
3 years to ensure their success.
    Many community-based organizations are already providing that kind 
of ``bridge housing,'' but resources for this purpose are scarce. NCHV 
supports three initiatives that would address this issue.
    The first is a measure to provide grants to government and 
community agencies to provide supportive services to low-income 
veterans in permanent housing. Funds would be used to provide 
continuing case management, counseling, job training, transportation 
and child care needs. This is the intent of section 406 of title IV of 
Senate bill S. 1233, the Veterans Traumatic Brain Injury Rehabilitation 
Act of 2007. NCHV hopes the Senate will soon consider and pass this 
legislation.
    The second measure calls for improving the disposition of VA real 
property to homeless veteran service providers. Congress has provided 
the VA the option to use ``enhanced use leases'' as a surplus property 
disposition method. The enhanced-use lease statute allows the VA to 
lease undeveloped or underutilized property for compensation in the 
form of cash or in-kind consideration. The law requires enhanced use 
leases ``contribute to the VA's mission, enhance the use of VA 
property, and provide VA with fair compensation.'' Currently, VA may 
enter into space agreements with nonprofit organizations to utilize VA 
capital assets for services to homeless veterans. However, the rates 
the Department negotiates with nonprofit organizations may fluctuate 
greatly, and are sometimes above fair market rental rates or at rates 
that are cost-prohibitive to nonprofit organizations. NCHV recommends 
the two subcommittees consider introducing legislation to require VA to 
enter into lease agreements to rent space to homeless providers at no 
charge.
    The third measure would make funds available to government 
agencies, community organizations and developers to increase the 
availability of affordable housing units for low-income veterans and 
their families. The ``Homes for Heroes Act''--introduced in both the 
Senate (S. 1084) and the House (H.R. 3329)--addresses this issue and 
NCHV has worked with staff in both houses in recognition and support of 
congressional action on this historic veteran homelessness prevention 
initiative.
    With respect to implementing a homelessness preventive strategy 
targeted to veterans returning from OIF/OEF, NCHV believes the first 
line of engagement is a strong partnership between the VA and community 
health centers in areas underserved by the Veterans Health 
Administration. While current practice allows a veteran to access 
services at non-VA facilities, the process is often frustrating and 
problematic, particularly for a veteran in crisis. Protocols should be 
developed to allow VA and community clinics to process a veteran's 
request for assistance directly and immediately without requiring the 
patient to first go to a VA medical facility.
    Beyond that, we believe VA Readjustment Counseling Centers, known 
as VA Vet Centers, must serve as the clearinghouse for information that 
steers combat veterans in crisis to appropriate assistance in their 
communities, not just to VA services. Housing assistance referrals, 
financial counseling, access to legal aid, family counseling, 
identifying educational and employment opportunities--all of these are 
critical in any campaign to prevent homelessness. We know that is the 
goal of VA Vet Centers, but some serve better than others. This is 
where the battle to prevent homelessness among OIF/OEF veterans will be 
won, and we encourage the VA and Congress to ensure adequate funding 
and training to guarantee their success.

                              IN SUMMATION

    The homeless veteran assistance movement is now 20 years old, but 
most of the historic achievements of the broad coalition now engaged in 
the campaign to end veteran homelessness have occurred in just the last 
6 years. The partnership between the VA, DOL, HUD, and the community-
based organizations we represent has exceeded the most ambitious 
expectations of our founders, many of whom are still serving military 
veterans in crisis.
    NCHV believes it is now time to take the next step in the campaign 
to end veteran homelessness. Developing a strategy that addresses the 
health and economic challenges of OIF/OEF veterans--before they are 
threatened with homelessness--and providing the necessary funding 
should be a national priority. Never before in U.S. history has this 
Nation, during a time of war, concerned itself with preventing veteran 
homelessness. For all our collective accomplishments, this may yet be 
our finest moment.

    Senator Murray. Thank you very much, Ms. Beversdorf.
    And Mr. Berg.

STATEMENT OF STEVEN R. BERG, VICE PRESIDENT FOR 
            PROGRAMS AND POLICY, NATIONAL ALLIANCE TO 
            END HOMELESSNESS
    Mr. Berg. Thank you. Around the country people are 
beginning to get a glimmer of hope after 25 years since the 
emergence of widespread homelessness that we actually have new 
ways to deal with this problem and that we can actually solve 
the problem of homelessness. And I want to start by saying that 
for the last 10 years, continuing right up to the present day, 
the most important policy initiatives that have helped people 
have that hope have first taken root in the Senate 
Appropriations Committee. So I am very pleased to have been 
invited here and thank you very much for holding this hearing.
    Despite heartfelt and sincere commitment around the country 
to treat our veterans right, the fact remains that veterans in 
the United States are more likely to be homeless than people 
who are not veterans. About 150,000 to 200,000 on any given 
night, over 300,000 veterans over the course of a year are 
experiencing homelessness. Our veterans are living in shelters. 
They are living in cars. They are camping out in the woods, 
some of them for years and years on end. I think this is an 
indication that we as a society made a mistake with the 
previous generation of veterans by deciding to tolerate this.
    The good news is that I think there is very strong support 
for doing whatever is necessary to not make that mistake with 
people who are leaving the military now, although I have to say 
that the jury is still out on whether we will, in fact, succeed 
in that. Part of the reason there is support is because there 
is a growing feeling that we know what to do to solve this 
problem.
    I think these subcommittees have made a big start in that 
direction in last year's appropriations bill by reviving the 
HUD-VASH program. So I want to start there. HUD-VASH is exactly 
what is needed to make sure that supportive housing is 
available for homeless veterans who have the most severe 
disabilities, who have been homeless the longest, who have the 
most problems and are not going to be able to stay housed long-
term without that level of help. The addition of 10,000 
vouchers has been welcomed around the country. The prospect 
that there will be 10,000 more coming in the 2009 bill is 
generating increasing excitement, not just for the 10,000 
vouchers, but also for the sense in communities that Congress 
understands what is going on. Congress is listening and 
Congress knows what is needed and is doing the right thing.
    Another program I want to mention again is the Grant and 
Per Diem Program. This is a program that we know works very 
well for maybe an intermediate level of people, the veterans 
who we know can beat homelessness and become self-sufficient, 
but need an intensive 2-year period of work in order to do 
that. It has shown to work particularly well for people with 
chronic substance abuse addictions and alcoholism. The 
providers who take this money have shown a lot of willingness 
and even enthusiasm to find veterans who have very serious 
problems and take on the challenge that they present and get 
very good results for that. And the committee has been 
increasing the amount of funding for that in recent years.
    So those are two pieces that are already in place where 
funding is increasing. We need to bring them to a higher scale, 
but these committees have shown some willingness to do that and 
for that I congratulate you.
    The main missing piece right now is for a much larger group 
of homeless veterans and veterans who are at risk of 
homelessness who maybe do not need that intensive level of 
intervention. What is missing is someone in communities around 
the country who can take responsibility for finding out when a 
veteran is homeless or when a veteran is about to become 
homeless and treat that as an individual crisis that will be 
solved immediately by working with landlords in the community, 
by getting services in place. Those people need to have 
flexible funding behind them. This is an approach that in the 
general homeless system, communities have started to adopt. It 
is known as rapid rehousing. I know there was a demonstration 
in last year's THUD bill that is going to bring a lot more 
attention to that. And it could be used in the veterans system 
to great effect.

                           PREPARED STATEMENT

    We have answers to solve these problems. That is becoming 
more and more apparent. We can end the acceptance of our 
veterans living on the streets. The answers are cost effective, 
and we look forward to working with these subcommittees in the 
future to put that into place.
    [The statement follows:]

                  Prepared Statement of Steven R. Berg

    Chairmen Johnson and Murray, Ranking Members Hutchison and Bond, 
and members of the subcommittees, on behalf of our Board of Directors, 
our President Nan Roman, and our thousands of partners across the 
country, I am honored that you have invited the National Alliance to 
End Homelessness to testify before you today on addressing the issues 
of homeless veterans in America. We are grateful to you for holding 
this hearing.
    Certainly our Nation devotes substantial Federal resources to the 
support of veterans, and most veterans are comfortably housed. This is 
as it should be. But there is a group of veterans that have serious 
housing problems, and tragically there is a large group of veterans 
that is homeless. For too long we have tolerated what most everyone 
agrees should be an intolerable situation. With veterans now returning 
from the Middle East, we are in grave danger of making the same 
mistakes we made with an earlier generation. Fortunately, this is a 
solvable problem and with good Federal policy and appropriate 
resources, we can address it to scale. We owe our veterans no less.
    The National Alliance to End Homelessness is a nonpartisan, 
nonprofit organization that was founded in 1983 by a group of leaders 
deeply disturbed by the appearance of thousands of Americans living on 
the streets of our Nation. We have committed ourselves to finding 
permanent solutions to homelessness. Our bipartisan Board of Directors 
and our 5,000 nonprofit, faith-based, private and public sector 
partners across the country devote ourselves to the affordable housing, 
access to services, and livable incomes that will end homelessness. The 
Alliance is recognized for its organization and dissemination of 
evidence-based research to encourage best practices and high standards 
in the field of homelessness prevention and intervention and we wish to 
share our insights with you today.
    As our name implies, our primary focus is ending homelessness, not 
simply making it easier to live with. We take this idea very seriously. 
There is nothing inevitable about homelessness among veterans in the 
United States. We know more about veteran homelessness and how to 
address it than we ever have before, thanks in part to extensive 
research. We know a great deal about the pathways into homelessness, 
the characteristics of veterans who experience homelessness and the 
interventions and program models which are effective in offering 
reconnection to community, and stable housing.
    This testimony will summarize the research available on 
homelessness among veterans and on the housing needs of the lowest 
income veterans, as well as on the most promising strategies for 
solving this problem.

                      HOMELESSNESS AMONG VETERANS

    Far too many veterans are homeless in America. The Department of 
Veterans Affairs asks local communities to estimate the number of 
homeless veterans in each locality. Their most recent count indicated 
more than 150,000 veterans homeless at a given time in early 2007. All 
the details from the 2007 count are not yet available to the public, 
but analysis of the 2006 counts allowed the Homelessness Research 
Institute of the National Alliance to End Homelessness to issue a 
report on housing and homelessness among veterans entitled Vital 
Mission: Ending Homelessness among Veterans (Homelessness Research 
Institute, November, 2007).
    We began this research by using VA data to examine the extent of 
homelessness among veterans. We found that:
  --On any given night, between one in five and one in four homeless 
        people is a veteran.
  --More veterans experience homelessness over the course of the year. 
        We estimate that 336,627 spent some time homeless over the 
        course of 2006.
  --Veterans make up a disproportionate share of homeless people. In 
        2006 they represented roughly 26 percent of homeless people, 
        but only 11 percent of the civilian population 18 years and 
        older. This is true despite the fact that veterans are better 
        educated, more likely to be employed, and have a lower poverty 
        rate than the general population.
  --In 2005 approximately 44,000 to 64,000 veterans were chronically 
        homeless (i.e., homeless for long periods or repeatedly and 
        with a disability).
    Homeless veterans can be found in every State across the country 
and live in rural, suburban, and urban communities. Many have lived on 
the streets for years. Other veterans live on the edge of homelessness, 
struggling to pay their rent. Serious health problems and disabilities 
are both a cause and an effect of homelessness, and as is true of 
veterans generally, the homeless veteran population is aging.

                       HOUSING STATUS OF VETERANS

    What all homeless people have in common is the lack of a place to 
live--homelessness is at base a problem of housing availability and 
affordability. When we first analyzed this data, we assumed that the 
disproportionate representation of veterans in the homeless population 
must be due to the fact that veterans have housing problems. So we 
looked at the housing situation of veterans more generally, examining 
the American Community Survey data (for 2005--the most recent data 
available at the time of the research). In fact, we found that, when 
viewed as a group, veterans can typically afford their monthly housing 
costs.
  --Only 4 percent of veterans pay more than 50 percent of their income 
        for housing (compared to 8 percent of the general population).
  --Veterans are more likely than the general population to be 
        homeowners (80 percent of veterans are homeowners versus 69 
        percent of the general population).
  --Of those with mortgages, about 2.4 percent are paying more than 50 
        percent of their income toward their monthly payment.
  --Nearly half of veteran homeowners (42 percent) have paid off their 
        mortgages and own their homes free and clear.
  --Ten percent of veteran renters pay more than 50 percent of their 
        income for housing.
    But while the average veteran is well housed, there is a subset of 
veterans who rent housing and have severe housing cost burdens. Those 
that are most vulnerable and/or face the worst crises lose their 
housing, have no other help available, and become homeless.
  --In 2005, 467,877 veterans were severely rent burdened and were 
        paying more than 50 percent of their income for rent.
  --Not surprisingly, many of these veterans were poor. More than half 
        (55 percent) of veterans with severe housing cost burden fell 
        below the poverty level and 43 percent were receiving foods 
        stamps.
  --California, Nevada, Rhode Island and Hawaii were the States with 
        the highest percentage of veterans with severe housing cost 
        burden. The District of Columbia had the highest rate, with 6.5 
        percent of veterans devoting more than 50 percent of their 
        income to rent.
    We examined the characteristics of this group of veterans paying 
too much for housing and we found the following.
  --Veterans with a disability are more likely to have severe housing 
        cost burden. They are twice as likely to have a work disability 
        as other veterans (18 percent versus 9 percent). Similarly, 
        they are twice as likely to have a disability that limits their 
        mobility (20 percent versus 10 percent).
  --Female veterans are more likely to have housing cost burdens. 
        Although women are only 7 percent of veterans, they represent 
        13.5 percent of veterans with housing cost burdens. And while 
        13 percent of them have housing cost burdens, only 10 percent 
        of male veterans have such burdens.
  --Unmarried veterans are more likely to have cost burdens by a factor 
        of nearly two. Thirteen percent of veterans who do not have a 
        spouse have severe housing cost burden versus 7 percent of 
        those who are married.
  --Period of service seems to matter. Veterans who left the military 
        between 1980 and 2003 are less likely than earlier veterans to 
        have housing cost burden. Somewhat surprisingly, older veterans 
        from the Korean War and World War II are more likely to have 
        housing cost burdens. These are comparisons of rate. By sheer 
        size, Vietnam War veterans make up the largest group of those 
        with housing cost burdens.
  --In 2005, approximately 89,553 to 467,877 veterans were at risk of 
        homelessness. The lower estimate is renters with housing cost 
        burden, living below the poverty level, disabled, living alone, 
        and not in the labor force. The upper estimate is all renters 
        with housing cost burden.
    Communities are working to end homelessness among veterans. Across 
the country, thousands of stakeholders--policymakers, advocates, 
researchers, practitioners, former and currently homeless people, 
community leaders, and concerned citizens--have joined together to 
create 10-year plans to end homelessness. While most plans are geared 
toward ending homelessness among all people, including homeless 
veterans, about 20 percent of the plans have strategies specifically 
targeted to this group. These strategies include more aggressive 
outreach targeted to veterans, greater coordination between local VA 
and homeless service agencies, targeted rental subsidies for veterans 
who are chronically homeless, permanent supportive housing that is 
linked to mental health services, and other supports. While some 
communities are making progress, challenges remain daunting.

                  THE CURRENT FEDERAL POLICY RESPONSE

    So for nearly half a million veterans, current Federal efforts are 
not creating a situation where housing is safe and affordable. The 
primary responses of the Federal Government to the housing situation of 
veterans are or have been the following programs targeted to veterans.
  --Homeownership loan guarantees and retrofitting loans (for disabled 
        veterans) through the GI Bill of Rights. It should be noted 
        that these are relatively shallow forms of assistance and are 
        not generally adequate to assist lower income veterans to 
        become homeowners.
  --Homeless programs providing temporary housing including shelter and 
        2-year transitional housing (funded through the Grant and Per 
        Diem Program, Domiciliary Care for Homeless Veterans Program, 
        Compensated Work Therapy/Veterans Industries program). These 
        programs do not currently meet need. For example, Grant and Per 
        Diem only funds 8,000 beds.
  --HUD-VASH program providing permanent supportive housing with the 
        housing subsidy provided via the U.S. Department of Housing and 
        Urban Development (HUD) (this is the only HUD program targeted 
        directly to veterans) and the services provided by the VA. 
        Until last year this program funded fewer than 1,800 units, far 
        below need. The addition of 10,000 subsidies in the fiscal year 
        2008 appropriations act is a large and crucially important step 
        forward.
    In addition, veterans are eligible for assistance through programs 
not targeted to them specifically. Many veterans are served by the 
homeless assistance programs, for example. However, these resources are 
inadequate to meet the need. A recent analysis of HUD data 
(Homelessness Counts, National Alliance to End Homelessness, January 
2007) found that of the 744,313 people who were homeless in January 
2005, an estimated 44 percent were unsheltered. Similarly, mainstream 
housing subsidy programs at HUD, such as the public housing and section 
8 Housing Choice Voucher programs, serve veterans. They are, as the 
subcommittees are well aware, extremely over-subscribed and meet only a 
fraction of the need.
    The GI Bill homeownership and loan programs are available to all 
who qualify for them. Of the remaining temporary and permanent housing 
programs, none is funded adequately to meet the housing needs of all 
low income or homeless veterans. Further, if a veteran is not able or 
willing to become a homeowner, or is not homeless, there is no Federal 
housing assistance targeted specifically to him or her.

                     NEEDED FEDERAL POLICY RESPONSE

    Of all the population groups impacted disproportionately by 
homelessness, veterans are the one where the Federal Government has 
taken direct responsibility for the well-being of the entire group, as 
it should be. The Federal Government, through the VA, is in a position 
to set an example for how to safeguard a vulnerable population from 
homelessness. At present, however, this is not being accomplished, 
despite the programmatic initiatives above, and despite the fact that 
sufficient understanding exists regarding the nature of homelessness 
and the programmatic and policy responses needed to end it. The rest of 
this testimony describes what is needed in order to complete this 
response, and to reach a point where homelessness among veterans is not 
only said to be intolerable, but is in fact not tolerated.
    We know from research on homelessness that housing subsidy solves 
the housing problem (and ends homelessness) for the majority of people, 
notwithstanding that they may have service needs. For veterans who are 
disabled or disabled and elderly, another part of the solution is 
services designed to ensure housing stability. Housing affordability 
and housing/services linkages can be addressed either piecemeal through 
a variety of VA and HUD programs, or in a more comprehensive way by 
ensuring veterans a housing benefit of some type.
    The National Alliance to End Homelessness proposes the following 
steps that the Federal Government could take to end the housing and 
homelessness crisis among veterans.
    A Mission of Ending Homelessness Among Veterans.--In order to truly 
end homelessness among veterans and prevent its reoccurrence, there 
must be people working in each community who regard it as their mission 
to find every veteran who is homeless or about to become homeless, and 
to do whatever is necessary immediately to find housing for that 
individual or family. This sense of urgency, of immediate top-priority 
crisis response, is lacking. The policy responses discussed below will 
only have the desired effect if they are implemented locally with that 
sense, with a clear designation of responsibility. The VA is well 
positioned to take on this responsibility, should it be clearly 
allocated by Congress.
    Rapid Re-housing of Homeless Veterans.--Procedures should be 
established within the VA to ensure its ability to rapidly re-house 
veterans who have become homeless or are experiencing a housing crisis 
that could lead to homelessness. For many homeless veterans, a rapid 
re-housing approach will be all that is needed. Others may need interim 
housing to address treatment or other needs, but re-housing assistance 
should be available at discharge from these temporary housing programs. 
VA should be funded to go to scale with these approaches.
  --Rapid Re-housing.--VA caseworkers need to have control over 
        flexible resources to intervene when veterans are on the verge 
        of homelessness or when they are already homeless and do not 
        need intensive treatment or other services. Payment of back 
        rent, help with employment and benefits to improve incomes, 
        mediation with property owners or roommates, or assistance with 
        searching for new living options are among the services that 
        need to be available. Outreach to veterans needs to take place 
        to ensure that they know about available resources. This model 
        is increasingly used by homeless service providers, with strong 
        results obtained at costs of around $2,000 (one-time) per 
        household.
  --Temporary Housing/Services and Re-housing.--For veterans whose 
        disabilities are not so severe that they need permanent 
        supportive housing, but who do need a stable living situation 
        combined with supportive services for a period of time up to 2 
        years, transitional housing is a successful model. It is 
        especially effective for homeless veterans who are working to 
        overcome addiction. The Homeless Grant and Per Diem program 
        provides VA funds to nonprofits to run transitional housing for 
        homeless veterans. The program has achieved positive results. 
        It is not, however, funded at a level sufficient to meet the 
        need, as demonstrated in a recent GAO study. Congress should 
        increase funding to $200 million for fiscal year 2009.
    --Recommendation.--Ensure that VA has the resources to rapidly re-
            house veterans who are at risk of homelessness or actually 
            homeless, either immediately or after transition, by 
            providing them with adequate resources to meet this need. 
            Increase funding for the Homeless Grant and Per Diem 
            program to meet the need.
    Assess Housing Status at Discharge and Thereafter, and Respond if 
There is a Problem.--Our analysis shows that a high number of veterans 
are at risk of homelessness. As part of the process of exiting the 
military, addressing housing status will help to smooth the transition 
to stable housing, and prevent homelessness.
    Everyone leaving active duty should be assessed as to their housing 
status, including their risk of homelessness. All should receive basic 
information about housing and the resources available through the VA. 
The VA, in turn, should have housing relocation assistance available, 
including housing locator services and flexible financial resources 
(see rapid re-housing above). For those veterans who have 
characteristics associated with risk of homelessness (disability, 
previous homelessness experience, lack of discharge address, lack of 
income, etc.), more extensive discharge planning should be provided, 
including the ability to link veterans to housing subsidy programs, 
procure placements in supportive housing, and/or link to local VA 
offices with the capacity to ensure follow-up support for stable 
housing.
    This needs to be repeated when low-income veterans seek medical or 
other services from the VA. In addition, the VA should continue and 
expand efforts to publicize these resources in communities, so that 
wherever a veteran experiencing a housing crisis may appear, he or she 
will be directed to homelessness prevention programs at the VA.
  --Recommendation.--All veterans exiting service and at key point 
        thereafter should be assessed as to their housing status, and 
        the VA should have well-publicized resources to assist veterans 
        to access housing.
    Permanent Supportive Housing.--For disabled low income veterans who 
require on-going services in order to stay stably housed, permanent 
supportive housing is a proven solution. This strategy combines 
affordability with decent housing and services designed to ensure 
stability. There are many models of permanent supportive housing, both 
scattered-site and single-site. Some focus only on veterans; others mix 
veteran and non-veteran populations. Veterans should be able to choose 
among different models.
    Permanent supportive housing can provide a housing solution for 
disabled veterans regardless of income. However, its success in ending 
homelessness for people (including veterans) who have been chronically 
homeless has been particularly well documented. Our report estimates 
that there were 44,000 to 66,000 chronically homeless veterans in 2005. 
Research indicates that they could be cost effectively served with 
permanent supportive housing, and that the investment in such housing 
would be offset by reduced medical and treatment costs. Supportive 
housing for homeless and low income veterans requires funding for 
operating costs, services, and capital costs.
  --Operating Costs.--The existing HUD-VA Supportive Housing program 
        (HUD-VASH) provides rent vouchers from HUD for homeless 
        veterans, combined with treatment, case management and 
        supportive services from the VA. This program has demonstrated 
        housing stability for veterans with the most severe 
        disabilities. The fiscal year 2008 T-HUD appropriation bill 
        provided $75 million for this purpose, enough to house 
        approximately 10,000 veterans. The President's budget for 
        fiscal year 2009 called for an additional $75 million next 
        year. HUD-VASH is an ideal vehicle for funding operating costs, 
        either in dedicated buildings or in scattered-site approaches 
        renting from private landlords. A continued commitment to 
        increasing funding will have a substantial impact on 
        homelessness among veterans with severe disabilities.
  --Services.--The HUD-VASH program requires that the VA have resources 
        available to provide the case management, treatment and support 
        services that are a key part of this intervention. Funded 
        through VA Health Care, an amount approximately equal to the 
        appropriation from HUD will be necessary.
      Additionally, a number of bills over the past two years have 
        sought to authorize the VA to provide grants to nonprofit 
        community-based organizations to provide supportive services to 
        veterans with the lowest income who are now in permanent 
        housing (including those who have been homeless). Finally, the 
        Services for Ending Long-Term Homelessness Act, S. 593, would 
        provide funding for this purpose for all homeless people 
        including veterans. VA mainstream and other service resources 
        will be required to go to scale with this strategy.
  --Capital Costs.--To the extent that supportive housing for veterans 
        requires the production of new housing stock or the 
        rehabilitation of existing buildings that are not fit for 
        habitation, there is a need for an authorized program to 
        provide capital funds. Programs such as the National Affordable 
        Housing Trust Fund might provide resources in this regard.
    --Recommendation.--Provide the 44,000 to 66,000 permanent 
            supportive housing units that are needed to meet the 
            housing needs of chronically disabled, chronically homeless 
            veterans. Additional permanent supportive housing units 
            should be provided to meet the needs of disabled veterans 
            more broadly, including those who are serving in Iraq and 
            Afghanistan at present. Operating subsidies, services 
            funding and capital are required to provide these units. 
            Over the next 5 years, 10,000 units per year could provide 
            housing for every veteran who has been on the streets for 
            years.
    More Housing Options.--It is crucial that Federal resources focus 
on veterans who are homeless now, and on those who are on the brink of 
falling into homelessness. At the same time, this problem requires a 
commitment that decent housing will be something that all veterans can 
count on. Access to permanent housing is consistently the number one 
service need identified by those concerned with homeless veteran issues 
(VA staff, community providers, local government agencies, public 
officials, and former and currently homeless veterans themselves). 
Further, reports indicate that veterans returning from Iraq and 
Afghanistan are seeking help with housing sooner than past cohorts of 
veterans.
    While the strategies above are workable, they are essentially 
piecemeal in nature; deliver assistance in some part by setting aside 
resources in current HUD or VA programs, running the risk of assisting 
homeless veterans at the expense of other needy groups; and are subject 
to annual appropriations, sometimes from various sources.
    Congress could cut to the heart of the problem and provide 
comprehensive housing assistance to all veterans who need it, or to 
some subset of veterans such as those with disabilities. Such 
assistance could be provided through the VA or through HUD. It could be 
used for either rental housing or homeownership.
  --Recommendation.--Provide all low income veterans with a means-
        tested housing benefit. Alternatively, provide all disabled 
        veterans with a housing benefit.

                               CONCLUSION

    I am not happy to report that our Nation now has some 20 years of 
experience on the issue of homeless veterans. We know that while some 
veterans become homeless immediately after discharge, for many more 
their difficulties may take years to emerge. We know that post-
traumatic stress disorder, traumatic brain injuries and other factors 
of war may make them vulnerable to increasing poverty and housing 
problems. And we know that housing and supportive housing are a 
solution to these problems.
    Tens of thousands of veterans will be returning from Iraq and 
Afghanistan. As we would expect, they have not yet begun to become 
homeless in large numbers, probably due to the delayed impact of combat 
service on homelessness. So while even one homeless veteran is too 
many, the VA reports that several hundred veterans from the current 
conflicts have used VA homeless services, and that just over 1,800 such 
veterans are at risk of homelessness. Hopefully, these numbers will 
remain small, but we fear that they will not. If we do not take 
advantage of all that we have learned about solutions to homelessness, 
in the future we can expect to see thousands more veterans on our 
streets and in our shelters.
    We have a tremendous opportunity before us, and one that these 
subcommittees have begun to seize. There is unprecedented public will 
that we not make the same mistakes with the veterans of the current 
conflicts as we did with veterans from the Vietnam era and after, and 
that we do whatever is necessary to prevent these veterans being 
consigned to the streets. That same public will gives us an opportunity 
as well to rectify those previous mistakes, and house veterans who have 
lived in the street for years. Now is the time to be bold. We can 
prevent veterans from becoming homeless. We can house those veterans 
who are already homeless. And we can ensure that all veterans, 
including those with low incomes, have stable, decent and affordable 
housing. This is our vital mission.
    Thank you for inviting us to testify before you today on this 
critical issue.

    Senator Murray. Thank you very much, Mr. Berg.
    Mr. Weidman.

STATEMENT OF RICHARD WEIDMAN, EXECUTIVE DIRECTOR FOR 
            POLICY AND GOVERNMENT AFFAIRS, VIETNAM 
            VETERANS OF AMERICA
    Mr. Weidman. Thank you very much, Madam Chair, Senator 
Bond, Chairman Johnson, Senator Reed, for the opportunity to 
testify here today.
    Many of us feel that we know what needs to be done and have 
felt that way for a long time. It will be 22 years this year 
since the first hearing on homeless veterans on Capitol Hill 
that was chaired by Tom Daschle in his last official act as a 
Member of the House on the House Veterans Affairs Committee, 
Subcommittee on Memorial Affairs and Housing. And it has 
basically not changed. Basically you have one-third of the 
homeless veterans who have organic mental illness or PTSD as a 
predominant problem, roughly one-third who have substance abuse 
that may involve some other kind of mental illness as the 
dominant problem, and about one-third who are basically just 
disenfranchised and may be part of the working poor. They lost 
a slim purchase on the lower middle class and they were out on 
the street. It is really hard to find a job when you are on the 
street without assistance. And that is where a number of these 
other programs come in.
    VVA, as a member of the National Coalition for Homeless 
Veterans, would like to associate ourselves with the eloquent 
remarks of Ms. Beversdorf, and we also favor strongly raising 
the homeless Grant and Per Diem Program to $200 million next 
year and perhaps beyond that, as need dictates, in the future. 
Obviously, the authorization will have to increase in order to 
increase the appropriation.
    Similarly, the Homeless Veterans Reintegration Program is 
the most cost effective, cost efficient program administered by 
the U.S. Department of Labor. It works. It works to get 
veterans back on the tax roll, and it continues to be a 
puzzlement why the HVRP program is not funded at the full $50 
million because it is an extremely effective use of our funds 
to help veterans, particularly that last third I mentioned 
before, get off the street and stay off the street.
    Similarly, the VWIP, or the Veterans Workforce Improvement 
Program that is a non-statutorily authorized program, we 
believe needs to be authorized and funded, and similarly, the 
Disabled Veterans Lifeline Program that was an administrative 
initiative that is a tiny program needs to be authorized and 
funded and have adequate oversight.
    In regard to the Homeless Grant and Per Diem, we need 
prospective payments for the community-based organizations. 
Right now it is set up on a retrospective reimbursement, and 
very few community-based organizations have the money up front 
to work to receive the full $33 in reimbursement that they can 
receive. And so how do you get there if you do not have the up-
front money? And that is a significant problem for the 
community-based organizations that are usually far and away the 
most prepared to serve this population in a cost efficient 
manner.
    We also need staffing money for HUD's Shelter Plus Grants, 
and that may be somewhat alleviated by S. 2273 introduced by 
Senator Akaka that would provide operational dollars for 
permanent housing. We are not certain whether or not that does 
include the Shelter Plus program as one of the target programs 
that would be covered by that, but it needs to happen.
    Expansion of the vet center staff, Senator Bond, we are 
grateful to you for your efforts to open up the vet centers to 
active duty, but they need more staff. In many areas, 
particularly those who are not near a VA medical center, the 
only homeless program operated by VA in those areas, in rural 
areas of Missouri or Washington or whichever State, certainly 
in South Dakota, the vet center is it, and they need more staff 
to serve the population base that they are already serving. 
While we would favor them serving the active duty people, they 
need more staff in order to serve who they have got now.
    Veterans need to be defined as a special needs program, and 
in regard to the consolidation program that, Senator Reed, that 
you and Senator Allard talked about, if you do not write 
veterans in specifically, I can assure you they will be read 
specifically out at the local and State level. That has proven 
true of all employment programs right across the country and 
has remained true for the last 20 years. So we encourage you to 
write it in specifically that proportional dollars need to go 
to veteran assistance programs.
    I am out of time, and I want to thank you, Senator Murray, 
for your women veterans bill because that will help 
significantly. As you stated in your opening statement, the 
fastest rising subset is the homeless women veterans.
    But we would ask that this committee join with the 
authorizers to require the tracking and reporting of veteran 
status. Much has been made of the 154,000 estimate, but that is 
just a guess. This is just a best guess, and nobody really 
knows because homeless veterans move around, and we do not even 
know for sure how many veterans are utilizing Federal or 
federally funded programs, so better tracking and reporting is 
absolutely necessary.

                           PREPARED STATEMENT

    Last, I want to thank you, Senator Murray and Senator Bond, 
for increasing the HUD-VASH certificates to the $75 million, 
and last--hopefully we can talk about this in the questions--we 
need permanent housing because you cannot transition--it is 
supposed to be just that, transitional housing. And you have to 
have something to transition to. Without permanent housing for 
these low income veterans, they cannot transition anywhere. So 
I hope we deal with that in the questions.
    Thank you all very much.
    [The statement follows:]

                 Prepared Statement of Richard Weidman

    Good morning Madam Chairwoman Murray, Ranking Member Bond, and 
distinguished members of this subcommittee. Thank you for giving 
Vietnam Veterans of America (VVA) the opportunity to offer our comments 
on Housing Our Heroes, Addressing the Issues of Homeless Veterans in 
America.
    Homelessness continues to be a significant problem for veterans 
especially men and women veterans who served during the Vietnam era. 
The VA estimates about one-third of the adult homeless population have 
served their country in the Armed Services. Current population 
estimates suggest that about 154,000 veterans are homeless on any given 
night and perhaps twice as many experience homelessness at some point 
during the course of a year. Of that number about 4-5 percent are women 
veterans with VA reporting that of the new homeless veterans this is as 
high as 11 percent for woman veterans.
    Homelessness has varied definitions and many contributing factors. 
Among these are PTSD, a lack of job skills and education, substance 
abuse and mental-health problems. The homeless require far more than 
just a home. A comprehensive, individualized assessment and a 
rehabilitation/treatment program are necessary, utilizing the 
``continuum of care'' concept. Assistance in obtaining economic 
stability for a successful self-sufficient transition back into the 
community is vital. Although many need help with permanent housing, 
some require housing with supportive services, and others need long-
term residential care.

                  VA HOMELESS GRANT & PER DIEM PROGRAM

    The VA's Homeless Grant & Per Diem Program has been in existence 
since 1994. Since then, thousands of homeless veterans have availed 
themselves of the programs provided by community-based service 
providers. In some areas of this country, the VA and community-based 
service providers work successfully in a collaborative effort to 
actively address homelessness among veterans. The community-based 
service providers are able to supply much needed services in a cost-
effective and efficient manner. The VA recognizes this and encourages 
residential and service center programs in areas where homeless 
veterans would most benefit. The VA HGPD program offers funding in a 
highly competitive grant round. VA credits HGPD and VA outreach for the 
drop on the number of homeless veterans from 250,000 a few years ago to 
the recent suggestion this statistic could be as low as 154,000. VVA 
also believes that the expansion of the Homeless Veterans Reintegration 
Program (HVRP), used in tandem with the above cited programs, has 
helped homeless veterans and formerly homeless veterans get and keep 
employment, thus stabilizing their financial and emotional situation, 
enabling them to keep off the street.
    However, VVA and providers are concerned that the impact of 
homelessness on our new generation of veterans could cause this to 
increase significantly, as could the rising unemployment rate. Because 
financial resources available to HGPD are limited, the number of grants 
awarded and the dollars granted are greatly restricted by inadequate 
resources, and hence many geographic areas in need suffer a loss that 
HGPD could address if it were funded at a higher level.
    It has been VVA's position that VA Homeless Grant and Per Diem 
funding must be considered a payment rather than a reimbursement for 
expenses, an important distinction that will enable the community-based 
organizations that deliver the majority of these services to operate 
more effectively. Not all non-profit agency homeless veteran programs 
receive full per diem which is now at $33.01/day/veteran. They must 
justify the need for per diem reimbursement based on the program 
expenses. Since justification of for an increased per diem request is 
based on the last annual audit of the program expenses, the non-profit 
must over spend money, which it does not have in order to increase the 
program expense in order to get the increased per diem to actually fund 
their programs adequately and with appropriate staffing levels.
    Per diem dollars received by homeless veteran services centers is 
so low that these centers cannot obtain or retain appropriately skilled 
staffing to provide services to properly support the special needs of 
the veterans seeking assistance. Per diem for service centers is 
provided on an hourly rate, currently only $4.12 per hour. The reality 
is that most city and municipality social services do not have the 
knowledge or capacity to provide appropriate supportive services that 
directly involve the treatment, care, and entitlements of veterans. 
Lost HUD funding via its ``Supportive Services Only'' grants have 
increased the urgency of these service centers to find alternate 
funding. VVA believes that it is possible to create ``Service Center 
Staffing'' grants, much like the VA ``Special Needs'' grants, already 
in existence. The VA's Grant and Per Diem program is effective in 
creating and aiding local shelters by providing transitional housing, 
vocational rehabilitation, and referrals for clinical services.
    VVA is recommending that Congress go above the authorizing level 
for the Homeless Grant and Per Diem program and fund the program at 
$200 million and not the $138 million currently authorized. 
Additionally, VVA supports and seeks legislation to establish 
Supportive Services Assistance Grants for VA Homeless Grant and Per 
Diem Service Center Grant awardees.

                    VA HOMELESS DOMICILIARY PROGRAMS

    Domiciliary programs located within various medical centers 
throughout the VA system have proven costly. As stand-alone programs, 
many do not display a high rate of long-term success. Additionally, not 
all VISNs have Homeless Domiciliary programs.
    Programs assisting homeless veterans need to show a cost/benefit 
ratio in order to survive. Due to the Federal pay scales and other 
indirect cost factors, VA Homeless Domiciliary programs generally cost 
twice as much per homeless veteran participant (often over $100 per day 
per veteran) as compared to the cost of the similar programs of 
community-based organizations. If the operational cost of the VA 
Homeless Domiciliary program is to be justified, then an assurance of 
success, including a diminished rate of recidivism, should be expected. 
This is not always the case, and is especially true if the veteran has 
no linked transitional residential placement at time of discharge. A 
linkage with non-profit community programs will enhance outcomes in a 
cost-effective manner and openly speak to the belief in the ``continuum 
of care'' concept embraced by the VA. HGPD has increased transitional 
placement possibilities in a number of areas, but more are desperately 
needed. Hence, the re-statement of the need for increased funding for 
HGPD.
    Where no VA Homeless Veteran Domiciliary exists, VVA urges the VA 
to form an active linkage with community-based organizations for 
extended homeless veteran transitional services at the conclusion of VA 
Homeless Domiciliary care.

                    HOMELESS VETERANS SPECIAL NEEDS

    Veterans are disproportionately represented among the homeless 
population, accounting, according to most estimates, for one in three 
homeless adult persons on any given night--and roughly 400,000 veterans 
over the course of a year. Federal agencies that have the 
responsibility of addressing this situation, particularly the 
Departments of Veterans Affairs, Labor, and Housing and Urban 
Development must work in concert, and should be held accountable for 
achieving clearly defined results. In some cases, Federal agencies deal 
inappropriately, without sensitivity to the particular needs and issues 
of the homeless and because homeless veterans have unique issues 
surrounding their military experiences, we consider them a ``Special 
Needs Population''. Until homeless veterans achieve status as a 
``Special Needs Population'' through legislative action, monies 
earmarked by Congress to combat homelessness will fail to reach 
programs specifically designated for these veterans.
    VVA urges the Presidential Interagency Council on Homeless to 
recognize homeless veterans as a Special Needs Population. Further, we 
urge Congress to require all entities/agencies, including non-profit 
and governmental, that receive Federal program funding dollars, to 
specifically track and report statistics on the number of veterans they 
serve, their residential status, and the services needed and provided. 
Without this cooperation and requirement, how does anyone ``guess'' at 
the number of veterans in the homeless population? Additionally, VVA 
supports legislation that would incorporate a ``fair share'' dollar 
approach for the Federal funding of all homeless programs and services 
to specifically target homeless veterans.

               WOMEN VETERANS AND HOMELESS WOMEN VETERANS

    Women comprise a growing segment of the Armed Forces, and thousands 
have been deployed to Iraq and Afghanistan. This has particularly 
serious implications for the VA healthcare system because the VA itself 
projects that by 2010, over 14 percent of all veterans utilizing its 
services will be women.
    Women's health care is not evenly distributed or available 
throughout the VA system. Although women veterans are the fastest 
growing population within the VA, there remains a need for an increased 
focus on health care and its delivery for women, particularly the new 
women veterans of today. Although VA Central Office may interpret 
women's health services as preventive, primary, and gender-specific 
care, this comprehensive concept remains ambiguous and splintered in 
its delivery throughout all the VA medical centers. Many at the VHA 
appear (unfortunately and wrongly) to view women's health as only a GYN 
clinic. It certainly involves more than gynecological care. In reality, 
women's health is viewed as a specialty unto itself as demonstrated in 
every University Medical School in the country.
    Furthermore, some women continue to report a less than 
``accepting,'' ``friendly,'' or ``knowledgeable'' attitude or 
environment both within the VA and/or by third party vendors. This may 
be the result, at least in part, of a system that has evolved 
principally (or exclusively) to address the medical needs of male 
veterans. But reports also indicate that in mixed gender residential 
programs, women remain fearful and unsafe.
    The nature of the combat in Iraq and Afghanistan is putting service 
members at an increased risk for PTSD. In these wars without fronts, 
``combat support troops'' are just as likely to be affected by the same 
traumas as infantry personnel. They are clearly in the midst of the 
``combat setting''. No matter how you look at it, Iraq is a chaotic war 
in which an unprecedented number of women have been exposed to high 
levels of violence and stress as more than 160,000 female soldiers have 
been deployed to Iraq and Afghanistan . . . This compared to the 7,500 
who served in Vietnam and the 41,000 who were dispatched to the Gulf 
War in the early 1990s. Today, nearly 1 of every 20 U.S. soldiers in 
Iraq/Afghanistan is female. The death and casualty rates reflect this 
increased exposure.
    With 15-18 percent of America's active-duty military being female 
(20 percent of all new recruits) and nearly half of them have been 
deployed to Iraq and/or Afghanistan, there are particularly serious 
implications for the VA healthcare system because the VA itself 
projects that by 2010, more than 14 percent of all its veterans will be 
women, compared with just 2 percent in 1997. Although the VA has made 
vast improvements in treating women since 1992, returning female OIF 
and OEF veterans in particular face a variety of co-occurring ailments 
and traumas heretofore unseen by the VA healthcare system.
    There have been few large-scale studies done on the particular 
psychiatric effects of combat on female soldiers in the United States, 
mostly because the sample size has heretofore been small. More than 
one-quarter of female veterans of Vietnam developed PTSD at some point 
in their lives, according to the National Vietnam Veterans Readjustment 
Survey conducted in the mid-1980s, which included 432 women, most of 
whom were nurses. (The PTSD rate for women was 4 percent below that of 
the men.) Two years after deployment to the Gulf War, where combat 
exposure was relatively low, Army data showed that 16 percent of a 
sample of female soldiers studied met diagnostic criteria for PTSD, as 
opposed to 8 percent of their male counterparts. The data reflect a 
larger finding, supported by other research that women are more likely 
to be given diagnoses of PTSD, in some cases at twice the rate of men. 
Matthew Friedman, Executive Director of the National Center for PTSD, a 
research-and-education program financed by the Department of Veterans 
Affairs, points out that some traumatic experiences have been shown to 
be more psychologically ``toxic'' than others. Rape, in particular, is 
thought to be the most likely to lead to PTSD in women (and in men, 
where it occurs). Participation in combat, though, he says, is not far 
behind.
    Much of what we know about trauma comes primarily from research on 
two distinct populations--civilian women who have been raped and male 
combat veterans. But taking into account the large number of women 
serving in dangerous conditions in Iraq and reports suggesting that 
women in the military bear a higher risk than civilian women of having 
been sexually assaulted either before or during their service, it's 
conceivable that this war may well generate an unfortunate new group to 
study--women who have experienced sexual assault and combat, many of 
them before they turn 25.
    Returning female OIF and OEF troops also face other crises. For 
example, studies conducted at the Durham, North Carolina Comprehensive 
Women's Health Center by VA researchers have demonstrated higher rates 
of suicidal tendencies among women veterans suffering depression with 
co-morbid PTSD. And according to a Pentagon study released in March 
2006, more female soldiers report mental health concerns than their 
male comrades: 24 percent compared to 19 percent.
    VA data showed that 25,960 of the 69,861 women separated from the 
military during fiscal years 2002-2006 sought VA services. Of this 
number approximately 35.8 percent requested assistance for ``mental 
disorders'' (i.e., based on VA ICD-9 categories) of which 21 percent 
was for post traumatic stress disorder or PTSD, with older female vets 
showing higher PTSD rates. Also, as of early May 2007, 14.5 percent of 
female OEF/OIF veterans reported having endured military sexual trauma 
(MST). Although all VA medical centers are required to have MST 
clinicians, very few clinicians within the VA are prepared to treat co-
occurring combat-induced PTSD and MST. These issues singly are ones 
that need address, but concomitantly create a unique set of 
circumstances that demonstrates another of the challenges facing the 
VA. The VA will need to directly identify its ability and capacity to 
address these issues along with providing oversight and accountability 
to the delivery of services in this regard. All of these issues, 
traumas, stress, and crises have a direct effect on the women veterans 
who find themselves homeless. Early enactment of Senator Murray's bill 
on women veterans currently pending in the Senate will do much to 
rectify this situation, and VVA commends her for her leadership in this 
and other matters of vital interest to veterans.
    Although veterans make up about 11 percent of the adult population, 
they make up 26 percent of the homeless population. Of the 154,000 
homeless veterans estimated by the VA, women make up 4 percent of that 
population. Striking, however, is the fact that the VA also reports 
that of the new homeless veterans more than 11 percent of these are 
women. It is believed that this dramatic increase is directly related 
to the increased number of women now in the military (15 percent-18 
percent). About half of all homeless veterans have a mental illness and 
more than three out of four suffer from alcohol or other substance 
abuse problems. Nearly 40 percent have both psychiatric and substance 
abuse disorders. Homeless veterans in some respects make use of the 
entire VA as do any other eligible group of veterans. Therefore all 
delivery systems and services offered by the VA have an impact on 
homeless veterans. Further, the failure of the Department of Labor 
system to provide needed employment assistance in a nationwide 
accountable manner to many veterans means they lose their slim purchase 
on the lower middle class, and therefore end up homeless. Once 
homeless, it becomes very difficult for these veterans to find 
employment for a multiplicity of reasons.
    The VA must be prepared to provide services to these former 
servicemembers in appropriate settings.
    One of the confounding factors with homeless women veterans is the 
sexual trauma many of them suffered during their service to our Nation. 
Few of us can know the dark places in which those who have suffered as 
the result of rape and physical abuse must live every day. It is a very 
long road to find the path that leads them to some semblance of 
``normalcy'' and helps them escape from the secluded, lonely, fearful, 
angry corner in which they have been hiding.
    Not all residential programs are designed to treat mental health 
problems of this very vulnerable population. In light of the high 
incidence of past sexual trauma, rape, and domestic violence, many of 
these women find it difficult, if not impossible, to share residential 
programs with their male counterparts. They openly discuss their 
concern for a safe treatment setting, especially where the treatment 
unit layout does not provide them with a physically segregated, secured 
area. In light of the nature of some of their personal and trauma 
issues, they also discuss the need for gender-specific group sessions, 
The VA requests that all residential treatment areas be evaluated for 
the ability to provide and facilitate these services, and that medical 
centers develop plans to ensure this accommodation.
    While some facilities have found innovative solutions to meet the 
unique needs of women veterans, others are still lagging behind. VVA 
believes that to adequately serve this growing population of women 
veterans, before it overpowers the ``women veteran challenged'' system 
that already exists, more funding is required. We recommend a minimum 
of an additional $10 million in funding over fiscal year 2008.

                                HUD-VASH

    In 1992, the VA joined with HUD to launch the HUD-VASH program. HUD 
funded almost 600 vouchers for this program. Through the end of fiscal 
year 2002, 4,300 veterans had been served by the program, and had 
participated for an average of 4.1 years. Of veterans enrolled in the 
program, 90 percent successfully obtained vouchers and 87 percent moved 
into an apartment of their own. This partnership highlights the success 
of linking ongoing clinical care to permanent housing to assist 
homeless chronically mentally ill veterans. This program was given 
additional HUD-VASH vouchers with the passage of Public Law 107-95, 
which authorized 500 HUD/VASH vouchers in fiscal year 2003, 1,000 in 
fiscal year 2004, 1,500 in fiscal year 2005, and 2,000 in fiscal year 
2006. The program was reauthorized under section 710, Rental Assistance 
Vouchers for Veterans Affairs Supported Housing Program, with the 
passage of Public Law 109-461, which authorized 500 vouchers for fiscal 
year 2007, 1,000 vouchers for fiscal year 2008, 1,500 vouchers for 
fiscal year 2009, 2,000 vouchers for fiscal year 2010 and 2,500 
vouchers for fiscal year 2011.
    VVA applauds the Senate Appropriations Committee for having funded 
$75 million for the HUD-VASH Program in Public Law 110-161. The 
vouchers created by this funding will prove paramount in addressing the 
permanent housing needs of our less fortunate veterans. By allocating 
this funding, Congress has given providers the greatest tool possible 
in our fight to end homelessness among our veterans. VVA supports the 
fiscal year 2009 appropriations request from the Department of Housing 
and Urban Development for $75 million, which will provide an additional 
10,000 vouchers. If enacted into law, some 20,000 vouchers will now be 
available to assist homeless veterans. VVA urges this subcommittee to 
reach out to your colleagues and request their support of these 
vouchers.

 HOMELESS VETERAN HUD TRANSITIONAL AND SUPPORTIVE SERVICES ONLY FUNDING

    There continues to exist today, limited, if any, access to 
transitional residential and supportive service only dollars within the 
HUD Super NOFA grant proposal process. Supportive services are vital in 
the successful reintegration of our homeless veterans back to the 
community. There are currently no staffing dollars allocated for the 
provision of supportive services, to include case management, to those 
individuals in Shelter-Plus Care programs, for example. These case 
management services are key in providing the veterans with a support 
system to assist them with working into and through the system.
    HUD is silently (but effectively) discouraging McKinney-Vento 
funding for transitional housing and ``supportive services only'' 
programs with the request to city and municipalities continuum of care 
for a 30 percent set aside of the grant dollars going for permanent 
housing only. In the national competition for the McKinney-Vento 
funding, many cities are requesting and accepting only new proposals 
for permanent housing, renewals on some transitional housing programs, 
and the elimination of ``Supportive Services Only'' programs 
altogether, in order to remain HUD NOFA competitive. This situation 
adversely affects those seeking funding for new transitional housing. 
An additional effect of this situation is to also eliminate a potential 
match for VA Homeless Grant and Per Diem (HGPD) grant proposals. VA 
will lose a financially effective and efficient resource for providing 
assistance to veterans who are homeless if non-profit agencies lose the 
ability to obtain HUD McKinney-Vento grants for transitional programs. 
This has significant impact in light of the lack of fair-share Federal 
funding for homeless veterans. These successful non-profit agencies 
have reduced recidivism, shortened the length of VA in-patient stay, 
hence reducing the cost of treatment programs.
    The decreasing desire of HUD to fund Supportive Services programs; 
the disincentives placed by HUD on cities to renew the McKinney-Vento 
``Supportive Services Only'' programs; the impact that lost supportive 
service programs will have on the local social service system is 
creating the slow but inevitable demise of front line service centers. 
This will ultimately have a domino effect on the continuum of care 
model.
    Drop-in centers are one type of program that utilize homeless 
grants for what is known as ``Supportive Services Only'' (SSO) funding. 
HUD funds these SSO programs via the local agency's inclusion on their 
city's priority list for its annual HUD McKinney-Vento submission. When 
originally funded, an agency was required to commit to a 20-year 
operational program. SSO programs targeting homeless veterans are 
included in this evolving funding atmosphere. Our question is: To what 
extent are the cities responsible for the continued renewals of 
programs that were previously vital to the local continuum? Or what 
consideration should be given by Federal agencies to make up for this 
forced local change initiated by them?
    Non-profit agencies were required to make long term commitments 
when they were originally funded. Many received building construction 
rehab funding. They were led to believe they are a crucial component 
and partner to the comprehensive approach to the elimination of 
homelessness. To suggest the non-profits find alternate funding in 
order to continue and satisfy a commitment of 20 years seems 
unrealistic in light of the very limited grant funding available for 
these types of programs. Many, though successful in meeting all goal 
and benchmarks, have been sliced from city McKinney-Vento funding, 
thereby being left with a huge (for them) program commitment, no 
continuing funding stream, and a large debt to HUD for funds awarded on 
the original grant because they can't meet the 20 year commitment. Most 
will lose staff. Some may even lose their property or be forced to 
close their doors due to this circumstance. These non-profit agency 
programs are the life-line of not only the agency's homeless clients, 
but also some of the city social service agencies that depend on the 
agency to assist with clients in an already over-burdened local service 
system.
    At a time when the big push is on permanent housing for the 
homeless, with wraparound supportive services, is it logical to 
eliminate these programs on the community level? In light of this 
situation, and as a logical fit, in addition to the earlier suggestion 
of ``Special Service Center'' grants from the HGPD program, VVA 
believes it is time for the Department of Health and Human Services 
(HHS) to enter this arena. We urge this subcommittee to encourage HHS 
to work with the VA in establishing a unique partnership, creating a 
joint program in an effort to provide enhanced opportunities to 
homeless veterans. VVA urges a continuing dialogue between these two 
agencies to reach a viable option to the situation that is facing the 
non-profits gravely concerned about their own potential demise. What a 
terrible loss this would be to the structure of community involvement 
that has been so encouraged.

                        SHELTER PLUS CARE (S+C)

    The Shelter Plus Care (S+C) program is authorized under subtitle F 
of the McKinney-Vento Homeless Assistance Act. Since 1992, HUD has 
awarded Shelter Plus Care (S+C) funds to serve a population that has 
been traditionally hard to reach--homeless persons with disabilities 
such as serious mental illness, chronic substance abuse, and/or AIDS 
and related diseases. The S+C program was built on the premise that 
housing and services need to be connected in order to ensure the 
stability of housing for this population. Consequently, S+C provides 
rental assistance that local grantees must match with an equal value of 
supportive services appropriate to the target population. The purpose 
of the program is to provide permanent housing in connection with 
supportive services to homeless people with disabilities and their 
families. The primary target populations are homeless people who have: 
serious mental illness; and/or chronic problems with alcohol, drugs or 
both; and/or acquired immunodeficiency syndrome (AIDS) or related 
diseases. The goals of the Shelter Plus Care Program are to assist 
homeless individuals and their families to: increase their housing 
stability; increase their skills and/or income; and obtain greater 
self-sufficiency. Funding for new S+C projects is awarded competitively 
through HUD's Continuum of Care process to eligible applicants: States, 
units of local government and public housing authorities (PHAs). 
Successful applicants become ``grantees'' once the S+C grant agreement 
is fully executed. The program provides rental assistance for a variety 
of housing choices and minimal administrative dollars.
    While shelter plus Care is a program of great advantage for dual 
diagnosed individuals because of the wrap-around services that it 
requires, it does not provide any resources for these services. In 
terms of its history, it is well over 16 years old when one takes into 
account the time prior to 1992 when its guidelines, policies, and 
criteria were formulated. It is a fairly aged program and not much has 
changed over time . . . except much has changed.
    The reporting, tracking, oversight, Annual Progress Reports (APR), 
and audit requirements that HUD has placed on the non-profit agencies, 
who have been awarded S+C programs, have grown over time. To some 
extent this is due to the oversight that Congress rightly demands of 
Federal agencies to ensure that those placed in these programs are 
being assisted in an appropriate fashion with positive outcomes. The 
dilemma for non-profits is not that the case management, reporting, 
tracking and audits must be done, it rests with the fact that with no 
program operational funding the non-profit agency is burdened with the 
labor intensive organizational HUD program requirements of oversight, 
tracking and reporting, not to mention the case management of all those 
in the program. Case management alone is challenging due to the dual 
diagnosed client base that is served by this essential permanent 
housing program. For many of these clients it is the only permanent 
independent housing program in which they will ever be able to survive. 
Case management is an essential element to the success of these 
individuals, not to mention the program itself. But the staffs of non-
profit agencies are salaried through program grants and donations. With 
no S+C operational program funding these non-profits must utilize 
already over taxed staff in order to satisfy the case management 
requirements of its S+C programs. They are being slowly strangled.
    What is unusual about this shortfall in S+C program operational 
funding is that when one investigates the HUD Supported Housing Program 
(SHP) Leasing grants one finds that for the client base in a program 
that essentially functions the same way as S+C, the non-profit is able 
to receive operational funding. This for a program whose client 
eligibility is less dependent and less challenged than that of the dual 
diagnosed, disabled S+C program clients.
    It is the sense of Vietnam Veterans of America that this 
subcommittee should review the S+C program and determine if it is not 
reasonable to infuse program operational funding into the format of 
this necessary and vital housing program that is for some the only 
permanent housing in which they may ever be capable of living . . . the 
only place they can call home . . . a place they hold precious . . . a 
place that they don't have to share with anyone else. Without 
operational funding assistance to the non-profit agencies that strive 
to keep S+C alive this program will soon die due to the burden that is 
being placed on them. VVA realizes that S+C is not specific to 
veterans.
    However, homeless veterans comprise up to one quarter of the 
homeless population, which draws one to conclude that veterans 
certainly are among those in S+C programs. It is also known that in 
some areas, especially in larger cities, there are non-profits that 
operate S+C exclusively for veterans. Again, VVA urges this 
subcommittee to readdress the confines of this supportive housing 
program to allow operational funding for HUD Shelter Plus Care programs 
in order to keep this essential program alive. Without this additional 
assistance and program alteration, thousands will lose the only 
permanent housing they may ever have, and again be forced to return to 
the state of homelessness. S+C is their salvation. In these times when 
affordable permanent housing is so critical and at a minimum . . . in 
these times when the emphasis of HUD and homeless advocates is on 
permanent housing . . . in these times when so many of the homeless are 
chronic and disabled are dependent on this program . . . it is crucial 
that you investigate this matter and bring relief to the not for profit 
agencies who are drowning in an attempt to do the right thing.

            PERMANENT HOUSING NEEDS FOR LOW-INCOME VETERANS

    Although the Federal Government makes a sizeable investment in 
homeownership opportunities for veterans, there is no parallel national 
rental housing assistance program targeted to low-income veterans. 
Veterans are not well served through existing housing assistance 
programs due to their program designs. Low-income veterans in and of 
themselves are not a priority population for subsidized housing 
assistance. (This is despite the fact that most of these programs were 
created after World War II with veterans as the primary target 
population!) And HUD devotes minimal (if any other than slight lip 
service) attention to the housing needs of low-income veterans. This 
has been made abundantly clear by the long-standing vacancy for special 
assistant for veterans programs within the Office of Community Planning 
and Development. It is imperative that Congress elevate national 
attention to the housing assistance needs of our nation's low-income 
veterans.
    Public Law 105-276, The Quality Housing and Work Responsibility Act 
of 1998 under title III, permanently repealed Federal preferences for 
public housing and allowed the Public Housing Authority to establish 
preference for low-income veterans applying for public housing. In 
accordance with the GAO report, ``Rental Housing Information on Low-
Income Veterans Housing Condition and Participation in HUD's 
Programs,'' only a few of the PHAs surveyed were using veterans' 
preference criteria to assist low income veterans with housing. VVA has 
found no mention of these guidelines in any of the 5-year plans issued 
by the PHAs since the law was passed in 1998, which means HUD is once 
again creating homeless veterans by overlooking laws mandated by 
Congress.
    VVA is requesting that this subcommittee support S. 1084 the Homes 
for Heroes Act 2007 introduced by Senator Barrack Obama, (D-IL) which 
would repeal the 1998 decision and provide additional benefits and 
services to low income homeless veterans.
    VVA urges full funding to the authorized level of $50 million for 
the Homeless Veterans Reintegration Program (HVRP) administered by the 
Department of Labor. This training/employment program has long suffered 
the consequences of limited funding. HVRP is the most cost effective 
and most cost efficient program that is administered through the USDOL, 
and it is one of the few that has full accountability built into the 
program design. How can the Secretary of Labor and DOL extol a 
commitment to the training of homeless veterans and then deny them the 
full funding under Public Law 107-95 and Public Law 109-233 that has 
been requested and urged by the veterans' service organizations and 
other keenly interested parties? Is there a part of helping homeless 
veterans get and keep a job, thereby paying taxes, becoming self-
sufficient, and contributing to our communities that is bad and VVA 
missed it? Perhaps DOL can explain, as we are at a loss.
    The late Senator Paul Wellstone, in a 1998 speech before the 
Veterans of Foreign Wars, said, ``listen to the homeless veteran who's 
living on the streets in our cities. Here we are in the United States 
of America today at our peak economic performance doing so well 
economically, and we're still being told that we don't have the 
resources to help homeless veterans. One-third of homeless people in 
our country today are veterans. That's a national disgrace.''
    VVA strongly believes that homeless veterans have perhaps the best 
possibility for achieving rehabilitation because at an earlier point in 
their lives they did have a steady, responsible job and lifestyle in 
the military. We hope to recoup these individuals in the most efficient 
manner, thereby saving Federal resources. And we must do so with bi-
partisan support from our Congressional leaders.
    In closing VVA would like to personally thank you, Senator Murray 
for securing $75 million for the HUD-VASH program, of which VVA has 
been a strong advocated for since passage of Public Law 107-95, the 
Homeless Veterans Comprehensive Assistance Act of 2001. VVA and its 
National Women Veterans Committee wish to additionally thank Senator 
Murray and her Senate colleagues who sponsored S. 2799, The Women 
Veterans Comprehensive Health Care Act of 2008. VVA would respectfully 
request the opportunity to discuss this bill with you in order to 
provide our thoughts on its comprehensive nature. VVA would also like 
to thank Pete Dougherty, Director, VA Homeless Veterans Programs, and 
his staff for their tireless work on behalf of our homeless veterans. 
Often it is a thankless job, and for that reason VVA extends a special 
thanks to Mr. Dougherty for a job well done.
    This concludes my testimony. I will be pleased to answer any 
questions you may have at this time.

    Senator Murray. Thank you very much, Mr. Weidman.
    Mr. Lambros?

STATEMENT OF PAUL LAMBROS, EXECUTIVE DIRECTOR, PLYMOUTH 
            HOUSING GROUP
    Mr. Lambros. Thank you, Senators, for allowing me to be 
here today.
    Plymouth Housing Group is a nonprofit provider of 
supportive housing for formerly homeless people. We were 
established in 1980 in response to people sleeping on the 
streets of Seattle. Today we own and manage 12 buildings that 
provide 1,000 units of housing in downtown Seattle. We also 
operate King County Shelter Plus Care Program. Our model is to 
move people directly off the streets into permanent supportive 
housing. We provide housing for homeless clients of agencies 
serving people with mental health issues, alcohol/drug issues, 
and AIDS. We have developed programs to move medically 
compromised homeless people off the streets into supportive 
housing, dramatically reducing the cost of community services 
such as emergency rooms.
    We house well over 100 veterans currently, but have housed 
many more in the past. Our newest building, the Simons Building 
that Senator Murray came to--we set aside 25 apartments, 
permanent apartments for homeless veterans. It opened in 
January.
    Our goal is to stabilize long-term, chronically homeless 
people in permanent housing with the services that they need to 
successfully remain in housing and stop the cycle of 
homelessness. We work extensively with the Veterans 
Administration and other veteran service providers.
    I would like to touch on a couple of programs that we have 
talked about already, but I will give my comments.
    The HUD-VASH program is very important and the new vouchers 
will help immensely. I think it is important to try to look at 
that program to look at the people that are in transitional 
housing and using those vouchers possibly with an exit strategy 
as some other members have talked about. The fact is that after 
that 24-month transition, some of them have nowhere to go. Many 
who complete the transitional program still, again, need a 
long-term subsidy.
    The VA's Homeless Providers Grant and Per Diem Program is 
an effective program but needs to be more flexible. It imposes 
restrictions on the type of housing it will support. It 
supports capital and service funding and transitional housing 
for 24 months. In many cases it is better to move homeless 
veterans directly into permanent supportive housing rather than 
through transitional programs. Veterans we are working with 
have multiple issues that need lifelong attention.
    Another issue, capital funding of the Grant and Per Diem 
Program is restricted to nonprofit organizations. However, to 
develop high quality supportive housing, we use the Federal Low 
Income Tax Credit Program. Tax credit projects require the 
formation of for-profit partnerships, and thus are not eligible 
to receive Grant and Per Diem funding, and technically because 
the nonprofits do not have site control. The fact is if the 
nonprofit partner does take control of the building, it becomes 
part of the nonprofit after the 15-year compliance period of 
the tax credit program. When developing a project along with 
the tax credit program, we use city, county, and State dollars. 
All of those funding sources have recognized the importance of 
the tax credit program and have made their funding more 
flexible. Highly effective projects are excluded from using the 
Grant and Per Diem Program to serve homeless veterans, and this 
should change.
    Thanks to the leadership of Senator Murray, the challenges 
faced by homeless veterans have received elevated attention in 
the State of Washington. We recently passed the Veterans and 
Human Services Levy in King County. I mentioned our newest 
building that just opened in January. We received capital and 
service funding from the Vets and Human Services Levy for the 
project. That is why we have 25 apartments for homeless 
veterans. When we get capital funding, we are committing to 
funders that we will provide that housing for 40 years. This is 
a great opportunity to have housing for veterans permanently in 
that building for 40 years. If it was not for the levy, the 
county would have probably used their capital dollars around 
mental health and those units would have been set aside for 
people with mental illness.
    We, along with many agencies across the country, are 
committed to providing housing to homeless vets. The more 
flexible the funding can be, the more we can do. So I want to 
talk about what is working for us right now.
    Our partnership with the VA, in the process of opening the 
Simons Senior Apartments, we developed an effective partnership 
with the VA. The success of this partnership is largely because 
we worked together with the VA from the very beginning of the 
project to develop a model for rapidly housing homeless 
veterans. Our model is one of collaborative case management. We 
maintain communication, share resources, and provide mutual 
training with the VA. The VA provides on-site visits by the VA 
staff that serves to broker and enhance veterans' connections 
to VA services in the hospital. On-site Plymouth Housing Group 
staff work with veterans to follow through on their 
appointments. They also encourage and support recovery and 
encourage building relationships with other veterans in the 
buildings.
    Let me touch on some of the challenges we are seeing around 
homeless veterans. Homeless veterans who do not have access to 
support systems will find other ways to survive. Some use 
alcohol or drugs to cope with the effects of mental health 
issues. This type of self-medicating compounds mental health 
issues with substance disorders. The stresses of life on the 
street and the lack of security, the day-to-day struggle to 
survive makes a goal of abstinence, for instance, unattainable. 
Getting them into housing first and then working on these 
issues is key. Once they are in housing, they are in a better 
position to develop a goal for recovery, and we see achievement 
every day in the veterans that we are serving.
    I attached to my testimony four short stories of our 
veterans. The one that really struck me is a vet that moved 
into our housing most recently. He took one of the last spots 
in the Simons Building. Albert is 70 years old, a Korean War 
veteran, who had cycled in and out of housing for years. The 
day before he was going to move in, he got kicked out of the 
shelter because he was intoxicated. It was freezing that night 
in Seattle. I am very proud of our staff, and the shelter staff 
actually went out and found him so he could be housed. Albert's 
story stuck in my head and keeps me wondering why. How is it 
after all these years a 70-year-old veteran is still homeless?
    All of you and VA's around the country are doing good work 
to help, especially by making more funding available. 
Community-based organizations like Plymouth Housing Group are 
partners ready, willing, and able to get our homeless veterans 
off the streets and into supportive housing. Key to that is to 
make the funding as flexible as possible, such as what I talked 
about with the tax credit program. In Seattle and King County, 
we have been working toward the goals of our 10-year plan to 
end homelessness. As more and more communities across the 
country are undertaking their plans, they will develop and 
tailor those plans to local conditions. Capital and service 
funding must respond to local needs and be available to fill 
the gaps that those areas think they have.

                           PREPARED STATEMENT

    I want to thank Senator Murray for her great leadership. We 
are very proud of her, those of us in Washington State. And 
thank you, Senators, for allowing me to speak today.
    [The statement follows:]

                   Prepared Statement of Paul Lambros

    Plymouth Housing Group is a nonprofit low-income housing provider 
in Seattle, Washington. We were established in 1980 in response to the 
increasing numbers of homeless people living on Seattle streets. Today, 
we own and manage 12 buildings that provide 1,000 units of permanent 
supportive housing. Our model is to move homeless people directly off 
the streets and into permanent supportive housing. We house well over 
100 veterans, and our newest building, the Langdon and Anne Simons 
Senior Apartments, reserves 25 apartments for homeless veterans.
    We work extensively with the Veterans Administration and other 
veterans service providers, as well as agencies that provide services 
in such areas as mental health, chemical dependency, jail diversion, 
HIV-AIDS, and others. In working with community partners, our common 
goal is to stabilize long-term chronically homeless people in permanent 
housing with the services tenants need to successfully remain in 
housing.

                 HOUSING OPTIONS FOR HOMELESS VETERANS

    The VA's Homeless Providers Grant and Per Diem Program provides 
supportive housing and services to veterans in transitional housing 
programs (up to 24 months).
    The HUD-Veterans Affairs Supportive Housing (HUD-VASH) program, 
which provides both subsidy and support services, is effective for 
veterans who are ready to accept support and treatment services, are 
relatively stable, and can successfully maintain their housing. HUD-
VASH vouchers to our area were cut under the current administration, 
but we expect to see an allocation of another 105 vouchers.
    Both programs provide important services to homeless veterans, but 
they are not flexible enough to meet real needs at the local level. To 
close the gaps, we rely on other sources of funding, such as King 
County Housing Authority's Housing Access and Services Program, and 
King County's Veterans and Human Services Levy.
    Some key changes would make the Federal programs more responsive to 
our local need.
    The Homeless Providers Grant and Per Diem Program imposes 
restrictions on the type of housing it will support. It is more 
effective to move homeless veterans directly into permanent supportive 
housing, rather through transitional programs. Capital funding under 
the Grant and Per Diem Program is restricted to nonprofit 
organizations. However, to develop high-quality permanent supportive 
housing, we must use the Federal Low Income Housing Tax Credit Program. 
Tax credit projects require the formation of for-profit partnerships, 
and thus are not eligible to receive Grant and Per Diem funding because 
technically the nonprofits do not have site control. Highly effective 
projects are excluded from using this funding source to serve homeless 
veterans.
    Further, the Per Diem component of the program is restricted to 
services provided to veterans in transitional programs--funds may not 
be used for services to veterans living in permanent supportive 
housing. We have found that formerly homeless tenants are most 
vulnerable during the period of transition from homelessness to stable, 
permanent housing. This is when they are most likely to need intensive 
support services, and we have seen tenants become increasingly self-
reliant as they remain in their housing. Senate bill 2273, to fund 
support services for formerly homeless veterans in permanent housing, 
is needed.
    Thanks to the leadership of Senator Murray, the challenges faced by 
homeless veterans have received elevated attention in our State. This 
has made it possible to pass a Veterans and Human Services Levy in King 
County.
    In Seattle and King County, we have been working toward the goals 
of the Ten Year Plan to End Homelessness. As more and more communities 
across the Nation undertake similar initiatives, they will develop 
plans tailored to local conditions. Capital and services funding must 
be flexible and responsive to local needs and be available to fill gaps 
in those areas.

                               WHAT WORKS

    In the process of opening the Simons Senior Apartments, we 
developed an effective partnership with the VA. The success of this 
partnership is largely because of the following factors:
  --We worked together with the VA from the very beginning of program 
        development to develop a model for rapid housing of eligible 
        veterans.
  --We exchanged information and training with VA staff. They taught us 
        about the complexities of veterans systems. We taught them how 
        to complete housing and subsidy applications.
  --At the Simons Senior Apartments, we have four onsite case managers 
        and a nurse. Three of the housing case managers have 
        specialties: chemical dependency, geriatrics and veterans.
  --Our model is one of collaborative case management: we maintain 
        communication, share resources, provide mutual training (e.g., 
        about veterans issues and housing issues).
  --Onsite visits by VA staff serve to broker and enhance veterans' 
        connections with the VA hospital.
  --Onsite Plymouth Housing Group staff work with veterans to follow 
        through on appointments. They also encourage and support 
        recovery, and building community with other veterans in the 
        building.

                 CHALLENGES FACED BY HOMELESS VETERANS

    Discharge Status.--Veterans who have received other than honorable 
discharges are refused all services by veterans programs. Other than 
honorable discharges can often stem from unidentified mental health or 
substance-use disorders that result in violent or unacceptable 
behaviors. Veterans who know the system and have resources can contest 
these discharges and have them overturned, but veterans who do not have 
resources and cannot contest discharge status become truly 
impoverished. They are sleeping on our streets, and they identify 
themselves to the public as veterans.
    Level of Functioning.--Homeless veterans who don't have access to 
support systems will find other ways to survive. Some use alcohol or 
drugs to cope with the effects of mental illness. This type of ``self-
medicating'' compounds mental health issues with substance abuse 
disorders. The stresses of life on the street, and the lack of 
security--the day-to-day struggle to survive--makes the goal of 
abstinence seem unrealistic and out of reach. Until veterans find the 
support, safety and counseling they need, they are simply not yet in a 
position to make abstinence a goal in their lives.
    Abstinence is not a goal we can choose for another person. To be an 
effective and lasting goal, it must be identified by the individual. 
The Federal Substance Abuse and Mental Health Services Administration 
(SAMHSA) makes this point in its National Consensus Statement on Mental 
Health Recovery--it is equally applicable to recovery from substance 
abuse disorders:
  --``There are multiple pathways to recovery based on an individual's 
        unique strengths and resiliencies as well as his or her needs, 
        preferences, experiences (including past trauma), and cultural 
        background in all of its diverse representations.''
  --``Recovery is not a step-by-step process but one based on continual 
        growth, occasional setbacks, and learning from experience. 
        Recovery begins with an initial state of awareness in which a 
        person recognizes that positive change is possible.''
    Staff at the Simons Senior Apartments note that the veterans living 
in the building all share a distrust and a sense of fatalism about 
their housing. They seem to expect that their housing can't last--that 
somehow it will all fall through or fail. Because these veterans are 
not abstinent, they seem to have fallen through the cracks, rather than 
having the opportunity for secure housing. Once they are in housing, 
they are in a better position to develop a goal for recovery.
    It is far more effective to acknowledge and support the veterans 
who still struggle with mental health or substance abuse issues--to get 
them into housing as quickly as possible. Once they are housed, we can 
support them in their housing, and be available to help as they begin 
to realize that positive change is possible.

                     ATTACHMENT--VETERANS' STORIES

    These are all veterans who live in Plymouth Housing Group 
buildings.
    For more information, see the spring edition of Plymouth News at 
www.plymouthhousing.org.
    Albert, a Korean War veteran, was referred for housing in the 
Simons Senior Apartments and completed the documentation necessary to 
move in. However, when staff tried to locate him to let him know that 
his application was approved, they learned that he had been asked to 
leave the transitional shelter where he'd been staying because he was 
intoxicated. He would be sleeping on the streets that night.
    Staff from PHG's rental office, the Simons building manager and the 
social services program manager worked with the transitional shelter to 
locate Albert. They were able to find him and get him moved in. It was 
just in time--the temperature dropped below freezing that night. With 
the amount of alcohol in his system, we believe that Albert might not 
have survived until morning.
    Gunnar, a Vietnam-era Army veteran, spent 8 years living on the 
street off and on when he could not pay his rent. He struggled with 
alcohol and heroin addiction as well as the physical toll of 
homelessness and addiction (he suffered severe head trauma when he was 
intoxicated and fell from a parking garage). He would sometimes 
shoplift in order to be jailed on cold nights. While he was in jail, VA 
staff began to work with Gunnar, and he connected with support and 
recovery services.
    When Gunnar moved into the Pacific Apartments in September 2002, he 
was clean and sober, and has maintained his sobriety. Staff at the 
Pacific are impressed with his high standards of cleanliness in his 
unit and in his personal appearance. With the Pacific as home, Gunnar 
is able to maintain contact with VA support services and with his 
family. He maintains a monthly budget, pays his bills and effectively 
plans and sets goals. He is happy at the Pacific.
    Joe, a Vietnam veteran, stopped drinking in 1993 and has maintained 
his sobriety. However, he suffered cardiac arrest and developed other 
severe health problems, and ultimately became homeless, sleeping in 
shelters, in the woods or on public transportation. Life on the street 
took a further toll on Joe's health. He suffered a collapsed lung and 
frostbite so severe that it threatened his ability to walk. He needed 
ongoing medical care, but very often did not get help until he required 
emergency treatment or hospitalization.
    Joe moved into Plymouth on Stewart where he received intensive, 
round-the-clock support required to care for himself and get the 
regular primary medical care he needed to regain his health. He visits 
a nearby medical clinic for regular appointments and is now able to 
walk without a cane. These days, Joe describes himself as 
``optimistic.''
    Richard, a Vietnam veteran, spent several years in Houston, caring 
for his elderly mother and working part-time jobs. After his mother 
died in 2006, he took a bus to Seattle where his brother was living. 
Richard found hotels too expensive, so he slept in homeless shelters 
and did odd jobs to save money for an apartment. But after he developed 
pneumonia, his health went downhill and he was diagnosed with diabetes. 
Health problems notwithstanding, Richard volunteered in the kitchen at 
one shelter and the staff there helped him look for housing.
    Richard moved into the Simons Senior Apartments when it opened in 
early 2008. Supportive services there include assistance with economic 
and health issues--including an onsite nurse to help Richard monitor 
his diabetes and keep it under control. That's now easier to do because 
he has a kitchen and can cook for himself--something he missed when he 
was homeless.

    Senator Murray. Thank you very much to all of you for 
excellent testimony today, I think it was very interesting and 
challenging to all of us. You have offered a lot of numbers and 
statistics in your data, the number of homeless veterans, the 
percentage that are struggling with mental illness, the number 
that are chronically homeless.
    And so I think I wanted to start by asking a question that 
everyone in America ought to be asking. How did we get here? 
How did we get to the point where every year over 300,000 of 
our Nation's veterans are experiencing homelessness? Anybody 
have a thought? Ms. Beversdorf?
    Ms. Beversdorf. I often get that question from the media, 
and what I usually share is that there are three primary issues 
that we have to deal with, and you have heard all of them in 
one degree or another. The first, of course, is the health 
issues. I mean, let us face it. War changes individuals, and 
when they come back, they are suffering from issues such as 
post-traumatic stress disorder. Traumatic brain injury is a new 
issue now that is very much a result of this particular war, 
but other kinds of health issues have certainly been in the 
past. Substance abuse issues, mental health issues. So that is 
the first aspect.
    The second is the employment issues. Many of those who go 
into the service may be only 18. They just got out of high 
school. And so when they go into the military, sometimes the 
activities that they are involved with, the skills that they 
have acquired are not necessarily transferable once they get 
out of the military. They may not have gone to college. They do 
not have a college education. They do not have any wherewithal 
in terms of getting a job. They are not understanding of like 
writing a resume or dressing for an interview or getting the 
proper certification that is needed in order to get a job back 
in the civilian sector.
    And the third is what we have been all talking about here, 
affordable housing.
    What also happens is that when individuals first anticipate 
getting out of the service, first of all, the Department of 
Defense does not necessarily ask the right questions. Do you 
have a job when you get out? Do you have a home to go to? And 
as these young people are anticipating getting out of the 
service, they often think that perhaps things are going to be 
just the way they were when they left, and we all know that 
that does not happen. I mean, we have also talked about the 
social and economic activities in terms of divorce rates 
skyrocketing. The person has changed after he or she returns 
from the service, and the families that they are returning to 
have also changed because of multiple deployments. They have 
really had to get along on their own. So it is all these 
factors that come together that make a person very different 
and have very unique characteristics.
    And finally, I would also say that even when you are in the 
military, well, we have all these common communications now in 
terms of e-mail and video. They still do not necessarily have 
the support system that they need, and they may not have it 
when they return. There are not always necessarily families 
that are going to be with them. And so it is these kinds of 
issues that come together and focus and make homelessness among 
veterans a very unique issue.
    Senator Murray. Mr. Weidman?
    Mr. Weidman. Senator Murray, I am reminded that when they 
became a national press phenomenon about trip-wire vets in the 
Olympic Mountains in the early 1980s, people would call us up 
and say, what about trip-wire vets? And we were astonished 
because both Bobby Moeller and I and John Trazano and all the 
early people in VVA in the national office said, they are all 
around you. You do not have to go to the Olympic Mountains. It 
is easier to hide in the cities and in the small towns than it 
is in the Olympic Mountains. And you have people who are 
basically there because their psychosocial readjustment 
problems were not dealt with effectively by anybody when they 
came home and certainly not by the VA.
    So we are doing a much better job of dealing with those. It 
is just they are behind the curve in terms of catching up with 
the number of mental health staff and particularly those who 
are qualified in PTSD at the VA. Certainly that would be one of 
the reasons how we ended up here because we lost ground in the 
1990s and because of the flat-lining of the VA budget and 
actually we were losing ground even before that with the in-
patient PTSD programs. That bleeding has now been stanched for 
some years, but it is going to take a while. And there are 
still some without an in-patient PTSD program. So that is part 
of it.
    Part of it also has to do with a real change in the 
effectiveness of the publicly funded labor exchange which has 
been starved for the last 25 years for funds. As a result, the 
DVOPs and LVERs are a larger percentage, ever-growing 
percentage of the folks devoted to that, and less and less 
accountable not because there are not great people as DVOPs and 
LVERs, but because the system--the State workforce development 
agencies see them as cash cows. So it is not very effective on 
a nationwide basis, not an accountable procedure.
    And that is one of the reasons why we are so high on the 
Homeless Veterans Reintegration Program because it is the most 
accountable of all those programs. You know what you are 
getting for the $50 million, and it is a heck of a bang for the 
buck. The cost per permanent placement is the best of any 
program at DOL.
    So it is a combination of those, and the other thing that 
Cheryl pointed out is the increasing lack of affordable housing 
which is the highest aspect of inflation in this country. And 
many times cities get excited and small towns about the 
reinvigoration of downtown, but what happens is that is where 
the flop houses were, that is where cheap housing was. It might 
have been terrible housing, but it was not the street. And when 
that is rejuvenated, if you will, what happens is they simply 
run off the poor people. It is not that they have a place to 
go. They just do a run-off drill. So those that have no other 
place to go will go to the street, and that is part of what has 
happened in the last 25 years.
    Senator Murray. So it is a very complex problem. Yet, there 
are some solutions that are working. Mr. Lambros, you just 
talked about finding a vet and bringing him in, a 70-year-old 
vet I think you said.
    What are the examples of success? What do you think is most 
effective?
    Mr. Lambros. Well, I think most effective is the housing, 
but not just the housing, but the type of housing I think is 
very important.
    And for so many homeless vets--I wanted to add one thing 
about the causes, lack of community. I mean, we have these 
long-term homeless vets. They are on their own. So maybe they 
had family at one time. Maybe they had friendships, but because 
of the issues they have been dealing with, they have lost 
those. And so without that community, how are they going to get 
help? They need to get help from nonprofit providers, from the 
VA, and others. So that is the main part we are trying to deal 
with.
    But moving people in and putting them in supportive housing 
has been very effective. We have a great success rate--many 
nonprofits do around the country--of keeping people stable and 
in housing. And again, these are long-term effects that they 
need to deal with. So we need more of that.
    I want to add one thing. I think there is a missed 
opportunity here. Right now I mentioned the 10-year plan on 
homelessness. In King County, our county, United Way has 
stepped up to say they are going to raise $25 million for 
support services for those of us developing housing for 
homeless people. That is happening around the country, and we 
have an opportunity here to get more capital dollars and 
service dollars for homeless veterans, especially capital, into 
all of these projects being developed so that those can be 
long-term. So when the vets issue is not the biggest issue on 
the table 10 years from now maybe, those housing units are 
still there and we do not have to worry about it as much as we 
do today.
    Senator Murray. Senator Bond?
    Senator Bond. Thank you very much, Madam Chair.
    I would note, again editorially, for the last 14 years, I 
have worked on a bipartisan basis with Senator Murray and 
Senator Mikulski, and we fought very hard to get the funding we 
need for veterans and to end homelessness. It has been truly 
bipartisan in Congress.
    And OMB has been at the same time truly bipartisan. Under 
both Democratic and Republican administrations, it has 
shortchanged both HUD and VA. Now, you talk about 
bipartisanship, man, we have got it right here. But we are 
fighting an uphill battle.
    And I would say that we have made progress. We have done a 
lot of things. We have not done as much as we should, as much 
as we would like to, or with your help and guidance, what we 
are going to be able to do from here on.
    Now, having gotten that off my chest let me direct a couple 
of easy questions before I ask all of you the tough one.
    First, Mr. Dougherty, you claim VA is the largest provider 
of homeless treatment and assistance to veterans in the Nation. 
I would like to know how much you have, how many programs do 
you manage, and how many homeless vets you care for.
    Mr. Dougherty. Senator, we see more than 100,000 homeless 
veterans through the VA health care system. We also know that 
at least 40,000 veterans who have been identified as being 
homeless are in receipt of VA benefits. What that does, as Paul 
and Rick talked about, for many of those veterans, if you get 
yourself back into a position where you can get back into the 
regular society. All of us want to be there. The ability to get 
a service-connected disability, or an income support, as I am a 
non-service-connected veteran, gives some an ability to both 
help make a contribution to that housing, but gives me some 
money upon which to live.
    Senator Bond. So most of this work is not homeless-
specific. You are saying that since you give veterans benefits 
and you provide veterans health care, a portion of that 
population that you are serving under those programs are 
homeless. Is that correct?
    Mr. Dougherty. What we are attempting to do is not to be 
the Department of Homeless Services. What we are attempting to 
do is to make the wide array of services that are available to 
veterans available to these veterans. That is why we started 
out many years ago by doing outreach specifically to find those 
veterans and to get those veterans into health care services.
    Senator Bond. And I realize you need the broad service, but 
I was asking you what percent. Do you have any idea of how many 
of the homeless veterans you are reaching out to for this 
discussion? How do you integrate with the homelessness problem 
in those broader programs?
    Mr. Dougherty. Given what are estimated the numbers of 
homeless veterans are on any given night, we are seeing about 
half of them in the VA health care system.
    Senator Bond. And I would ask Mr. Johnston. You provide, 
obviously, more homeless funding than any others, but I would 
like to know, number one, what is your relationship with other 
agencies assisting homeless vets? How does that work? And what 
are the programs that you think are most successful? I know 
that is a half-hour question, but maybe you can give me an 
answer in a couple of minutes.
    Mr. Johnston. Surely. In terms of relationships with other 
Federal agencies, we have, I think, very great relationships 
with a number of key Federal agencies. Pete Dougherty and I are 
either on the phone or on the e-mail three or four times every 
day, and I really mean that, not just because of HUD-VASH. We 
have had a longstanding relationship between these two 
agencies. The HUD-VASH original program was an initiative of 
people at HUD and people at VA sitting down saying let us just 
create this thing and then go to Congress to try to get it 
funded.
    So as one example, in our Continuum of Care funding, which 
is about $1.3 billion, which is most of our homeless funding, 
we actively encourage every community to use their CHALENG data 
from VA to link up with the data they are getting for HUD so 
they have a better competitive application locally, but more 
importantly, that the various parties at the local level are 
looking at all the data they have. And in the long term, I 
think that is very valuable.
    We have great relationships also with HHS and Labor. We 
have done a number of grant initiatives with these different 
agencies over the last couple of years where we provide the 
housing and they provide their very tailored services. For the 
VA, it was, for instance, case management to veterans. For HHS, 
it was mental health treatment and case management. And for 
Labor, it was job training.
    Senator Bond. Let me go to what I think is the most 
difficult question and may be difficult for Mr. Johnston and 
Mr. Dougherty to answer, but I imagine our other panelists will 
answer it.
    We have got a whole range of programs somehow somewhere 
targeted at homeless vets. There are so many different areas it 
is tough to keep up with all of them. I believe, if it is 
possible, to fold those programs into a much smaller number of 
larger programs and increase the money going into the larger 
programs to assure the continuum of care, what would you say 
very quickly from your standpoints are the best vehicles? What 
are the less good vehicles that might be combined into it? I 
would like to ask you to answer that quickly, and the rest of 
you perhaps to give us--what do we fold in and what programs 
into which we fold them--if that grammar works. Where do we put 
them?
    Mr. Johnston. Well, I think Senator Reed's leadership on 
greatly simplifying, consolidating, and making more flexible 
the homeless programs at HUD would be a huge step forward. He 
and Senator Allard for a number of years have been crafting, I 
think, a great piece of legislation that has many positive 
aspects of it. We have our own legislation. We do not mean to 
be competing with their bill because the bills are very, very 
similar, as was referenced earlier. It would eliminate all of 
HUD's competitive programs for homelessness and make it a 
single, simple program, with one match requirement, and one set 
of eligible activities.
    Senator Bond. That is an oxymoron, a simple HUD program, 
but I share your----
    Mr. Johnston. This would be one. Right now in the statute, 
every one of our programs has a different match requirement. 
Every one has a different set of eligible applicants and 
eligible activities.
    Senator Bond. Let me try to get quick answers. I apologize, 
Madam Chair. The time has run out, Mr. Dougherty then Ms. 
Beversdorf, and down the line.
    Mr. Dougherty. Senator, I think that the HUD-VASH program 
is a perfect example of how not to give us permanent housing 
authority, but to link us with the Department of Housing and 
Urban Development which does have permanent housing authority. 
It links up the best of both of us. They have the ability to 
get housing, we have the best ability, I think, to provide the 
needed health care services and a comprehensive way to do that. 
So I would say that this is a perfect example.
    Senator Bond. Ms. Beversdorf.
    Ms. Beversdorf. I would say that we need to be real careful 
because when we go back and look at the transitional program, 
the Grant and Per Diem Program, and the Homeless Veteran 
Reintegration Program, the uniqueness about that is the fact 
that it is veterans helping veterans. I think we need to go 
back to the idea that veterans have very unique characteristics 
and issues that need to be dealt with and the people who are 
best able to serve them are those who understand the issues. 
That is what I was covering when Senator Murray asked me about 
why veterans are homeless.
    Senator Bond. I agree with that.
    Ms. Beversdorf. So at least in terms of Grant and Per Diem, 
I think it needs to be a separate program. I think HVRP--and 
frankly, that is why HUD-VASH is so good because it was new 
vouchers specifically for veterans. And I think as we go on, in 
terms of permanent supportive housing for low income veterans, 
we have to again be careful not to put too many things together 
because I readily admit, there are other homeless populations 
that need to be addressed, but when 25 percent of the homeless 
population are veterans, that is an important point.
    Senator Bond. Mr. Berg.
    Mr. Berg. I would say we have been very supportive of 
Senator Reed and Senator Allard's bill to consolidate the HUD 
programs. I do think that if we are going to say veterans 
should not be homeless, that the VA needs to continue to have a 
very strong role in that. The VA is where veterans come in 
communities to get help, and we need to encourage that and 
provide some more kinds of help like housing.
    Senator Bond. Mr. Weidman.
    Mr. Weidman. Veteran-specific programs work for the reasons 
that Cheryl outlined. And the other thing is careful on 
consolidation because if you do not write veterans specifically 
in, in many cases they are going to be specifically read out at 
the local level.
    I would mention that the veterans helping veterans model 
works. It is why in St. Louis, as an example, the St. Louis 
Veterans Assistance Center run by Bill Elmore in the 1970s was 
the most effective place for Vietnam veterans to get 
comprehensive help. It is now morphed into the Center for Small 
Business Development by Pat Heevy. And you want to allow for 
that, veterans helping veterans. It is not only cost efficient, 
but you can bring lots of volunteer resources to it.
    So while consolidation in many cases is seductive and may 
even make some sense, what has happened at the Department of 
Labor has rebounded and meant that there are many fewer 
services or in some cases no services at all for veterans, 
particularly disabled vets, in employment.
    Senator Bond. Mr. Lambros.
    Mr. Lambros. Well, as a provider, consolidation scares us 
because often it means reduction. So I would be cautious about 
that.
    I think the word I use versus ``consolidation'' is 
``flexibility.'' I think to look at the funding sources 
available to veterans and make sure again they are flexible 
enough to work with local initiatives. The tax credit program 
is an example that I mentioned. I know some States are using 
the tax credit program with for-profits to do low cost housing. 
In Washington State and many other States, we are using it for 
the homeless. We are prioritizing the homeless. It is a perfect 
opportunity to make vets capital dollars work in those 
projects. I think it is just about flexibility.
    We have, like I said, a great relationship with the VA, but 
when we opened this new project and we knew we had 25 set-aside 
units for homeless veterans, we have four case management staff 
on site. We made sure we did not steal one from the VA, but we 
hired one that has a lot of experience with veteran issues 
because we knew that was important. But that is being funded 
out of a totally different funding source.
    Senator Bond. Thank you very much. I apologize to my 
colleagues, but I thank you. That is really the kind of 
guidance that we needed.
    Senator Murray. Thank you very much.
    Chairman Johnson?
    Senator Johnson. Thank you all for your testimony. Before I 
begin with questions, I would like to thank the VA and HUD and 
other organizations for their ongoing efforts in regard to 
homeless vets. I know many of our vets in clinics in South 
Dakota appreciate the assistance and cooperation they have 
received from your agencies. Thank you for that.
    Mr. Dougherty, you said in your statement that the VA works 
continuously to reach out and identify homeless vets and 
encourage their utilization of VA's health care system. As you 
may know, South Dakota is a very rural State. Outreach in rural 
areas must be particularly challenging. Have you identified 
significant challenges to rural outreach, and how do you 
propose to overcome the challenges to help those veterans who 
have little access to your programs and facilities?
    Mr. Dougherty. Mr. Chairman, I appreciate your question 
because many years ago when I worked on the staff here for the 
Congress, I worked for a member who was the chair of the Rural 
Caucus. When the Grant and Per Diem Program was created, it did 
not set any minimum amounts of numbers of beds because we 
wanted that program to work both for rural areas as well as 
urban areas.
    What we have done in the HUD-VASH program is to fund those 
positions and also fund them with vehicles and with adequate 
resources so those case managers can get out. I mean, it does 
not do us any good to have a good dedicated case manager if 
they are going to sit in their office and they do not have any 
travel money to get out and go to those places. If you are in 
New York City or somewhere like that and you have a public 
transportation system, you can move around fairly quickly, but 
if you are in rural South Dakota, and you are going to do that 
kind of work, you have to have resources to do it.
    We have several hundred staff under our Health Care for 
Homeless Veterans Program, and that is what they do. They go to 
those places. They work with veterans in those places. They 
talk to city and county and State people. When folks call us, 
county veterans service officers and others contact us and say 
there is a homeless veteran who needs some assistance, we try 
to get both the Benefits Administration and health care folks 
out to them. One thing we do try to do is resource that staff 
so they have the ability to go out and not just sit in the 
hospital.
    This is a program--I can tell you 20 years ago that people 
would ask us all the time, what do you mean you are going to 
have staff that is going to work out in the community? How does 
this medical center monitor and oversee what that person does? 
That attitude has changed dramatically now because they 
recognize that you cannot do this kind of work by sitting in 
the hospital and waiting for someone to come see us. We have to 
go out into the community and find them there.
    Senator Johnson. South Dakota also has a large population 
of Native Americans, many of whom are vets. Can you tell us 
what the VA does to reach out to that unique population of 
vets? And also, what is the level of cooperation with the IHS?
    Mr. Dougherty. Mr. Chairman, we have made and targeted in 
the last several notices of funding availability under the 
Grant and Per Diem Program that programs that will operate on 
tribal lands would have a preference in the application. We 
have three programs that were authorized in South Dakota on 
tribal lands. We at one time made it that you had to be the 
tribal government in order to be considered. But now we simply 
say that if another entity, a nonprofit organization for 
example, is working with you, we will allow you to be funded. 
That Notice of Funding Availability and that provision to have 
tribal governments as part of that housing and services is in 
the current notice of funding availability, and we are hopeful 
that we will get some additional resources.
    I know a little bit about the Indian health care services 
because I am the acting Deputy Assistant Secretary for 
Intergovernmental Affairs, and we have been engaged in a number 
of conversations with tribal governments about the health care 
services between VA and the Indian Health Service. And it is 
somewhat challenging; somewhat difficult, but I think there is 
a commitment on the Department. I think our rural outreach 
office that is going on will help us continue because most of 
those tribal nations are in rural areas. I think that we will 
more and more be able to provide veteran-specific services to 
those veterans who are on tribal lands in the future.
    Senator Johnson. Transportation is a critical issue when 
dealing with vets in rural areas. When discussing homeless 
vets, the issue is even more challenging. Let us say that you 
have a homeless vet on the Pine Ridge Reservation that needs to 
get to Minnesota or Omaha for specialized treatment. Utilizing 
the normal process, the vet would pay for his or her own 
transportation and then be reimbursed. I have heard from 
shelters in South Dakota that this process is the same for 
homeless vets. I think it is pretty safe to say that this 
population of vets is not going to be able to pay for the 
transportation up front. How is the VA working to overcome this 
challenge?
    Mr. Dougherty. Mr. Chairman, if the veteran had come into 
the VA health care system and we were seeing them and they were 
a homeless veteran and they needed to go to some other location 
for health care services, we would not be providing 
transportation support for that veteran to get to that 
location. But if he was specifically a homeless veteran, once 
he came in and we were identifying him and working with him, in 
that situation we should provide the transportation for him to 
go somewhere else. We are certainly happy to look into the 
situation you are talking about and see if we can be more 
helpful.
    Senator Johnson. I am out of time.
    Senator Murray. Thank you very much, Mr. Chairman.
    Senator Reed.
    Senator Reed. Thank you very much, Senator Murray. Thank 
you for holding the hearing and thank you all for not only your 
testimony but your support and your assistance in drafting the 
legislation that Senator Allard and I are cosponsoring. We hope 
that we can get it through the floor of the Senate because I 
think it would be signed and it would be effective in helping 
many Americans, including our veteran population.
    I wanted to pick up on a point that Mr. Weidman made, which 
is that not much has changed, unfortunately, over 20-plus 
years. A third of homeless veterans have mental health issues. 
A third have substance abuse issues, and a third have sort of 
disengaged for one reason or another from the mainstream, if 
you will.
    I wonder your impression of whether those statistics vary 
given this discrete veteran population in age--the newer 
veterans, the Vietnam era, Korean War, World War II. And then I 
will ask Mr. Dougherty if he could comment from the VA's 
perspective.
    Mr. Weidman. Well, the World War II and Korean veterans'--
many of them are dead because it is hard living out on the 
street.
    Senator Reed. Right. Then you hear about the 70-year-old 
veteran.
    Mr. Weidman. Right.
    Vietnam veteran's--it is probably about the same I think 
and it still pretty much holds true. But it holds true among 
the young people coming home also. Now, the substance abuse may 
have occurred when something happened in their life.
    Let me give you an example of somebody who is just 
disenfranchised. A friend is a sergeant 1st class with a unit 
in the local National Guard that was deployed to Iraq, and when 
he came home--and it was the second tour that this individual 
had been on. And the spouse said, hey, I did not sign up for 
this. And so when they came home, they had no place to go and 
on an E-3 salary did not have the wherewithal to get their own 
housing and therefore ended up sleeping in their car for about 
8 months until we were able to get him out of--I heard about it 
and we were able to connect him up with some people. But that 
is the kind of thing which is just--once you are out on the 
street, how do you get out of that situation? And so that has 
not changed.
    And I think that a better transition that Senator Bond 
talked about would help a great deal. VVA hates the term 
``seamless transition'' because it is news speak. You know, how 
about we have a real transition first before you start calling 
it seamless? I mean, it is a worthy goal, but it does not work 
very well particularly for disabled vets. The DTAP program is 
on paper more than it is in actuality.
    Insofar as the mental health and substance abuse services, 
substance abuse is also in the process of rebuilding at VA and 
it is very uneven area to area. Some areas are pretty good. 
Other areas are not. And it really reflects back to that period 
in the 1990s when substance abuse services in some of the 21 
networks was virtually wiped out.
    And it is not as easy as just turning on the faucet when 
they are finally getting more resources. We are a difficult 
population, Senator Reed. We are not necessarily warm and 
fuzzy, those of us who served in combat. And our stories are 
hard for people to take. It is a very special kind of person 
for a therapist who not only has empathy and understands what 
we are talking about but can put up with that day after day 
after day for months and weeks and years and yet keep coming 
back with the empathy and the skills to help people get better. 
So it is a rebuilding process.
    That is one of the reasons why we were so upset that the 
organizational capacity at the vet centers has not been 
expanded to keep up with the overwhelming demand out there.
    Senator Reed. Thank you.
    Mr. Dougherty, your comments from the VA perspective.
    Mr. Dougherty. Yes, Senator. One of the smartest things the 
Department of Veterans Affairs ever did when we first started 
working specifically with the homeless program is do a program 
monitoring and evaluation of every veteran that we have seen. 
We know every veteran who we have seen in the homeless-specific 
program since 1987.
    What we can tell you is generally among all those 
veterans--and that percentage has changed but changed slightly 
over the years--is that about 45 percent of the veterans we see 
in homeless programs have a diagnosable mental illness, and 
about 90 percent have a substance abuse problem, and about 35 
percent are dually diagnosed, which makes that level a little 
bit higher.
    I can tell you we do specific program monitoring and 
evaluation of those veterans who we have seen from Iraq and 
Afghanistan in the last 3 years. The difference among that 
group is the substance abuse problem is less than it is among 
these other veterans, but the mental health issue particularly 
around combat-related PTSD is much higher.
    Senator Murray--when she asked a question before, I wanted 
to jump in about what the difference is societally because this 
is the thing that sort of haunts those of us who do this all 
the time. And one of the differences is we simply live in a 
different society than we did in World War II. My family lived 
in the same area of New York State for 250 years and basically 
nobody ever moved away from there. None of us live in that area 
any longer. We live in a different society. My grandfather was 
one of 11 boys. My father was an only child. We do not have the 
extended families. The social service network that comes out 
today did not exist back then.
    The other is in the Department. We never even recognized 
PTSD, until many years after Vietnam was over. There are lots 
of things that we are doing differently.
    Senator Reed. Thank you very much.
    This raises a question, Mr. Johnston. First, thank you for 
your kind comments about the Allard-Reed legislation and for 
your assistance. I really appreciate it very much.
    But it points to the link between supportive services and 
housing. I think we recognize that now, but the question I 
would have is how can we target these services to be more 
effective, or are we thinking along those lines, because we do 
have a finite amount of money. And sometimes what stops a 
project or undermines a project is not that you do not have the 
structure. You just do not have the supportive services to 
complement it.
    Mr. Johnston. The unique opportunity that HUD has with its 
current homeless programs--and it would continue in your 
consolidated program--is that you can use HUD funds to do 
anything to solve homelessness. You can use them for all sorts 
of housing activities, as well as any imaginable supportive 
service. So if they need drug treatment, mental health 
treatment, substance abuse treatment, child care, job training, 
et cetera, you can use that. So a link between housing and 
services, as Plymouth does--they have one of our grants where 
you can use our supportive housing program both for the housing 
and for the services--that is really vital.
    We realize that we do have limited resources, and so we 
have been encouraging communities over the last 5 or 6 years to 
use more of our money for housing and try to fund their 
services elsewhere. But we still fund a lot. We fund about $500 
million a year in services.
    Senator Reed. Thank you.
    And Ms. Beversdorf and Mr. Berg, thank you so much for all 
the assistance you have given to myself, my staff.
    I have just a few seconds left, but one of the issues, 
obviously, is to try to stop this from happening, and when you 
have a population of new veterans coming out of active military 
service, there is a chance for the Department of Defense and VA 
to coordinate. We hope that is happening. But then you have 
veterans who have at least been able to support themselves into 
their mid-life and now they are having problems. I wonder if 
you could just quickly comment on that topic.
    Ms. Beversdorf. Well, I think sometimes there is difficulty 
in terms of knowing where to go when you decide you need help. 
I always keep saying as long as I am with the National 
Coalition for Homeless Veterans, if there could be some kind of 
sustained national public awareness effort to get to these 
people at a time when they need the services, I think that that 
would be really helpful because we get many calls. NCHV gets as 
many as 300 calls a month, but a lot of people do not even know 
where NCHV is.
    The good news is there are more points of contact out 
there, more community-based organizations, and more people who 
are interested. But somebody has to tell them about that. They 
have to urge them to go to the VA. Some people are reluctant to 
go to the VA.
    And the other important thing is that these young people 
who are returning now--homelessness takes a long time. I mean, 
when you talk about the Vietnam era, it sometimes took 5 to 7 
years before they exhausted all the possible resources. So each 
situation is different, but at least we are trying to do a 
better job of getting the word out. And we have more points of 
contact out there, but we still have a long ways to go.
    Senator Reed. Mr. Berg, just quickly.
    Mr. Berg. I would just add if the help that is needed is 
housing, if people are homeless or about to become homeless, 
that is still not necessarily there in communities. Things like 
HUD-VASH will help, but finding housing, using the private 
market, using other programs, that is something that does not 
really exist as much as it should.
    Senator Reed. Thank you.
    Let me just follow up on something I think Ms. Beversdorf 
said. I think this is a developing problem for these new 
veterans because the resources--your parents eventually go away 
and your friend's couch goes away when he or she gets married 
and has their own family. So we might have a bigger population 
of new veterans that are confronting this issue of homelessness 
than we anticipate at the moment or statistics suggest.
    Ms. Beversdorf. And many more also have families now too. I 
mean, that is the thing that is so difficult, that the VA by 
law is only supposed to treat the veteran. Yet, if you think 
about ending homelessness, you need that support system and 
child care. Senator Murray is talking about more women, a lot 
more men too. So what do we do about the child care and the 
family issues?
    Senator Reed. Thank you.
    Senator Murray. Senator Reed, thank you so much for your 
commitment and work on this as well. We appreciate it.
    Let me go back. Mr. Dougherty, I want to ask you. It seems 
like we are hearing a lot that some of the predictors of 
homelessness are mental illness, substance abuse, financial 
instability, lack of community, and all those things. Does the 
VA currently do any kind of individual comprehensive assessment 
of each service member entering the VA system to evaluate those 
that may be at risk for homelessness?
    Mr. Dougherty. When we find a veteran and we engage that 
veteran at the bridge or in the park or out in the woods, we do 
a very extensive----
    Senator Murray. When they are homeless, but what about all 
of the veterans who are returning. Is there any kind of 
evaluation to look at this?
    Mr. Dougherty. No, we do not do the same kind of evaluation 
that I am referring to unless we have some reason to believe 
that veteran is homeless or at risk.
    Senator Murray. So we wait until they are homeless.
    Ms. Beversdorf, maybe you could comment. Would it be 
helpful if we were evaluating those veterans to sort of have a 
yellow flashing light this veteran may be at risk of 
homelessness so we can deal with those issues sooner than that?
    Ms. Beversdorf. Absolutely. Again, when people get back and 
they begin to realize maybe they have more problems than they 
thought and they did not anticipate. That is the time when they 
should be going for services.
    Now, I could actually step back a little bit. I think it is 
still regrettable that when individuals get out of the service 
that there is not a good transition. As I said, I am a veteran 
as well and nobody certainly asked me if I had a home to go to 
or I had a job. And yet, these are the major features. Do you 
have health issues and employment issues and housing issues? 
And if you could find those things out before someone is 
discharged, that would certainly be a start. But again, 
sometimes young people are so anxious to get back and they 
think everything is going to be okay, and that is when things 
start happening.
    And I would also say, because I wanted to address what 
Senator Johnson was talking about, I think we need to think 
about the non-VA facilities, particularly in rural areas. They 
need to be more attuned to the fact that there are going to be 
veterans coming to their facilities like these mental health 
centers or community health centers. We need to make sure that 
we do not say, well, gee, you are a veteran, so you will have 
to go 300 miles up the road to a VA medical center when this 
person might be in crisis and need that assistance right away.
    Senator Murray. We have a lot that we could do. We are, 
unfortunately, running out of time, and I want to ask one last 
question that I focused on a little bit on in my opening 
statement and that I have heard mentioned several times, and 
that is the issue of female veterans. You know, the VA was 
designed in large part to deal with men, and the fact is that 
we have a growing number of women who are serving us honorably 
and when they get out, there is not the same ability for them 
to access VA or they often do not even think of themselves as 
veterans. And we know that the sexual trauma issue is growing 
and needs to be addressed.
    Mr. Weidman, you testified about some of the challenges 
within the VA system that could limit the VA's ability to meet 
the needs of female veterans. Can you talk a little bit about 
what steps you think we need to address that population in 
particular?
    Mr. Weidman. Theoretically every hospital has a woman 
veteran's coordinator and in some cases that is only 
theoretically. There are only about 40 of the 156 medical 
centers that have free-standing women's clinics. It is our view 
that we need a free-standing women's clinic in every VA medical 
center, certainly in the tertiary facilities. That would be 
number one.
    The second thing is the CBOCs. Of the 800 community-based 
outreach clinics, their goal is 80 percent of them have mental 
health services. But what they are calling mental health 
services is a part-time psychologist or clinical social worker 
who may or may not know PTSD from ABCD and much less be skilled 
in meeting the needs of military sexual trauma, particularly 
complicated by those young women who have been exposed to both 
hostile fire and military sexual trauma. These are going to be 
very complicated cases.
    So you need free-standing women's clinics at most of the VA 
hospitals, which they currently do not have, and you need also 
to ensure that within the vet center system, there are enough 
female veterans who are staffers who have the clinical skills 
to provide the military sexual trauma. Although the vet center 
has many fine counselors, by and large women who have been 
subject to military sexual trauma are not going to open up to 
men, one.
    And two, you also need, just in general across the system--
and this is something VVA has been asking VA to get geared up 
for now for 5 years. You cannot take women veterans who have 
been exposed to hostile fire and throw them into a group 
therapy session with the guys. Just think about the nature of 
PTSD. Women are not going to open about the problems they have 
with intimacy in front of the guys and the guys, sure as the 
dickens, are not going to open up to the problems that they 
have in front of the women. So in this case, you really need 
separate but equal treatment and focus on the needs of women 
when it comes to PTSD as well as other care.
    One last point, if I may. By having a free-standing women's 
clinic, nobody knows why any woman goes there, and she is much 
more likely to see a psychologist and talk about the sexual 
trauma if nobody knows why she goes there. She could be going 
in there for physiological reasons.
    Senator Murray. Sure.
    Mr. Weidman. And so that is why having a free-standing 
women's clinic is so important, one of the many reasons.
    Senator Murray. Thank you.
    Mr. Dougherty, do you have any thoughts on that?
    Mr. Dougherty. Yes, I would. There are several things, 
Madam Chairman.
    The Department has recognized the need for sort of some 
safety and security issues in residential treatment programs on 
VA property. And so we have moved so that the women, if you 
will, are not sort of at the end of the hallway where the men 
are located and so on. All of our programs are now moving to 
separate areas so that the women have their own environment in 
which to be housed and placed.
    Under our community programs, we have women-only programs 
under the Grant and Per Diem Program. And we also have programs 
for women veterans, including those who have children, as 
special needs funding so we can fund some of those additional 
services that those women need.
    But under the HUD-VASH program, we think one of the great 
advantages this is giving us is that for many of those women 
who have children or have families, this will give them a place 
to have that place in the community where they can then go and 
access VA health care services, where before they would be 
reluctant to come and get services from us. So we think this 
will be a great addition to particularly those younger women 
veterans coming back from service in Iraq and Afghanistan.
    Senator Murray. Thank you very much.
    Chairman Johnson, do you have any additional questions?
    Senator Johnson. No.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. We do have some additional questions from 
other members of the committee. Our time has run out. We will 
submit those and ask all of you to respond for the record.
    But let me just personally thank each and every one of you 
for your commitment to this critically important issue and your 
time and energy on working on it and coming before us and 
giving us a lot to ponder as we move forward to try and meet 
this tremendous need. So thank you very much to all of you.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]

                  Questions Submitted to Mark Johnston
              Questions Submitted by Senator Patty Murray

                          THE HUD-VASH PROGRAM

    Question. Our Nation now has approximately 20 years of experience 
with the issue of homeless veterans. We know that veterans are over-
represented among the homeless population. Every night as many as one 
out of every four homeless people on the street is a veteran.
    This past year, I worked with Senator Bond, as well as our 
colleagues on the Military Construction VA Subcommittee to help tackle 
this problem. For the first time since 1994, we provided new HUD-
Veterans Affairs Supportive Housing or HUD-VASH vouchers to get over 
10,000 homeless veterans into permanent housing and provide them with 
the services they need.
    HUD and VA recently announced the $75 million that Congress 
provided last year to fund these vouchers. Sites were selected in every 
State. Among the factors that VA and HUD considered in determining what 
communities received vouchers, were the homeless population of the area 
and proximity to VA medical centers. Mr. Johnston, can you provide more 
details on how the sites were selected?
    Answer. The sites that received HUD-VASH vouchers across the 
country were selected through a collaborative, two-step process between 
the VA and HUD. The VA distributed the first approximately 7,500 
vouchers in blocks of 35 (per the case management ratio) based on need 
data and on ensuring equitable geographic distribution. HUD then 
reviewed data on the number of homeless veterans reported by Continuums 
of Care (CoC) in 2006 and 2007, and cross referenced the geographic 
areas covered by VA Medical Centers and CoCs. HUD then supplemented 
with additional vouchers (also in blocks of 35) in those areas with 
high numbers of reported homeless veterans. PHA administrative 
performance was also taken into account.
    Question. How do you address the concerns of communities that 
weren't selected, but that have homeless veterans who need services, 
particularly those in rural areas?
    Answer. The VA believes that there will be many additional sites 
that will be specifically identified and that can be addressed in the 
next round of funding. The VA has suggested having communities that are 
interested in securing new HUD-VASH vouchers for their community 
contact their nearest VA Medical Center and talk with the local VA 
homeless coordinator. The VA believes this contact will help address 
the need for HUD-VASH services in these areas. The VA expects this 
additional contact will enhance the penetration of this program in 
smaller and more rural areas of the country.
    Question. If additional funding was provided in 2009, will you use 
a similar selection process, and what advice would you give communities 
that you would like to receive vouchers that weren't selected?
    Answer. We believe that there will be many additional sites that 
can be specifically addressed in a next round of funding. Matching 
resources with total geographic need and concentrations of need is a 
complex undertaking. The program is working through all VA-Medical 
Centers and therefore provides significant coverage across the country. 
Additional funding will allow the program to achieve growth depth of 
coverage. The VA has specifically suggested having communities that are 
interested in securing new HUD-VASH vouchers for their community 
contact their nearest VA Medical Center and talk with the local VA 
homeless coordinator. We believe this contact will help address the 
need for HUD-VASH services in these areas. It is expected that this 
enhanced contact will enhance the penetration of this program in 
smaller and more rural areas of the country.
    Question. I have heard in my community that there is a desire to 
make these vouchers project-based. So, instead of tying the vouchers to 
tenants who may move around, the vouchers would be tied to a particular 
building. This would help communities finance permanent housing 
facilities for veterans. Mr. Johnston, is HUD planning to allow PHAs to 
project-base these vouchers in 2008?
    Answer. Yes. Section j of the Implementation of the HUD-VA 
Supportive Housing Program (HUD-VASH Operating Requirements) published 
in the Federal Register on May 6, 2008, states that HUD will consider, 
on a case-by-case basis, requests from the PHA (with the support of the 
VA Medical Center) to project-base these vouchers in accordance with 24 
CFR section 983.

                            RAPID RE-HOUSING

    Question. As you know, I included a rapid re-housing program for 
families in last year's Transportation and Housing Appropriation's 
bill. This approach helps families who are in need of short-term 
assistance get the resources they need--such as rental assistance and 
other support services--to help prevent them from falling into 
homelessness. Mr. Berg's testimony suggests a similar approach could 
work for veterans. Based on what we know about prevention, do you think 
that a similar program would be effective in helping veterans at risk 
of homelessness?
    Answer. HUD is in the early stages of implementing the Rapid Re-
Housing for Families Demonstration Program (RRH) through the 2008 CoC 
NOFA. HUD anticipates that some of the families to be served through 
this demonstration will be families with veteran head of households. In 
addition, many veteran families currently living in shelters or on the 
streets will be eligible to receive permanent, rather than 
transitional, housing and services through HUD-VASH. The lessons 
learned through both the HUD-VASH and the Rapid Re-Housing 
Demonstration will help to inform HUD on how to proceed to serve 
veterans effectively.

                  COORDINATION BETWEEN HUD AND THE VA

    Question. We have created many programs to address the needs of 
homeless veterans. Programs range from housing to health care to job 
training, and they are scattered among various Federal agencies, 
including HUD, the VA and the Department of Labor. I held a roundtable 
on the issue of homeless veterans in Seattle in February and I heard 
from some at the event that there was little coordination between HUD 
and the VA on the ground level. Mr. Johnston, how can be we sure that 
coordination between HUD and the VA is occurring in the field?
    Answer. Ensuring effective coordination of the HUD-VASH program at 
the local level has been a priority of both HUD and the VA in 
implementing the HUD-VASH program. Some of the actions to ensure 
coordination include:
  --As soon as participating VA medical centers and Public Housing 
        Agencies (PHAs) were identified, the VA directed its homeless 
        network coordinators to make contact with the participating 
        PHAs so local planning and coordination could begin. HUD field 
        office staff helped establish these local connections between 
        PHAs and VA staff.
  --On May 8, 2008, HUD and the VA held a joint video broadcast to 
        explain the HUD-VASH operating requirements to PHAs and the VA 
        homeless network staff and to give them the opportunity to ask 
        questions.
  --On-going HUD and VA teleconferences with the HUD-VASH sites are 
        planned to monitor progress and to identify problems that need 
        attention.
  --Regular HUD teleconference calls with our field offices relating to 
        HUD-VASH program operations as well as VA coordination at the 
        national and local levels will enable HUD to identify potential 
        problems and propose solutions.
  --An additional tool, a joint VA-HUD tracking system, is being 
        developed to enable HUD and the VA to identify sites that need 
        extra technical assistance.
        the role of the u.s. interagency council on homelessness
    Question. The Interagency Council on Homelessness is charged with 
coordinating the Federal response to homelessness. Members of ICH 
represent various departments and agencies within the Federal 
Government, including HUD, the VA, the Department of Defense and the 
Department of Labor. I think it is noteworthy that Secretary Peake is 
currently chairing the ICH. I hope that he will take this opportunity 
to promote better coordination and a greater commitment by Federal 
agencies to ending homelessness for veterans. Mr. Johnston, what can 
the ICH do to improve coordination among Federal agencies?
    Answer. The Interagency Council on Homelessness (ICH) has had 
success with program initiatives involving HHS, VA and HUD, and has 
learned lessons about how those types of collaborative initiatives 
could work better given the statutory and regulatory framework of each 
agency's programs. The ICH could use the lessons learned to explore the 
possibility of future joint initiatives that address emerging needs of 
homeless families and individuals.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                     CHRONICALLY HOMELESS VETERANS

    Question. Studies show that permanent supportive housing is an 
effective, cost-efficient way to address the issue of the chronically 
homeless. Your written testimony cites a number of ways HUD is working 
to support these initiatives, including the Collaborative Initiative to 
Help End Chronic Homelessness, the Continuum of Care competition, and 
initiatives with the Department of Labor. In sum, these programs have 
served fewer than 1,000 chronically homeless veterans--out of the 
64,000 veterans who were chronically homeless in 2005. How does HUD 
plan on reaching the other 63,000+ chronically homeless veterans?
    Answer. HUD expects that many chronically homeless veterans will be 
provided permanent housing through the HUD-VASH program. In addition to 
those served in HUD-VASH, HUD estimates that at least 10 percent of 
adult participants served through HUD's homeless programs are veterans. 
In addition to targeted homeless programs, a significant number of 
Public Housing Authorities around the country have implemented 
preferences for either persons who are homeless or veterans, or both.

                                HUD-VASH

    Question. HUD-VA Supported Housing (HUD-VASH) combines section 8 
vouchers with VA case management and clinical services for homeless 
veterans with severe psychiatric or substance abuse disorders. In your 
testimony, you said that HUD and VA expect to provide housing and 
services to about 10,000 homeless veterans through the HUD-VASH using 
the $75 million provided in the fiscal year 2008 omnibus. You also said 
that the agencies expect to serve an additional 10,000 homeless 
veterans through the President's fiscal year 2009 request of $75 
million. Given the fact that there are hundreds of thousands of 
homeless veterans, why is the administration requesting flat funding?
    Answer. The administration is not requesting flat funding. The 
administration's fiscal year 2009 budget request for the Homeless 
Assistance Grants account includes an increase of over $50 million 
above the 2008 appropriation. In addition to the increased request for 
homeless programs, the administration included a request for an 
additional $75 million for HUD-VASH, which will fund up to 10,000 
additional units of permanent housing vouchers for homeless veterans.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                           WEST LA VA CAMPUS

    Question. Several months ago, I was told that the VA would 
coordinate with HUD to come up with a plan for supportive, long-term 
therapeutic housing at buildings 205, 208 and 209 on the West LA VA 
campus. The goal of this strategy was to begin the McKinney-Vento 
process leading to the formal Federal Register notice requesting 
letters of interest. Are you aware of the West LA VA designation of 
three buildings for homeless services?
    Answer. Yes. HUD and HHS staff have been briefed by a 
representative of the VA on this issue and HUD is prepared to work with 
the VA as they move forward.
    Question. To what extent have you worked with the VA to provide 
vouchers for supportive housing at these buildings?
    Answer. These buildings have not been submitted for screening 
through the McKinney title V process, and have not received funding 
(title V provides no funding).
    Question. What sources of funds are available to rehabilitate these 
historic buildings for use as homeless programs for veterans?
    Answer. Funds for rehabilitation of buildings can come from a 
variety of Federal, State and local sources. Some potential HUD sources 
include the Community Development Block Grants, the HOME Program, and 
Homeless Assistance Grants.

                        MC KINNEY-VENTO PROCESS

    Question. Has the multi-agency McKinney process been used 
successfully recently for housing programs? What are some examples?
    Answer. Yes. The title V program has been used successfully. While 
HUD makes the suitability determinations, HHS must process and approve 
the particular applications for homeless use. Three examples of 
successful title V applications include:
  --VA parcel, Los Angeles CA: Salvation Army used as transitional 
        housing;
  --Homestead AFB, FL: Used for transitional housing; and
  --Boyett Village, Albany, GA: Used for transitional housing.

                                HUD-VASH

    Question. As you note in your testimony, in fiscal year 2008, the 
Federal Government authorized 10,000 permanent housing units for 
homeless veterans, including 800 housing vouchers for Southern 
California under HUD's Veterans Affairs Supportive Housing Program 
(HUD-VASH) to provide rental assistance and supportive services to 
veterans. While the city of Los Angeles received the vouchers, neither 
the county nor any other city within the county was awarded vouchers.
    Given the large number of homeless veterans spread throughout the 
County of Los Angeles, how will the HUD-VA supportive housing rental 
assistance vouchers and supportive services program be implemented to 
allow homeless veterans the choice to move into homes throughout the 88 
cities within the County of Los Angeles?
    Answer. Normal portability provisions of the HCV program will allow 
the family to live within or outside the jurisdiction of the issuing 
(or initial) PHA as long as the family is able to receive case 
management services from the VAMC as determined by that entity. In 
other words, families issued vouchers by the Housing Authority of the 
city of Los Angeles may move under portability throughout Los Angeles 
County and elsewhere as long as the family can receive case management 
services from the Greater Los Angeles VA Medical Center.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell

                          PROGRAM COORDINATION

    Question. What is HUD doing to improve coordination between its 
substance abuse counseling, mental health counseling and homelessness 
programs?
    Answer. Through its Homeless Assistance programs, HUD funds housing 
as well as many types of supportive services necessary to assist 
homeless families and individuals obtain and remain in their housing. 
These services are funded through the comprehensive ``Continuum of 
Care'' approach and are coordinated at the local level by grantees and 
homeless planning groups. In order to maximize the housing resources 
provided through HUD's competitive programs, programs often leverage 
services provided through other Federal agencies such as HHS and the 
VA.
                                 ______
                                 
               Questions Submitted to Peter H. Dougherty
              Questions Submitted by Senator Patty Murray

              RAPID RE-HOUSING MODEL FOR HOMELESS VETERANS

    Question. One of the major reasons that veterans fall into 
homelessness is that they are struggling economically, and more 
specifically, they have difficulty maintaining or finding safe and 
affordable housing. Often, these veterans find themselves in a 
difficult situation, and if provided some temporary housing assistance 
they might be able to avoid homelessness. Mr. Berg's testimony suggests 
that one of the missing pieces in the assistance that we provide to our 
veterans is some sort of housing assistance. He further suggests some 
sort of temporary assistance program that could help prevent 
homelessness.
    Mr. Dougherty, if given the resources, do you think that the VA 
could implement, or assist in implementing, such a program?
    Answer. VA does not have the statutory authority or the resources 
to provide temporary housing assistance to at risk veterans. We provide 
health care and benefits to eligible veterans struggling economically 
and having difficulty maintaining and finding affordable housing. Early 
and preventive intervention with the VA health care system and our 
benefits assistance could be very helpful in preventing some veterans 
from becoming chronically homeless.

           COORDINATION BETWEEN FEDERAL AGENCIES IN THE FIELD

    Question. We have created many programs to address the needs of 
homeless veterans. Programs range from housing to health care to job 
training, and they are scattered among various Federal agencies, 
including HUD, the VA and the Department of Labor. I held a roundtable 
on the issue of homeless veterans in Seattle in February and I heard 
from some at the event that there was little coordination between HUD 
and the VA on the ground level.
    Mr. Dougherty, are you concerned that poor coordination in the 
field could be keeping veterans from getting all of the services that 
are available to them?
    Answer. Nationally VA works very closely with the field to 
coordinate health care and benefits for veterans with other Federal, 
State, and local agencies as well as with non profit service providers. 
We have a major focus in improving our local relationships. This is a 
major priority of mine in my roles as National Director Homeless 
Veterans Programs and Acting Deputy Assistant Secretary for 
Intergovernmental Affairs.
    Question. How can we sure that coordination between HUD and the VA, 
and other Federal agencies, is occurring in the field?
    Answer. I am in contact with one or more HUD offices daily. VA will 
be holding a national conference in August 2008 to improve 
collaboration between HUD and VA specifically on HUD-VASH. Secretary 
Peake is the Chair of the U.S. Interagency Council on Homelessness 
(ICH). I am the designated Senior Policy Representative for the ICH and 
there is a major focus to improve coordination and planning of services 
and initiatives among Federal partners. Last year VA hosted more than 
9,000 individuals and organizations at more than 100 community homeless 
assessment meetings.
    Question. Mr. Dougherty, does the VA have any similar incentives 
that promote coordination?
    Answer. Under VA's Homeless Providers Grant and Per Diem Program, 
applications that show coordination have a rating factor that will 
improve their score. VA looks specifically for coordination and 
planning of services at the local level.

        THE ROLE OF THE U.S. INTERAGENCY COUNCIL ON HOMELESSNESS

    Question. The Interagency Council on Homelessness is charged with 
coordinating the Federal response to homelessness. Members of ICH 
represent various departments and agencies within the Federal 
Government, including HUD, the VA, the Department of Defense and the 
Department of Labor. I think it is noteworthy that Secretary Peake is 
currently chairing the ICH. I hope that he will take this opportunity 
to promote better coordination and a greater commitment by Federal 
agencies to ending homelessness for veterans.
    Mr. Dougherty, what can the ICH do to improve coordination among 
Federal agencies?
    Answer. VA has participated in every ICH meeting since the council 
reorganized. In addition we have regular (normally monthly) meetings as 
a Senior Policy Group. Those efforts led to a coordinated response to 
Chronic Homelessness both by defining the term and funding the Chronic 
Homeless Initiative. That effort also caused a change in policy 
regarding availability of property under McKinney-Vento. These efforts 
re-enforced our efforts that led to several successful multi-
departmental efforts including the Incarcerated Veterans Transition 
Program with the Departments of Labor and Justice.

             TRANSITIONAL HOUSING VERSUS PERMANENT HOUSING

    Question. The HUD-VASH program is the only program that the VA 
participates in that provides for permanent housing instead of 
temporary transitional housing.
    Mr. Dougherty, has the VA considered providing resources for 
permanent housing for veterans? If not, why not?
    Answer. VA has submitted a draft bill to Congress that would permit 
VA to carry out a pilot program to make grants to public and nonprofit 
(including faith-based and community) organizations to coordinate the 
provision of supportive services available in the local community to 
very low income, formerly homeless veterans residing in permanent 
housing. We look forward to working with Congress to enact this 
legislative proposal.

                  THE VA'S GRANT AND PER DIEM PROGRAM

    Question. The Grant and Per Diem Program is an essential tool that 
communities use to address the issue of homelessness among our 
veterans. It allows communities to provide the housing and services to 
our Nation's veterans who might otherwise be sleeping on the street. It 
has been credited with helping to reduce the number of homeless 
veterans over the past several years. However, we have also heard 
testimony from our witnesses here today that funding for this program 
needs to be increased.
    There are also concerns about the structure of the program. 
Community-based organizations contend that the rate at which these 
organizations are compensated, and the fact that it is done on a 
reimbursable basis makes it difficult for them to provide veterans with 
the services that they need.
    Mr. Dougherty, do you think there are legislative or administrative 
changes that should be made to improve this program?
    Answer. VA has testified in support of certain amendments proposed 
in S. 1384 to VA's Homeless Providers Grant and Per Diem Program. In 
particular, section 1 of that legislation would eliminate the existing 
requirement to adjust the rate of per diem paid to a provider under 
VA's Homeless Providers Grant and Per diem Program by excluding other 
sources of income the provider receives for furnishing services to 
homeless veterans through other programs. Such other sources of income 
would include payments and grants furnished to the provider by other 
departments or agencies at the Federal, State, and local level as well 
by private entities. VA supports this provision with the following 
caveat. As currently worded, section 1 could permit a grantee-provider 
to receive more than 100 per cent of its costs for furnishing services 
to homeless veterans. For purposes of accountability, we recommend that 
Congress amend the provision to ensure that the potential for such an 
occurrence is prevented. There are no costs associated with this 
provision.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. In my January 31 meeting with you and Secretary Peake, 
you indicated that you would work under the McKinney-Vento process to 
make available three buildings designated by Secretary Nicholson to 
serve homeless veterans, given the 21,000 homeless veterans in Los 
Angeles County.
    At that meeting, I was told that the Department would hold a public 
meeting within a month to discuss a future notice for supportive, long-
term therapeutic housing at buildings 205, 208 and 209 on the West LA 
VA campus. The goal of this strategy was to begin the McKinney-Vento 
process leading to the formal Federal Register notice requesting 
letters of interest.
    During the meeting, you assured me that you would be able to use 
the McKinney-Vento process to make buildings available to serve 
homeless veterans and that the process would get underway within a 
month.
    Since that meeting, you have expressed concerns to my staff about 
using McKinney-Vento for this project and mentioned that you may 
investigate other options. My understanding is that you have placed the 
McKinney-Vento process on hold.
    My staff followed up with you on several occasions, but since that 
meeting over 3 months ago, it appears that the VA has made little to no 
progress on moving forward with a plan. In my view, we certainly have 
lost precious time since the VA's designation of use for these 
buildings in August 2007.
    What progress have you made for the three buildings that have been 
designated for use for homeless veterans programs?
    Answer. VA has completed a full assessment of all programs and 
activities within the 3 buildings. There are numerous program related 
activities in those buildings to help veterans including a Patient 
Wellness Clinic, occupational therapy, and Mental Health intensive case 
management.
    Question. Why have you put McKinney Vento on hold?
    Answer. As expressed in my first meeting with you and in subsequent 
meetings with you and your staff there appears to be an expectation of 
the type of programs and services to be housed in those three buildings 
that I am convinced will be difficult to achieve by using McKinney-
Vento. We have every intention of following the Secretary's decision 
last year to make them available for homeless services and we continue 
to work with you achieve the type of housing with services that are 
appropriate.
    Question. Have you changed the plan for these buildings that we all 
agreed would be used in our January 31 meeting?
    Answer. At each meeting and conversations with you and your staff I 
have stated that our hope is to insure that the buildings can be used 
to provide high quality housing and services for homeless veterans. 
That has not changed.
    Question. Do you think the process laid-out in the January 31 
meeting is not the best way to ensure sufficient proposals for long-
term homeless housing? If so, please provide your proposed 
alternatives.
    Answer. VA wants to ensure that each building is used 
appropriately. We are exploring enhanced sharing and declaring the 
buildings as underutilized buildings and are making them available 
under McKinney-Vento. In both cases we will only proceed after holding 
extensive meetings that would allow potential applicants for long-term 
housing plenty of notice to get prepared before any notice is 
published.
    Question. Can you explain to me why you are reluctant to use the 
McKinney-Vento process to seek to provide long-term homeless housing?
    Answer. We have no control over the type of services or use for the 
buildings under McKinney-Vento process. We think this could achieve the 
desired result, but it is far more complicated.
    Question. Although we have yet to see action in over 3 months, do 
you have a proposed timeline for implementation of a plan to provide 
this housing?
    Answer. A formal letter outlining our action is forthcoming.
    Question. If you have not made progress, what is your current 
proposal for a way forward?
    Answer. A plan to proceed is underway.
    Question. As you note in your testimony, in fiscal year 2008, the 
Federal Government authorized 10,000 permanent housing units for 
homeless veterans, including 800 housing vouchers for Southern 
California under HUD's Veterans Affairs Supportive Housing Program 
(HUD-VASH) to provide rental assistance and supportive services to 
veterans. While the city of Los Angeles received the vouchers, neither 
the county nor any other city within the county was awarded vouchers.
    Given the large number of homeless veterans spread throughout the 
County of Los Angeles, how will the HUD-VA supportive housing rental 
assistance vouchers and supportive services program be implemented to 
allow homeless veterans the choice to move into homes throughout the 88 
cities within the County of Los Angeles?
    Answer. The decision to use a specific housing authority is made by 
the Department of Housing and Urban Development. I would defer to HUD 
to respond to this question.
    Question. In a document prepared by Dr. John Nakashima of the VA 
Greater Los Angeles Healthcare System in March 2007, he noted some 
trends that are important for consideration of the future of the VA 
system. Specifically, he noted that Southern California VA centers are 
seeing an increase in the number of homeless veteran families at 
homeless centers. I have previously raised the idea of the VA providing 
supportive family housing for veteran families, and personally believe 
the West LA VA campus presents a terrific opportunity to pilot a 
supportive family housing program.
    Do you concur with Dr. Nakashima's assessment that homeless family 
housing needs have increased in recent years?
    Answer. Dr. Nakashima's review concluded that our outreach efforts 
continue to show that there is a slight increase in the percentage of 
homeless veterans with families.
    Question. Have you explored the need for this type of housing and 
the possibility of the VA assisting veteran families with supportive 
housing, especially for homeless families and families of veterans 
returning from combat with multiple amputations, post-traumatic stress 
disorder, and traumatic brain injury?
    Answer. Patients with severe disability from the war are case 
managed, and rarely are homeless. The office of Care Coordination 
insures that the war injured veterans receive case management services 
and appropriate follow-up services. VA conducts an individualized 
assessment of all incoming patients and places them in residential 
treatment setting or housing alternatives that can accommodate and 
provide care for their disabilities.
    Question. Do you believe the VA is capable of providing supportive 
family housing, both in general and specifically at the West LA VA 
campus?
    Answer. VA has some legal limitation regarding services to non-
veterans.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. What additional legislative authorities does the VA need 
to improve its efforts towards reducing homelessness among the veteran 
population?
    Answer. VA has submitted a draft bill to Congress that would permit 
the Department to carry out a pilot program to make grants to public 
and nonprofit (including faith-based and community) organizations to 
coordinate the provision of supportive services available in the local 
community to very low income, formerly homeless veterans residing in 
permanent housing. We look forward to working with Congress to enact 
this legislative proposal.
    Question. How can the VA better target initiatives or programming 
to assist homeless veterans in rural areas, such as in my home State of 
Kentucky?
    Answer. The Community Homelessness Assessment, Local Education and 
Networking Groups (CHALENG) For Veterans meetings is one mechanism to 
identify the unmet homeless veterans' needs, develop an inventory of 
existing services, and identify gaps in services. This planning is 
completed at the local VA level with input and collaboration from other 
Federal, State, and local community providers. VA can better target 
homeless veterans' needs through participation in the local HUD CoC 
planning process and development of your State plan to End Chronic 
Homelessness.
    Question. How can the VA better target certain populations more 
likely to become homeless, such as incarcerated veterans or those with 
substance abuse problems?
    Answer. Collaborations with the U.S. Departments of Labor (DOL) and 
Justice to assist in a coordinated approach to the delivery of services 
to incarcerated veterans are reducing homelessness in the incarcerated 
veteran population. The Incarcerated Veterans Transition Program (IVTP) 
grantee Volunteers of America in Kentucky reported a less than 10 
percent recidivism rate for veterans transitioning from incarceration 
to community re-entry. VA has approved 39 Incarcerated Veteran Outreach 
Specialists to coordinate pre-release planning from a State or Federal 
prison. Each VA Network has at least one specialist assigned to assist 
with pre-release planning and coordination of services.
    Question. What is the VA doing to improve coordination between its 
substance abuse counseling, mental health counseling and homelessness 
programs?
    Answer. VA outreach and case management staff refer homeless 
veterans to appropriate mental health and substance abuse services and 
ensure appropriate follow-up services. The 2007 Northeast Program 
Evaluation Center (NEPEC) data indicate an average of 75 percent fewer 
substance abuse and mental health problems for homeless veterans at 
time of discharge from a Grant and Per Diem transitional housing 
program. VA hired 30 substance abuse counselors to provide on site 
services to veterans residing in transitional housing provided by a 
grantee under the VA Grant and Per Diem Program.
    Question. Is the VA cooperating with non-profit agencies in local 
communities to help address problems associated with homelessness?
    Answer. Nationally VA works very closely with the field to 
coordinate health care and benefits for veterans with other community 
and faith-based community organizations. We have a major focus in 
improving and strengthening our relationships with local community non-
profit and faith based organizations. This is a major priority of mine 
in my roles as National Director Homeless Veterans Programs and Acting 
Deputy Assistant Secretary for Intergovernmental Affairs. Last year, VA 
hosted more than 9,000 individuals and organizations at more than 100 
community assessment meetings to identify unmet homeless veterans 
needs, gaps in services, and develop plans of action in collaboration 
with local community partners to address the local needs.
    Question. What is the VA's optimal staffing level for case 
management in Kentucky?
    Answer. There are 8 operational Grant and Per Diem Programs (GPD) 
with 189 beds in the State of Kentucky. VA has authorized 3 GPD 
liaisons to provide oversight and coordination of services for veterans 
placed in transitional housing. VA has a designated Coordinator for 
Homeless Veterans Program at each VA Medical Center. The case 
management staff veteran ratio for the HUD-VASH Program is one case 
manager to 35 veterans. Kentucky received 70 section 8 housing vouchers 
and VA will hire two staff to provide required case management 
services.
    Question. What is the optimal staffing level at each community-
based outpatient clinic (CBOC) in Kentucky? Is each properly staffed?
    Answer. Each Kentucky CBOC is staffed at the optimal level in 
accordance with VA guidelines:
  --One full time provider for 1,000 to 1,400 patients.
  --At least two support staff (i.e. nurse) for each provider.
    Question. What is the average wait time for an appointment at a 
Kentucky CBOC?
    Answer. The average wait time for an appointment at a Kentucky CBOC 
is less than 30 days from the date of the initial request.
    Question. How could the VA increase utilization of CBOC's by rural 
veterans, particularly those in Kentucky?
    Answer. To increase rural veterans' utilization of CBOCs in 
Kentucky, VA plans to open six new clinics before the end of fiscal 
year 2008 and one in fiscal year 2009. These CBOCs will service rural 
areas and improve access for rural veterans in Kentucky. VHA recognizes 
that delivering health care closer to the veterans' place of residence 
is one way to increase utilization of CBOCs and to better achieve our 
mission of being a patient-centered and integrated health care 
organization.
    Question. What are the transportation options available to rural 
veterans and how can access to transportation be improved?
    Answer. Private organizations and public institutions provide 
different transportation options to rural veterans. Veteran Service 
Organizations (VSO) provides van service to VA clinics and medical 
centers in many areas. County and State governments may provide public 
transportation to or near VA clinics. In some instances, local 
community resources that offer transportation may offer it at low cost 
or no cost to low income veterans. Low income and service-connected 
veterans may be eligible for beneficiary travel reimbursement through 
VA.
    Increasing the availability of VSO van service and county or State 
transportation resources could improve access to transportation for 
Kentucky's veterans.
    Question. What is the policy on mental health screenings for 
veterans seeking or receiving care at CBOCs?
    Answer. VA's CBOC policy on mental health screening is that all 
patients are screened for mental health issues by their primary care 
provider during their initial primary care visit and annually 
thereafter. If an initial screening suggests that treatment or further 
evaluation is needed, the veteran is seen by a CBOC mental health 
provider or, if a higher level of care is required, referred to the 
CBOC's parent facility. All veterans in a CBOC are also screened 
annually for depression, PTSD, alcohol misuse and suicide risk.
    Question. What avenues do patients have to report problems or 
complaints with care at CBOCs?
    Answer. VA tracks patient satisfaction for all medical centers and 
CBOCs through national patient satisfaction surveys. Each CBOC has a 
service-level representative who is trained to receive and address 
complaints. Each VA medical center (parent facility) has seasoned 
patient advocates who are available to the CBOCs.
    Veterans are encouraged to report specific problems or complaints 
that are not resolved at the service-level to the Patient Advocate's 
Office. These complaints are tracked through the Patient Advocate 
Tracking System. All complaints and concerns are tracked in a national 
data base allowing for analysis of trends and benchmarking.
    Question. Please provide a list of operational CBOCs in Kentucky 
and an update on the status of those pending.
    Answer.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                             State (where CBOC
                    CBOC Name                         CBOC Status        Parent Facility        is located)             County            Date Opened
--------------------------------------------------------------------------------------------------------------------------------------------------------
Prestonburg.....................................  Open...............  Huntington.........  KY.................  Floyd..............  07/21/91
Somerset........................................  Open...............  Lexington..........  KY.................  Pulaski............  10/01/00
Morehead........................................  Open...............  Lexington..........  KY.................  Rowan..............  03/17/08
Fort Knox.......................................  Open...............  Louisville.........  KY.................  Hardin.............  01/05/98
Shively.........................................  Open...............  Louisville.........  KY.................  Jefferson..........  07/24/00
Dupont..........................................  Open...............  Louisville.........  KY.................  Jefferson..........  10/19/04
Newburg.........................................  Open...............  Louisville.........  KY.................  Jefferson..........  10/28/04
Bowling Green...................................  Open...............  Tennessee Valley HS  KY.................  Warren.............  06/01/97
Ft. Campbell....................................  Open...............  Tennessee Valley HS  KY.................  Christian..........  07/01/01
Paducah.........................................  Open...............  Marion, IL.........  KY.................  McCracken..........  03/01/98
Hanson..........................................  Open...............  Marion, IL.........  KY.................  Hopkins............  08/19/05
Florence........................................  Open...............  Cincinnati.........  KY.................  Boone..............  09/26/06
Bellevue........................................  Open...............  Cincinnati.........  KY.................  Campbell...........  06/21/99
Community Based Clinics approved and scheduled
 to open by the end of the fiscal year 2008 or
 fiscal year 2009 are:
    Berea.......................................  Approved...........  Lexington..........  KY.................  Madison............  9/08 \1\
    Hazard......................................  Approved...........  Lexington..........  KY.................  Perry..............  6/23/08
    Leitchfield.................................  Approved...........  Louisville.........  KY.................  Grayson............  9/08 \1\
    Carollton...................................  Approved...........  Louisville.........  KY.................  Carroll............  9/08 \1\
    Hopkinsville................................  Approved...........  Tennessee Valley HS  KY.................  Christian..........  9/08 \1\
    Owensboro...................................  Approved...........  Marion, IL.........  KY.................  Daviess............  9/08 \1\
    Mayfield....................................  Approved...........  Marion, IL.........  KY.................  Graves.............  12/08 \2\
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ On schedule to open September, 2008.
\2\ This CBOC was approved for fiscal year 2009, it is expected to be operational by the end of the first quarter of fiscal year 2009.

    Question. Of the operational CBOCs in Kentucky, please list which 
ones provide services from contracted health care.
    Answer. Bowling Green is the only CBOC in Kentucky that provides 
services from contracted health care. All others are staffed by VA 
employees.
                                 ______
                                 
                Questions Submitted to Cheryl Beversdorf
              Questions Submitted by Senator Patty Murray

                          THE HUD-VASH PROGRAM

    Question. In providing funding and developing the legislative 
language for HUD-VASH last year, we took great care to ensure that the 
program had enough flexibility to serve the most vulnerable veterans. 
We asked HUD and VA to consider the nearness to VA Medical Centers to 
ensure that services would be delivered efficiently. But many veterans 
are located in rural areas--far from a VA Medical Center--perhaps 
making them even more vulnerable to homelessness.
    How can the VA better serve homeless veterans in need of permanent 
supportive housing that aren't near a VA medical center?
    Answer. The new HUD-VASH voucher program goes a long way towards 
making section 8 permanent housing available to veterans in rural 
areas. Rural homeless tend to be much less visible as ``on the street'' 
homeless and more likely to be living in cars, on friend's couches, or 
in substandard spaces. VA case managers will monitor these veterans and 
they will avail themselves of services provided by both VA and the 
community. One of the VA Advisory Committee on Homeless Veterans major 
recommendations last year was for VA to develop programs for supportive 
services for permanent housing, including rural homeless.
    Additionally, for all veterans at risk of homelessness, the first 
line of engagement should be a strong partnership between VA and 
community health centers, especially in rural areas underserved by the 
VA. While current practice allows a veteran to access services at non-
VA facilities, the process is often frustrating and problematic, 
particularly for a veteran in crisis. Protocols should be developed to 
allow VA and community clinics to process a veteran's request for 
assistance directly and immediately without requiring the patient to 
first go to a VA medical facility.

                        PREVENTING HOMELESSNESS

    Question. In addition to all of the physical and mental challenges 
that our veterans face, they are also facing a declining economy. Gas 
and food prices are rising, affordable housing is getting harder to 
find and jobs are scarce. Addressing the economic challenges that many 
veterans face will be important in preventing more veterans from 
becoming homeless.
    Ms. Beversdorf, how can we get veterans better job training to help 
them achieve greater economic stability?
    Answer. Make the Transition Assistance Program (TAP) mandatory for 
all separating troops and provide enough employment and training 
assistance staff to develop a separation plan for each new veteran. The 
Warrior Transition Unit (WTU) at Fort Drum, NY could serve as a 
prototype for getting this done--the combination of case management and 
resources including education, career preparation, and employment 
assistance is very successful.
    Additionally, last year the U.S. Department of Labor Veterans' 
Employment and Training Service established the Advisory Committee on 
Veterans' Employment and Training and Employer Outreach (ACVETEO), 
which is responsible for assessing the employment and training needs of 
the Nation's veterans. Such needs may include transition assistance, 
protection of employment and reemployment rights, education, skills 
training, and integration into the workforce, among others. Not later 
than December 31 of each year ACVETEO is required to submit a report to 
the Secretary of Labor and the Senate and House Committees on Veterans 
Affairs on the employment and training needs of veterans for the 
previous fiscal year with a special emphasis on disabled veterans.

                    HOMELESS VETERANS WITH FAMILIES

    Question. The number of female veterans is increasing. We are also 
seeing an increasing number of families with dependent children 
homeless or at-risk of homelessness. Most of the programs at the VA, 
however, are not designed to meet the needs of veterans with families.
    Ms. Beversdorf, what are your thoughts on the challenge of serving 
female veterans, including those with children?
    Answer. In-patient PTSD for returning women veterans is a need and 
some may also have been sexually harassed or abused. Currently, lack of 
day care prevents many female veterans from accessing VA services; 
female veterans without other family support for childcare often forego 
VA services rather than risk losing custody of minor children. Congress 
needs to grant authority to VA to provide for services to minor 
children of veterans male and female.
    VA needs to continue to expand programs and services for women, the 
fastest growing segment of the homeless veteran population. Additional 
funding could be used under current law to increase the number of 
special needs grants awarded under the GPD program. The program awards 
these grants to reflect the changing demographics of the homeless 
veteran population. One grant targets women veterans, including those 
with dependent children. Women now account for more than 14 percent of 
the forces deployed to Iraq and Afghanistan, yet there are only eight 
GPD programs receiving special needs grants for women in the country.

                     TRANSITIONAL HOUSING PROGRAMS

    Question. Many homeless veterans struggle with mental illness and 
substance abuse. It is critical for them to get into stable housing so 
they can concentrate on getting well instead of worrying about where 
they are going to sleep that night. The VA has many transitional 
housing programs, but this assistance is limited to 2 years. Many 
veterans will continue to need housing or supportive services after 
they must leave these programs.
    Ms. Beversdorf, what happens to veterans who hit the time limit, 
but are not yet ready to transition into housing on their own?
    Answer. There is flexibility in the VA program that allows 
extension of transitional services beyond 2 years if clinically 
appropriate. Those veterans who cannot ``graduate'' from transitional 
programs are candidates for permanent supportive housing and one of the 
main reasons for creating the new section 8, HUD-VASH program. This is 
currently only available through non-VA channels (HHS) but VA has been 
encouraged to develop veteran specific supportive services by the 
Advisory Committee on Homeless Veterans.
    The Senate recently passed S. 2162, the Veterans' Mental Health and 
Other Care Improvements Act of 2008, which contains a measure that 
would provide grants to government and community agencies to provide 
supportive services to low-income veterans in permanent housing. Funds 
would be used to provide continuing case management, counseling, job 
training, transportation and child care needs. Similar legislation was 
included in H.R. 2874, which the House passed last year. Another bill, 
S. 2273, the Enhanced Opportunities for Formerly Homeless Veterans 
Residing in Permanent Housing Act of 2007, was recently considered by 
the Senate Veterans Affairs Committee and, if enacted, would provide 
supportive services to very low income, formerly homeless veterans 
residing in permanent housing.
    Question. Do we have any data on the number or percentage of 
veterans that benefit from transitional housing assistance but then end 
up homeless because the 2-year period of eligibility expires?
    Answer. The Northeast Program Evaluation Center (NEPEC) at the West 
Haven VAMC collects outcome data from VA Grant and Per Diem program 
operators.

                  THE VA'S GRANT AND PER DIEM PROGRAM

    Question. The Grant and Per Diem Program is an essential tool that 
communities use to address the issue of homelessness among our 
veterans. It allows communities to provide the housing and services to 
our Nation's veterans who might otherwise be sleeping on the street. It 
has been credited with helping to reduce the number of homeless 
veterans over the past several years. However, we have also heard 
testimony from our witnesses here today that funding for this program 
needs to be increased.
    Ms. Beversdorf, you have both testified that you would like to see 
the program funded at $200 million. Can you explain how you arrived at 
this number?
    Answer. In September 2007, despite the commendable growth and 
success of the Grant and Per Diem Program and its role in reducing the 
incidence of veteran homelessness, the Government Accountability Office 
(GAO) reported the VA needs an additional 9,600 beds to adequately 
address the current need for assistance by the homeless veteran 
population. That finding was based on information provided by the VA, 
the GAO's in-depth review of the GPD program, and interviews with 
service providers. The VA concurred with the GAO findings.
    The projected $137 million in the President's fiscal year 2009 
budget request will allow for expansion of the GPD program, but it is 
not nearly enough to address the needs called for in the GAO report. 
For example in 2006, the VA created the position of GPD Liaisons at 
each medical center to provide additional administrative support for 
the GPD office and grantees. The VA published a comprehensive program 
guide to better instruct grantees on funding and grant compliance 
issues, and expects to provide more intense training of GPD Liaisons. 
This represents a considerable and continual investment in the 
administrative oversight of the program that should translate into 
increased capacity to serve veterans in crisis.
    Additional funding would increase the number of operational beds in 
the program, but under current law it could also enhance the level of 
other services that have been limited due to budget constraints. GPD 
funding for homeless veteran service centers--which has not been 
available in recent grant competitions--could be increased. These drop-
in centers provide food, hygienic necessities, informal social supports 
and access to assistance that would otherwise be unavailable to men and 
women not yet ready to enter a residential program. They also could 
serve as the initial gateway for veterans in crisis who are threatened 
with homelessness or dealing with issues that may result in 
homelessness if not resolved. For Operation Iraqi Freedom and Enduring 
Freedom (OIF/OEF) veterans in particular, this is a critical 
opportunity to prevent future veteran homelessness.
    Additional funding could also be used under current law to increase 
the number of special needs grants awarded under the GPD program. In 
addition to the need for more programs for women veterans, other 
focuses include the frail elderly, increasingly important to serve 
aging Vietnam-era veterans--still the largest subgroup of homeless 
veterans; veterans who are terminally ill; and veterans with chronic 
mental illness. These grants provide transitional housing and supports 
for veteran clients as organizations work to find longer-term 
supportive housing options in their communities.
    Question. There are also concerns about the structure of the 
program. Community-based organizations contend that the rate at which 
these organizations are compensated, and the fact that it is done on a 
reimbursable basis makes it difficult for them to provide veterans with 
the services that they need.
    Ms. Beversdorf, do you think that changes should be made to the 
program in order to better serve homeless veterans?
    Answer. Yes. Currently the reimbursement an organization receives 
under the Grant and Per Diem Program (GPD) is based on the State 
veterans' home rate--which is generally custodial care--and limited to 
about $31 per day. That rate is then discounted based on additional 
Federal funding an organization receives. The original intent of the 
GPD program was to provide beds in a safe, substance-free environment 
for veterans transitioning out of homelessness. Experience has shown 
this transition also requires intense case management; counseling for 
substance abuse and behavioral problems; treatment for physical and 
mental illnesses; employment preparation, placement and follow-up 
services; life skills training; legal assistance; family reunification 
services, child care assistance. Access to these services is vital to 
successful transition out of homelessness; and these all represent 
additional costs to the service provider.
    Many organizations receive grants from the Departments of Housing 
and Urban Development, Labor, Justice, Health and Human Services, and 
Education to provide specialized services for their homeless clients, 
but the amount of reimbursement under the GPD program is reduced if 
homeless veteran programs receive other Federal funding. The guidelines 
of the GPD program make it clear that successfully competing for funds 
requires links to other community-based and local government agencies, 
yet penalize organizations that receive Federal funds to do so.
    A payment system based on the scope of services available at a 
facility rather than simply a daily amount for a veteran in a bed would 
allow VA to better coordinate and regulate the GPD program. VA would, 
as it does now, continue to monitor activities at GPD providers and 
audit their annual reports. However, organizations that provide on-site 
case management, 24-hour emergency psychiatric assistance, on-site 
employment preparation and placement services, on-site kitchen and 
meals, transportation assistance, child care facilities for dependent 
children and other supportive services would be able to incorporate 
those necessary costs in their grant applications as ``allowable'' 
costs chargeable to the VA under the Grant and Per Diem Program.
    The list of supportive services allowable under the grant would 
have to be revised, but not the application process. Organizations 
would have to clearly indicate the number of veterans their programs 
would serve, acceptable housing and employment ``placement targets,'' 
as they do now, but also an estimation of the cost and reach of their 
supportive services offerings. Annual audits would validate reported 
expenses and certify program outcomes. The audits are currently 
required, and GPD liaisons at all VA Medical Centers are responsible 
for completing these oversight functions, so there would be no 
significant increase in administrative burden for the program. 
Applicants would be evaluated on the number of veterans they help, the 
breadth of services they provide, and success reaching or exceeding 
their goals.
    While the prime objective of this recommendation is to help 
organizations provide the best level of care and continuity of services 
possible, it would also provide more financial stability to 
organizations--mostly nonprofits--focusing on service gaps that the 
Government needs help to fill. That is the fundamental purpose of the 
Grant and Per Diem Program, and we now have an appreciable body of 
evidence that supports revising the payment system.
        the role of the u.s. interagency council on homelessness
    Question. The Interagency Council on Homelessness is charged with 
coordinating the Federal response to homelessness. Members of ICH 
represent various departments and agencies within the Federal 
Government, including HUD, the VA, the Department of Defense and the 
Department of Labor. I think it is noteworthy that Secretary Peake is 
currently chairing the ICH. I hope that he will take this opportunity 
to promote better coordination and a greater commitment by Federal 
agencies to ending homelessness for veterans.
    Ms. Beversdorf, what can the ICH do to improve coordination among 
Federal agencies?
    Answer. There needs to be greater effort among non-VA agencies to 
identify those clients who are veterans and receiving services, but may 
not be accessing VA services for which they are eligible. There is no 
way to know today how many veterans these non-VA providers are serving. 
The ICH should encourage increased visibility in 10-year plans to the 
work being done by communities in their work with veterans.
                                 ______
                                 
                 Questions Submitted to Steven R. Berg
              Questions Submitted by Senator Patty Murray

                            FEMALE VETERANS

    Question. The VA has also reported that while females currently 
make up 4 percent of the homeless population, they make up 11 percent 
of new homeless veterans. More female veterans are also under greater 
economic pressure than their male counterparts. Mr. Berg, an assessment 
conducted by your organization found that many female veterans are 
spending too much of their income on housing, putting them at greater 
risk of homelessness.
    How is the lack of affordable housing affecting veterans and 
especially female veterans?
    Answer. As stated in our report, Vital Mission: Ending Homelessness 
Among Veterans, about 4 percent of veterans pay more than 50 percent of 
their income for housing. This kind of ``severe housing cost burden'' 
is actually rarer among veterans than among non-veteran Americans, but 
this is small comfort for those veterans who experience it. Among 
veterans who are women, severe housing cost burden is more common--the 
rate is approximately 6 percent. For veterans who rent, the rate is 
higher: approximately 10 percent for all veterans and 13 percent for 
women.
    The effects of high housing cost burdens are well known. 
Homelessness is the most obvious and debilitating. Even for those who 
never experience homelessness, however, many move frequently, 
establishing a pattern of getting behind in rent, scraping together 
enough money move into a new apartment before being evicted from the 
old one, and starting the process over again. This pattern, often 
involving three or four moves each year, has a bad impact on the 
ability to be part of a community, and makes it particularly difficult 
for children to achieve in school, since in many cases a move means a 
new school and resulting challenges. In extreme cases, severe housing 
cost burdens can place families in the position of choosing between 
rent/heat and food.

              RAPID RE-HOUSING MODEL FOR HOMELESS VETERANS

    Question. Lack of affordable housing is a major risk factor for 
homelessness. In addition, we know that many people, including 
veterans, can suddenly find themselves homeless due to a sudden or 
temporary economic hardship. The solution for these veterans may be 
short-term rental assistance, or perhaps help with the first and last 
month's rent to find a home. This idea is similar to the rapid re-
housing demonstration program that I included in last year's bill.
    Mr. Berg, how effective would this type of assistance be in helping 
veterans avoid homelessness? And how could HUD and the VA partner on 
such an initiative?
    Answer. Very helpful. Many veterans end up homeless after losing 
housing that had the potential to be stable. Emergency prevention and 
rapid rehousing programs deal with financial issues using short-term or 
one-time assistance for back rent and/or security deposits. They deal 
with longer term financial issues by using community-based resources to 
help increase earnings and access cash benefits for which people are 
eligible--veterans have enhanced opportunities in this regard due to 
programs like the Homeless Veterans Reintegration Program at DOL, and 
the system of veterans benefits. Rapid rehousing and emergency 
prevention programs also deal with other kinds of issues such as mental 
health, substance abuse, resulting conflicts with family members, 
through case management and use of community-based programs. For 
veterans, the availability of help through the VA for addressing issues 
such as PTSD would be a huge advantage. This would allow more expensive 
resources, such as slots in transitional housing or permanent 
supportive housing, to be reserved for veterans with the most severe 
problems.
    The key challenges in implementing this model more broadly for 
veterans who are homeless or at risk of homelessness are:
  --Having designated people at the local level who can perform the 
        ``real estate function,'' developing relationships with local 
        landlords and helping veterans find housing.
  --Making the flexible funding available to pay for back rent, 
        security deposits, credit checks, and other costs related to 
        securing or maintaining housing.
  --Ensuring broad availability of VA resources to address PTSD--
        anecdotal reports indicate a repeat for recent veterans of a 
        common pattern from the Viet Nam era, with veterans who 
        originally moved in with family losing that housing because of 
        increased household conflict due in part to the effects of 
        PTSD.

             TRANSITIONAL HOUSING VERSUS PERMANENT HOUSING

    Queston. The HUD-VASH program is the only program that the VA 
participates in that provides for permanent housing instead of 
temporary transitional housing. Over in the HUD budget, we are 
emphasizing permanent housing and setting aside 30 percent of the 
homeless funding available for permanent housing.
    Mr. Berg, how effective has the 30 percent set-aside within the HUD 
budget been?
    Answer. The 30 percent set-aside has been the device used by 
Congress to ensure that a substantial percentage of the new money that 
Congress has put into the HUD McKinney-Vento programs goes for 
permanent supportive housing. It was adopted after a period when 
spending by local communities on permanent supportive housing dropped 
precipitously, despite evidence that PSH was a very effective 
intervention. It has had its intended effect--since its adoption, 
60,000 units of PSH have been funded across the country, with many 
communities reporting substantial reductions in street homelessness as 
a result. At the same time, spending on other kinds of homeless 
programs has also increased, although not to the same extent.
    Question. Do you think that permanent housing should be an eligible 
purpose for some of the VA's housing programs, such as the Grant and 
Per Diem Program?
    Answer. In order to end homelessness among veterans, more permanent 
supportive housing needs to be available. The Grant and Per Diem 
Program has historically been a temporary intervention, which works 
well for veterans with temporary barriers. For those with permanent 
disabilities, however, a permanent solution is needed. One simple way 
to achieve this would be to expand eligible activities under GPD to 
include permanent housing for those who need it, but of course this 
will only be effective if accompanied by an expansion in funding to 
avoid negatively impacting the number of transitional beds.

        THE ROLE OF THE U.S. INTERAGENCY COUNCIL ON HOMELESSNESS

    Question. The Interagency Council on Homelessness is charged with 
coordinating the Federal response to homelessness. Members of ICH 
represent various departments and agencies within the Federal 
Government, including HUD, the VA, the Department of Defense and the 
Department of Labor. I think it is noteworthy that Secretary Peake is 
currently chairing the ICH. I hope that he will take this opportunity 
to promote better coordination and a greater commitment by Federal 
agencies to ending homelessness for veterans.
    Mr. Berg, what can the ICH do to improve coordination among Federal 
agencies?
    Answer. One fruitful area for coordination would be in the 
collection of data about homelessness. The VA Health Care system has 
made great strides in documenting the housing status of people it 
serves. Through the ICH this practice should be incorporated by other 
Federal ``mainstream'' agencies. This would help in targeting 
interventions to those who are using the most expensive taxpayer-funded 
services.
    Another important undertaking would be to complete the process of 
developing a plan for the Federal Government fulfilling its role in 
ending homelessness. This kind of strategic planning has had a positive 
impact at the local and State level. Various attempts have been made 
over the years to develop such a plan, but they have never been 
completed.
    A third important undertaking would be an ongoing identification of 
gaps in the system of Federal supports. For example, veterans become 
homeless despite the expenditure of billions of dollars for services to 
needy veterans, in part because of the lack of a relatively inexpensive 
system to help veterans with housing crises. The ICH should maintain a 
comprehensive list of services available and, more importantly, a clear 
assessment of where services are lacking.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin

    Question. One of your policy recommendations includes providing 
permanent supportive housing units to meet the needs of the as many as 
66,000 chronically disabled, chronically homeless veterans in the 
country.
    What steps can Congress take to implement this recommendation?
    Answer. Funding of additional HUD-VASH vouchers or some other form 
of support for the operating costs of permanent supportive housing. 
Targeting of these resources to chronically homeless veterans will 
increase the rate at which this problem is resolved.
    Creation of a program to fund capital development for permanent 
supportive housing for veterans.
    Allow the VA to contract with nonprofit providers to provide 
support services to veterans who have moved from the streets into 
supportive housing.
    (As an alternative, making permanent housing an allowable activity 
under the Grants and Per Diem Program, accompanied by a sufficient 
increase in funding for that program, would have the same effect as the 
previous items.)
    Through oversight, encouragement of a management agenda at the VA 
that encourages local VA officials to identify chronically homeless 
veterans and prioritize them for inclusion in VA-funded housing 
programs such as Grant and Per Diem and HUD-VASH, and also encourages 
them to coordinate on the local level with HUD-funded homelessness 
programs to ensure that these veterans have a fair opportunity to use 
HUD-funded programs for permanent supportive housing for homeless 
people.
                                 ______
                                 
                  Questions Submitted to Paul Lambros
              Questions Submitted by Senator Patty Murray

                  THE VA'S GRANT AND PER DIEM PROGRAM

    Question. Mr. Lambros, your organization provides permanent housing 
to homeless veterans in Seattle, and I understand that your 
organization is currently unable to use the VA's Grant and Per Diem 
Program.
    Is the Grant and Per Diem Program something that would help you 
better serve homeless veterans and can you help us understand the 
restrictions that limit your ability to use this funding?
    Answer. Yes. This VA program, particularly the Per Diem aspect, 
would go a long way towards offering veterans the type of on-site 
supportive case management which we have consistently proven helps 
formerly homeless people with complex issues and disabilities remain 
safe and secure in housing. This effective model calls for a Housing 
Case Manager to client ratio of 1:25, as well as a front desk at the 
building which is staffed 24/7. While this remains a highly cost 
effective approach (in that the evidence points to the fact that it 
prevents the types of crises that result in frequent, costly Emergency 
Room visits, ambulance services, jail bookings, and detox admissions) 
the services still require funds.
    The Per Diem Program would be a cost-efficient use of funds, yet 
the VA imposes restrictions on the type of housing it will support with 
the funds--they can only be used in transitional housing projects.
    Plymouth Housing Group has posited, for over 15 years, that 
permanent supportive housing (PSH), with attached services, is the best 
path for homeless single adults. In the last few years, PSH has become 
nationally acclaimed as the most humane, clinically sound, and cost-
efficient model for ending homelessness for this adult population in 
which veterans are highly represented.
    Without hesitation, I can say that more veterans in our State would 
be safely and stably housed if the VA's Grant and Per Diem program 
could expend its funds on permanent, support-enriched housing.
    Another issue that prevents agencies such as Plymouth Housing Group 
from utilizing the Grant and Per Diem funds relates to another example 
of inflexibility in the program. Capital funding under the Grant 
Program is restricted to non-profit organizations. However, to develop 
high-quality supportive housing, agencies in our State use the Federal 
Low Income Housing Tax Credit Program. Tax credit projects require the 
formation of for-profit partnerships, and thus are not eligible to 
receive the VA Grant capital funding because technically the non-
profits do not have site control. However, non-profit partner does take 
control after the 15 year compliance period of the tax credit program. 
When developing a project along with the tax credit program we use 
city, county and State capital funding--all vital to make a project 
work. Those funding sources have recognized the importance of the tax 
credit program and have made their funding more flexible in response.
    Again, agencies such as Plymouth Housing Group would be able to 
work harder at ending homelessness for our veterans if we could access 
these funds within our current funding structures.

           COORDINATION BETWEEN FEDERAL AGENCIES IN THE FIELD

    Question. We have created many programs to address the needs of 
homeless veterans. Programs range from housing to health care to job 
training, and they are scattered among various Federal agencies, 
including HUD, the VA and the Department of Labor. I held a roundtable 
on the issue of homeless veterans in Seattle in February and I heard 
from some at the event that there was little coordination between HUD 
and the VA on the ground level.
    Mr. Lambros, as a provider who interacts with veterans every day, 
what has been your experience with various Federal agencies and their 
coordination?
    Answer. When I hear people speak of poor coordination, they are 
usually referring to the policy-makers and administrators in those 
Federal agencies. For instance, one agency may be admirably developing 
a means to securing more rental subsidies for veterans, and yet the 
agency who actually serves homeless veterans may be excluded from those 
discussions or indeed the actual subsidy grant-process until the last 
minute. So it seems like the decisionmaking entities in Washington, DC 
may not be accessing the rich information and experiences that local VA 
agencies have gleaned from serving veterans. Senator Murray's round 
table was an excellent model for hearing about the real issues 
occurring in our State.
    Plymouth Housing Group's partnership with the Department of 
Veterans Affairs, via the VA Puget Sound Healthcare System has been 
developed an enhanced by committed and intelligent staff at that 
facility. These professionals have built solid bridges with Plymouth 
Housing Group staff in order to bring the best services possible to the 
veteran clients we share. Coordination is maintained through regular 
communication and case conferencing.
    Plymouth tenants tell us that, within the large VA itself, the 
various structures are not well-connected. For instance, the Health 
Administration is a completely different body from the Benefits 
Administration, often causing confusion to clients who cannot 
understand why staff at one facility cannot process problems, and that 
these need to be directed to another facility. It seems that the 
concept of ``one-stop'' services is not available to veterans. Without 
the professional support of case managers in the community, I do not 
know how veterans can negotiate these large systems.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin

    Question. In your prepared testimony, you mention that your focus 
is to transition homeless people from the streets directly to permanent 
housing.
    What brought you to the conclusion that this is the best approach, 
say as an alternative to transitional housing?
    Answer. Plymouth Housing Group strives to provide a milieu that is 
stabilizing for the long term, and our experience has informed us that 
helping people to move directly into permanent supportive housing is a 
good way to ensure long-term stability.
    This is particularly true for the population we serve--people who 
have been labeled ``hard to house'' by more conventional housing 
projects--people who do not ``fit'' anywhere else. We have always 
believed that everyone deserves housing and that people, particularly 
the poor and vulnerable, should not have to negotiate endless barriers 
and meet a slew of conditions in order to earn the right to be housed. 
Our goal is to get them off the streets, into a safe environment and, 
once housed, offer them all the services and support they need to turn 
their lives around. It fits our mission and it works!
    This model of homeless housing has gained huge popularity 
nationally--you may have heard it referred to as Housing First: http://
www.endhomelessness.org/content/article/detail/1423/.
    It is a growing movement that recognizes the financial and health-
related value of getting people off the streets and into the place they 
can call ``home''--rapidly and permanently. The evidence-basis of this 
national movement is that the more quickly people are moved into a 
place that feels permanent for them, the more wiling and able they are 
to work on their life-improvement goals.
    For single adults, transitional housing is simply a place for 
someone to make life changes in order to ``prove'' that they are 
``housing-ready''. When the program duration is up, the person needs to 
move into a new home. At Plymouth and other similar permanent 
supportive housing programs, people do not have to move as a 
consequence of doing well. They are home, and do not need to have their 
lives disrupted once again in response to program mandate adherence.
    I have heard good arguments for transitional housing being a 
component for family homelessness and for domestic violence survivors. 
So when I make this argument for a direct move from homelessness into 
permanent housing, I need to qualify that our experiences and evidence 
come from our practices with the single adult homeless population.

                         CONCLUSION OF HEARING

    Senator Murray. With that, this subcommittee is recessed, 
subject to the call of the Chair. Thank you.
    [Whereupon, at 11:45 a.m., Thursday, May 1, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
